U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                            Reference Checking
                       in the Department of Justice

                                      January 2013




                                       I-2013-002 

                               EXECUTIVE DIGEST 



INTRODUCTION

      The Office of the Inspector General conducted this review to assess
whether and how Department of Justice (Department) components
contact job applicants’ references to evaluate their past performance
when making hiring decisions, and whether component policies exist to
guide reference check practices. This report is intended to provide
component hiring officials and human resource policy makers with
practical information to help them select the most qualified, capable job
applicants.1

       The U.S. Office of Personnel Management (OPM) defines reference
checking as an objective evaluation of an applicant’s past job
performance based on information collected from key individuals –
including supervisors, coworkers, and subordinates – who have known
and worked with the applicant.2 Reference checks are conducted to
verify the accuracy of information the applicant provides, better predict
an applicant’s job success, and provide information about the applicant’s
professional reputation and accomplishments.3 Reference checking
allows hiring officials to make a more informed hiring decision, avoid the
cost of hiring an employee who does not perform well or remains in the
position for only a short time, and ensure the applicant is a good
organizational fit for the position. Because reference checks are used to
guide a hiring decision, they are conducted before selecting an applicant
and making a conditional job offer.

      No government-wide requirements exist for reference checking as a
part of the hiring process for federal applicants. However, OPM and the
Merit Systems Protection Board (MSPB) encourage federal agencies to
check applicant references for every hiring action. The Department
requires reference checking only for new career attorney applicants. The
Department has delegated to its components the authority to set
reference checking policies for other occupations.


       1  We use the term “hiring officials” to describe any individuals having input into
the hiring process, regardless of whether they make the final hiring selection. We use
the term “applicants” to describe all individuals who submit an application.

       2   OPM, Assessment Decision Guide (undated), 33.

       3   OPM, Reference Checking (undated).


U.S. Department of Justice                                                               i
Office of the Inspector General
Evaluation and Inspections Division
      Because there is no requirement that hiring officials conduct,
document, or retain records of reference checks for all employees, we did
not attempt to identify the number of individuals in the Department who
were reference checked or those who were not hired as a result of
reference checking. Consequently, we are unable to comment on the
actual prevalence of reference checking across the Department in this
report. Rather, we identify the components that provided written
reference check policies, guidance, questions, or described practices to
us during our review. We also present information about reference check
practices developed through a telephone survey we conducted of
component hiring officials and interviews with human resource, security,
and hiring managers.

RESULTS IN BRIEF

       For non-law enforcement positions, reference check policies for
new hires were inconsistent across the Department during our review
period of February through September 2011.4 Only 3 of the 39
components whose policies we reviewed provided their hiring officials
with clear, written reference check guidance that included position-
specific questions for officials to ask references and addressed
documentation requirements for reference checks. Nine components had
general written policies or related guidance (such as tip sheets) for
conducting reference checks on new employees, but this guidance was
not always position-specific and did not always address documentation
requirements. Thirteen components provided only a reference check
questionnaire or form, but did not provide any additional written policy
or guidance about when to use it. The remaining 14 components had no
written policies, guidance, or forms.

       For law enforcement positions, policies and practices were
generally consistent in that there were no policies requiring reference
checks for new law enforcement applicants, and hiring managers told us
that they did not conduct reference checks when hiring these new staff.
Notably, the two largest components – the Federal Bureau of
Investigation and the Federal Bureau of Prisons, which made 63 percent
of the Department’s fiscal year 2010 hiring actions in all job series within
our scope – did not conduct reference checks for most new employees.
Instead, components used methods other than reference checking to

       4  In this report, we define law enforcement positions as those in the 1811
Criminal Investigation Occupational Series, which includes special agents (criminal
investigators) and deputy U.S. marshals. Deputy U.S. marshals hired under the 0082
Deputy U.S. Marshal Series are also included in our definition. We do not include
correctional officers in the 007 job series in the definition of law enforcement.


U.S. Department of Justice                                                            ii
Office of the Inspector General
Evaluation and Inspections Division
assess the skills and aptitudes of new applicants for law enforcement
positions, such as background investigations; performance assessments
of applicants during training at a federal law enforcement training
center; polygraph examinations; logic, cognitive, and behavior tests;
panel interviews; medical examinations; drug tests; and fitness tests.
While these methods may demonstrate the applicant’s abilities and
suitability for employment and eligibility for national security access,
they do not replace a reference check, which provides valuable
performance information directly from prior employers and others who
have worked with the applicant.

       Reference check practices varied considerably within components.
Hiring officials who hired new applicants into non-law enforcement
positions told us they generally conducted reference checks and
described the benefits they believed conducting the checks provided. As
recommended by OPM and MSPB, most hiring officials who conducted
reference checks were managers, and those managers contacted
professional references (individuals who have worked with the applicant).
In addition to contacting references provided by the applicant, hiring
officials followed OPM and MSPB recommendations to contact additional
references not provided by the applicant and generally contacted all
references by telephone. However, we found that hiring officials
generally did not conduct reference checks at the most useful point in
the hiring process, did not obtain applicants’ permission before
contacting additional references, and did not document reference checks
using a standard form, as OPM and MSPB recommend.

       Further, some components mistakenly conducted vouchering – a
type of suitability determination – in lieu of a reference check.5 In
addition, not all components were aware of, or were following, an Office
of Attorney Recruitment and Management (OARM) requirement to
conduct both reference checks and vouchering for attorney hires.
Finally, hiring officials we interviewed who reported that they usually
conducted reference checks were often uncertain of their component’s
reference check expectations and allowable practices. Specifically, they

       5   Vouchering is conducted in the Department using a form with standard
questions (for example, questions involving the applicant’s trustworthiness, honesty,
reliability, and loyalty to the United States) corresponding to some of the suitability
factors in 5 C.F.R. part 731 (see Appendix I). In contrast, reference checking is an
objective evaluation of an applicant’s past job performance based on information
collected from key individuals who have known and worked with the applicant.
Because they are used to guide a hiring decision, reference checks are conducted before
selecting an applicant and making a conditional job offer, while suitability
determinations are typically conducted after the agency has selected an applicant and
made a conditional job offer.


U.S. Department of Justice                                                           iii
Office of the Inspector General
Evaluation and Inspections Division
were generally uncertain whether reference checking was required and
for which positions; what questions they could ask during a reference
check; and how they should document and retain reference check
information. Those hiring officials expressed a need for flexible reference
check guidance, including recommended questions and best practices.

       Clear guidance and more certainty among hiring officials about
their component’s expectations with regard to reference checks are
needed.6 Currently, hiring officials may not be asking questions in a
manner that elicits the most useful or descriptive response, or hiring
officials may be asking irrelevant or inappropriate questions of
references. We believe these conditions diminish the effectiveness of
reference checking and can contribute to unknowingly hiring a poor
performer or an unqualified applicant.

      Further, we believe a cursory check of an applicant’s suitability for
federal service, such as vouchering, cannot serve as a substitute for a
reference check because vouchering does not verify the applicant’s duties
in past positions or evaluate an applicant’s past performance.
Understanding the differences between the purposes of a suitability
determination, such as vouchering, and reference checking is critical to
ensuring an applicant is thoroughly screened for both suitability and
capability.

RECOMMENDATIONS

      We make six recommendations to the Justice Management
Division to improve selection of the most qualified job applicants across
the Department:

       1. Issue guidance to Department component heads, Executive
          Officers, and Human Resources Officers clarifying the purposes
          of, and distinctions between, suitability determinations (such as
          vouchering) and reference checking, including differences in
          topics covered, who conducts the checks, the sources
          contacted, and when in the hiring process each occurs;




       6  A working group within the Attorney General’s Advisory Council for Savings
and Efficiencies (SAVE Council) has drafted an Employment Reference Questionnaire
for hiring officials intended for Department-wide use when contacting applicants’
references. In May 2012, the Justice Management Division published the questionnaire
in the Federal Register and requested comments by July 2, 2012.


U.S. Department of Justice                                                        iv
Office of the Inspector General
Evaluation and Inspections Division
       2. Reiterate components’ obligation to follow OARM Memorandum
          2010-3, which requires both reference checking and vouchering
          using Form OBD-236 for attorney applicants;

       3. Justice Management Division Human Resources/
          Administration office (JMD HR) develop and issue Department-
          wide guidance on the use of reference checks;

       4. JMD HR assist components to update or issue comprehensive
          reference check guidance that meets their unique hiring needs;

       5. Create a central location on the Department’s intranet where
          general reference check guidance for components and hiring
          managers is posted and regularly updated, including guidance
          from OPM and MSPB, as well as Department best practices and
          sample reference check questions; and

       6. Provide periodic training on reference checks, or include it as a
          part of broader human resource training.




U.S. Department of Justice                                                    v
Office of the Inspector General
Evaluation and Inspections Division
                                  TABLE OF CONTENTS 



 BACKGROUND ................................................................................. 1
 

 PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW .... 10
 

 RESULTS OF THE REVIEW............................................................. 15
 

       PART I: DEPARTMENT REFERENCE CHECK POLICIES AND 

       GUIDANCE .............................................................................. 15
 

       PART II: REFERENCE CHECK PRACTICES AND RELATED

       FEDERAL GOVERNMENT RECOMMENDATIONS ..................... 30
 

 CONCLUSION AND RECOMMENDATIONS ...................................... 59
 

 APPENDIX I: FORM OBD-236 ........................................................ 61
 

 APPENDIX II: OPM- AND MSPB-RECOMMENDED 

 PRACTICES FOR COMPILING AND ASKING REFERENCE 

 CHECK QUESTIONS ....................................................................... 64
 

 APPENDIX III: OIG DATA REQUEST AND COMPONENTS IN 

 REVIEW SCOPE.............................................................................. 69
 

 APPENDIX IV: COMPONENT AND HIRING OFFICIAL SAMPLE 

 FOR TELEPHONE SURVEY ............................................................. 72
 

 APPENDIX V: OIG TELEPHONE SURVEY INSTRUMENT ................. 76
 

 APPENDIX VI: SELECTED TELEPHONE SURVEY RESPONSE 

 RESULTS ........................................................................................ 91
 

 APPENDIX VII: REFERENCE CHECK QUESTIONS ....................... 106
 

 APPENDIX VIII: JUSTICE MANAGEMENT DIVISION RESPONSE 

 TO DRAFT REPORT ...................................................................... 110
 

 APPENDIX IX: OIG ANALYSIS OF JUSTICE MANAGEMENT

 DIVISION RESPONSE ................................................................... 113
 




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                   BACKGROUND 



       Reference checking is one of several assessment methods used by
hiring officials to select the most qualified job applicants.7 The
U.S. Office of Personnel Management (OPM) defines reference checking
as an objective evaluation of an applicant’s past job performance based
on information collected from key individuals – including supervisors,
coworkers, and subordinates – who have known and worked with the
applicant.8 This information is typically collected during structured,
probing telephone discussions between the prospective employer and
those key individuals. Because reference checking is meant to guide a
hiring decision for each pool of applicants, it is to be conducted prior to
selecting a final applicant, extending a conditional job offer, or initiating
a background investigation. Although OPM encourages federal agencies
to conduct reference checks and offers guidance, and although the
Department of Justice (Department) requires reference checks for new
career attorney applicants, neither OPM nor the Department requires
reference checking as part of the hiring process for all federal or
Department applicants.

       The Office of the Inspector General (OIG) conducted this review to
assess whether and how Department components contacted applicants’
references to evaluate their past job performance when making hiring
decisions. The review objectives were to determine: (1) the extent to
which component hiring officials checked applicants’ references,
(2) whether policies existed to guide reference checking, and (3) the
practices and specific reference check questions cited by component
hiring officials as most effective. This report is intended to provide hiring
officials and human resource policy makers with practical information
and recommendations to ensure the most qualified job applicants are
selected.




       7  We use the term “hiring officials” to describe any individuals having input into
the hiring process, regardless of whether they make the final hiring selection. We use
the term “applicants” to describe all individuals who submit an application. Some
agencies use the term “candidates” to describe a narrower pool of applicants identified
for further employment consideration and screening, which may include reference
checking. For consistency in this report, we use the term “applicants” broadly and use
the term “candidates” where we quote an agency’s policy or other reference.

       8   OPM, Assessment Decision Guide (undated), 33.


U.S. Department of Justice                                                               1
Office of the Inspector General
Evaluation and Inspections Division
Purpose and Benefits of Reference Checks

       Reference checking serves several important purposes in the hiring
process, according to OPM and the U.S. Merit Systems Protection Board
(MSPB).9 First, it is used “to verify the accuracy of information already
provided by job applicants” on their résumés and in interviews. Second,
it is used to better “predict applicants’ job success by comparing their
experience to the competencies required by the position.”10 Both OPM
and MSPB noted that reference checking relies on the “behavior
consistency principle” that past performance (in this case, an applicant’s
past job performance) is the most reliable predictor of future behavior.
Third, reference checking can reveal “information about applicants that
may not be identified through other selection procedures,” such as their
professional reputation among colleagues, clients, supervisors, or
subordinates, and a more accurate picture of the applicant’s
accomplishments that is, as MSPB noted, undistorted by a “self-serving
bias.”

      Both OPM and MSPB encourage federal agencies to conduct
reference checks, citing a number of benefits. For example, MSPB noted
that conducting reference checks allows hiring officials to make more
informed hiring decisions and avoid the cost of a “bad hire.” In addition,

       9 In 2005, MSPB published an advisory report, Reference Checking in Federal
Hiring: Making the Call, which offers recommendations and best practices on reference
checking. MSPB has statutory authority to conduct objective, non-partisan studies that
assess federal merit systems policies, operations, and practices.

        MSPB’s report made nine recommendations to hiring officials, agencies,
reference providers, and OPM. MSPB recommended that hiring officials: “(1) conduct
reference checks for each hiring decision; (2) develop and follow a thoughtful reference
checking strategy that is an integral part of the hiring process; and (3) use a consistent
reference checking process that treats all applicants fairly, obtains valid and useful
information, and follows legal guidelines.” MSPB recommended that agencies:
“(4) require applicants to provide appropriate professional references and make
applicants responsible for ensuring that they can be contacted; (5) review and possibly
revise their formal systems of records so that supervisors may review past performance
information when providing references; (6) require job applicants to complete the
Declaration for Federal Employment (OF-306) form early in the application process; and
(7) increase standardization of and training in effective reference checking techniques.”
MSPB recommended that OPM: “(8) develop guidelines to help agency personnel follow
appropriate procedures for checking and providing references.” MSPB recommended
supervisors and other employees: “(9) provide candid and appropriate reference
information.”

       10   OPM defines a competency as “a measurable pattern of knowledge, skills,
abilities, behaviors, and other characteristics that an individual needs to perform work
roles or occupational functions successfully.” Assessment Decision Guide (undated), 4.


U.S. Department of Justice                                                              2
Office of the Inspector General
Evaluation and Inspections Division
MSPB noted that reference checks improve an agency’s ability to match
the job to the applicant to ensure that the applicant will be successful in
the position, a concept often referred to as “organizational fit.” Reference
checks also allow hiring officials to retrieve more information about the
applicant’s experience, which can help identify future training needs.
Further, simply notifying applicants that the hiring process includes a
reference check communicates the agency’s expectations for integrity and
accountability. MSPB cited other benefits to agencies, including
demonstrating fairness and equal treatment of all job applicants,
maintaining employee morale by making sound hiring decisions, and
bolstering the public’s trust that civil servants take hiring seriously.

Department Policy on Reference Checking

       There is no Department-wide published policy on reference
checking, except with respect to attorney hiring. However, a
Department-wide council established by the Attorney General in 2010 is
currently developing a questionnaire for reference checking, and as
described later in this report, some components have established their
own protocols or internal guidance for how to conduct reference checks
for attorney and other applicants.

       Required Reference Checking for Department Attorneys. The
Justice Management Division’s (JMD) Office of Attorney Recruitment and
Management (OARM) is responsible for making suitability determinations
for career attorney applicants across the Department.11 OARM has
required hiring components to conduct both reference checking and
vouchering for all new career attorney applicants since at least 1989.12
The requirement includes both attorney applicants new to the
Department and those already employed with another Department
component. OARM reiterated this requirement in an April 13, 2010,
memorandum from the OARM Director to the heads of all Department
offices, boards, bureaus, and divisions.13 The memorandum, known as

       11 Under 28 C.F.R. §§ 0.15 and 0.19 (2011), the Attorney General’s general
hiring authority may be delegated to the Deputy and Associate Attorneys General, who
may re-delegate career attorney hiring authority to the Director of OARM.

       12  Vouchering is a type of suitability determination that seeks to verify an
applicant’s basic employment history, reliability, and loyalty in an effort to determine an
applicant’s overall suitability for federal service. We discuss vouchering more fully later
in this section.

       13  Louis DeFalaise, Director, OARM, memorandum to Heads of Offices, Boards,
Bureaus, and Divisions; Executive Officers and Attorney Recruitment Coordinators of
Offices, Boards, Bureaus and Divisions; United States Attorneys; Director of the
                                                                                 (Cont’d.)
U.S. Department of Justice                                                               3
Office of the Inspector General
Evaluation and Inspections Division
OARM Memorandum 2010-3, charges the hiring manager or selecting
official with ensuring that a “thorough reference check” – which must
address performance and conduct – is completed on each applicant
before making a tentative employment offer. OARM Memorandum 2010­
3 also reminds components that the requirement to conduct reference
checks is separate from other checks to determine an applicant’s overall
suitability, such as vouchering.

       SAVE Council Employment Reference Questionnaire. A working
group within the Attorney General’s Advisory Council for Savings and
Efficiencies (SAVE Council) has drafted an Employment Reference
Questionnaire for hiring officials Department-wide to use when
contacting applicants’ references.14 The questionnaire instructions state
that it is intended for use prior to extending a conditional job offer or
initiating a background investigation. Questions range from subjective
assessments of the applicant’s work performance (“How would you
assess the candidate’s work performance?”) to suitability-related
questions (“Do you have any reason to question the candidate’s loyalty to
the United States?”).15 The questionnaire is intended to serve as a
mandatory but baseline form for Department-wide use with applicants in
all job series. Accompanying instructions provide hiring officials the
option of creating additional questions relevant to the position
advertised. The questionnaire was in the draft stage during our
fieldwork and was awaiting approval from JMD for Department-wide use.
In May 2012, JMD published the questionnaire in the Federal Register
and requested comments by July 2, 2012.

      Working group members told us that they believed the
questionnaire could improve the overall efficiency of the hiring process
and save the Department time and money. They explained that the
intent of the form was to discover detrimental issues related to an
applicant’s performance that would not be uncovered due to agencies’
reciprocity agreements for employees who already hold a security

Executive Office of United States Attorneys; and Bureau General Counsel, Reference
Check Requirements for Attorney Hires, OARM Memorandum 2010-3 (April 13, 2010).

       14  The Attorney General established the SAVE Council in 2010 to identify cost-
savings measures within the Department to improve its efficiency. The Council
identified the streamlining of suitability determinations as a potential cost-savings
measure and convened an interagency working group in January 2011 led by the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) in coordination with the
United States Marshals Service (USMS) to examine the issue.

       15 These questions were based on a March 2011 draft of the form, which had
not been approved for use as of July 2012.


U.S. Department of Justice                                                               4
Office of the Inspector General
Evaluation and Inspections Division
clearance.16 Additionally, by instructing hiring officials to forward the
completed questionnaire to their component’s security office, working
group members hoped to reduce duplication of effort between hiring
officials and security personnel conducting background investigations.

Reference Checking and Suitability Determination

      Reference checking differs from other hiring assessments used to
screen job applicants by: (1) overall purpose, (2) the topics covered,
(3) when in the hiring process it occurs, (4) who conducts the checks,
and (5) the sources contacted. Below we define suitability
determinations – including vouchering and background investigations –
and explain how reference checking differs from those assessments.

       Suitability Determinations. The term “suitability” has a specific
meaning in federal hiring. OPM defines suitability as “a set of criteria by
which the character and conduct of applicants and employees are
assessed to assure that their Federal employment will protect the
integrity and promote the efficiency of the Federal service.”17 Whereas
reference checks measure applicants’ job-related skills and qualifications
to determine their organizational fit and ability to perform the job,
suitability determinations measure applicants’ character traits and past
conduct to determine whether they will be able to carry out the duties of
a federal job with “integrity, efficiency, and effectiveness.”18

       The criteria for making suitability determinations for federal
employment are in 5 C.F.R. part 731, which directs agencies to base
their determinations on one or more of eight specific factors – including
misconduct, criminal or dishonest conduct, intentional false statements,
alcohol abuse, and illegal drug use.19 Part 731 also requires agencies to

       16  Under § 3001(d) of the Intelligence Reform and Terrorism Prevention Act of
2004, Pub. L. No. 108-458, 118 Stat. 3638 (2004), background investigations and
determinations completed by an authorized investigative agency or authorized
adjudicative agency must be accepted by all agencies and be transferable to any other
authorized investigative agency. Section 3001(d)(4) of the Act prohibits authorized
agencies from conducting an investigation if a current investigation or clearance of
equal level already exists or has been granted by another authorized adjudicative
agency.

       17   OPM, End-to-End Hiring Initiative (undated), 39.

       18OPM, Delegated Examining Operations Handbook: A Guide for Federal Agency
Examining Officers (May 2007), 89.

       19 The eight specific suitability factors in 5 C.F.R. § 731.202 (2009) are:
“(1) misconduct or negligence in employment; (2) criminal or dishonest conduct;
                                                                                     (Cont’d.)
U.S. Department of Justice                                                                  5
Office of the Inspector General
Evaluation and Inspections Division
consider seven additional factors when making suitability
determinations, including the nature, seriousness, and recentness of the
negative conduct.20 All applicants entering “covered positions” are
required to undergo a suitability determination.21

       Suitability determinations differ from reference checking in several
key ways beyond purpose and scope. First, the timing of a suitability
determination distinguishes it from a reference check. Because
suitability determinations are not used to guide selection decisions as
reference checks are, they occur after an applicant’s references have
been checked and the agency has extended a conditional job offer.
Second, unlike reference checks – which ask individuals who have
worked with the applicant (professional references) to describe the
applicant’s job-related skills – suitability determinations may entail
verifying an applicant’s basic residence, education, employment, and
criminal history. Agency officials conducting a suitability determination
contact sources beyond the applicant’s professional references, which
could include the applicant’s personal acquaintances, neighbors,
roommates, and relatives. Finally, suitability determinations are
typically conducted by human resource personnel or security staff rather
than a hiring official with knowledge of the required job competencies.

      Vouchering. One type of suitability determination, vouchering,
seeks to determine an applicant’s overall suitability for federal service.


(3) material, intentional false statement, or deception or fraud in examination or
appointment; (4) refusal to furnish testimony as required by § 504; (5) alcohol abuse,
without evidence of substantial rehabilitation, of a nature and duration that suggests
that the applicant or appointee would be prevented from performing the duties of the
position in question, or would constitute a direct threat to the property or safety of the
applicant or appointee or others; (6) illegal use of narcotics, drugs, or other controlled
substances without evidence of substantial rehabilitation; (7) knowing and willful
engagement in acts or activities designed to overthrow the U.S. government by force;
and (8) any statutory or regulatory bar which prevents the lawful employment of the
person involved in the position in question.”

       20  The seven additional suitability considerations in 5 C.F.R. § 731.202 (2009)
are: (1) the nature of the position for which the person is applying or in which the
person is employed, (2) the nature and seriousness of the conduct, (3) the
circumstances surrounding the conduct, (4) the recentness of the conduct, (5) the age
of the person involved at the time of the conduct, (6) contributing societal conditions,
and (7) the absence or presence of rehabilitation or efforts toward rehabilitation.

       21  5 C.F.R. § 731.101(b) (2011) defines a covered position as “a position in the
competitive service, a position in the excepted service where the incumbent can be
noncompetitively converted to the competitive service, and a career appointment to a
position in the Senior Executive Service.”


U.S. Department of Justice                                                                   6
Office of the Inspector General
Evaluation and Inspections Division
Vouchering is conducted using a form with standard questions
corresponding to some of the suitability factors in 5 C.F.R. part 731. The
form is used to record comments and responses from applicants’
references for a specified time period (typically the past 3 years). In the
Department, a standard form – the Form OBD-236, Inquiry Regarding
Suitability of Applicant (voucher form) – is commonly used. OARM’s
April 13, 2010, memorandum contained a slightly different version of
this form for attorney applicants. Both the Department’s and OARM’s
voucher forms contain eight standard questions and require the
individual conducting the inquiry to sign the form. (See Appendix I for
the Department’s and OARM’s voucher forms.) The forms also require
respondents to state their relationship to the applicant and years of the
relation.

       Background Investigations. OPM requires applicants seeking
employment in the civil service to undergo an investigation – commonly
referred to as a security or “background investigation” – to establish their
suitability for employment. A background investigation occurs after the
hiring agency has checked an applicant’s references and often after, or
concurrent with, a basic suitability determination and conditional job
offer.22 A background investigation seeks information about an
applicant’s employment, criminal, and personal history to evaluate
“behavioral reliability, integrity, and personal adjustment” and determine
whether there are any “historical facts that would interfere with an
applicant’s ability to perform the job, including violations of statutes,
regulations, or laws.”23 As described above, agency officials verify
information about the applicant from sources beyond the applicant’s
professional references. In cases where a waiver has been granted, the
background investigation may not be initiated until after the employee
has entered on duty.24

OPM and MSPB Recommended Reference Check Practices

     OPM and MSPB guidance on reference checking includes who
should conduct the checks, which references to contact, how many

       22 OPM’s requirement stems from the authority delegated by the President of the
United States under 5 U.S.C. §§ 1104 and 3301 and Executive Order 10577.

       23   OPM, Assessment Decision Guide (undated), 45.

       24  Federal regulations permit agencies to grant waivers from the background
investigation requirements for a limited period of time, allowing new applicants to begin
working while their investigations are still in progress. However, the Federal Bureau of
Investigation (FBI) requires a fully adjudicated background investigation before any
applicant begins work.


U.S. Department of Justice                                                              7
Office of the Inspector General
Evaluation and Inspections Division
references should be contacted, how they should be done, how long to
spend on reference checking, and when they should occur.25 In addition,
the agencies provide guidance on whether to obtain prior applicant
permission, how to document and retain the information, how to
incorporate reference checking into the hiring process, and how to ask
the questions.26 Although the guidance is applicable to all federal
positions, regardless of agency, reference checking itself is not
mandatory in the Department except for new career attorney applicants.

       Specifically, OPM and MSPB advise:

   	 Have hiring managers familiar with the specific job competencies
      or the person who will supervise the new employee, not human
      resource personnel, conduct reference checks.27

   	 Contact recent supervisors (the MSPB-described “gold standard”)
      and other professional references, rather than personal references.
      When applicants request that their current supervisors not be
      contacted, OPM recommends seeking other references and asking
      again once a tentative offer has been extended.

   	 Contact additional individuals suggested by the applicant’s original
      references (additional references).

   	 Contact at least three references. Determine whether the results
      are consistent, and then check additional references if necessary to
      resolve incongruities.

   	 Use the telephone rather than written inquiries.

   	 Spend about 20 minutes on each reference or a few hours total.




       25 Most of the OPM recommendations we cite here are listed in OPM’s
publication, Reference Checking (undated).

       26 Appendix II contains more detailed OPM and MSPB recommendations on how
to compile and ask reference check questions.

       27  MSPB’s guidance stresses that those making hiring decisions should conduct
the reference check. While OPM’s guidance overall favors the individual making the
hiring decision be the reference checker (also referred to as the “selecting official” or
hiring manager), it also allows for a human resource specialist to carry out this
responsibility if the specialist is trained to do so.


U.S. Department of Justice                                                             8
Office of the Inspector General
Evaluation and Inspections Division
   	 Conduct reference checks near the end of the hiring process, when
      a few top applicants remain in the pool, but before a conditional
      job offer is made.

   	 Obtain applicants’ permission before contacting references (for
      both applicant supplied and additional references), and inform
      references when applicants have given their permission.

   	 Document reference checks using a standard form.

   	 Ensure reference check materials are “stored and retained
      according to agency policy.”28

   	 Create standard operating procedures to incorporate reference
      checking into the hiring process.

   	 Ask specific, job-related, open-ended questions linked to the
      position’s required competencies.29 Ask the same set of minimum
      questions of all references for each applicant and each vacancy
      announcement.




       28   OPM, Reference Checking (undated).

       The General Records Schedules, issued by the Archivist of the United States to
provide disposition authorization for records common to several or all federal agencies,
do not address reference checks. There is also no agency-specific schedule approved by
the Archivist that provides disposition authorization for reference checks.

       29 According to MSPB, requesting information about an applicant’s past job
performance is legal, and reference checkers generally have a “qualified immunity”
against charges of invasion of privacy provided their inquiries are job-related.
Components may vet recommended questions through JMD’s (Human Resources) Labor
and Employment Law Group.


U.S. Department of Justice                                                            9
Office of the Inspector General
Evaluation and Inspections Division
    PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW 



Purpose

      The Office of the Inspector General conducted this review to assess
whether and how components contacted job applicants’ references to
evaluate their past performance when making hiring decisions. We
examined the extent to which component hiring officials checked
applicants’ references, whether policies exist to guide reference checking,
and the reference check practices and specific questions cited by
component hiring officials as most effective. This report is intended to
provide component hiring officials with practical information to help
them select the most qualified, capable job applicants. The reference
check practices we highlight in this report are those that component
hiring officials told us are useful and which conform to benchmarks and
models suggested by OPM and MSPB.

Scope

       Our review included 39 components that we determined had hired
full-time employees nationwide during fiscal year (FY) 2010 within the
competitive or excepted services or in any non-executive job series.30 The
components are listed in Appendix III. We also collected information on
Department reference check practices for attorney and special agent
applicants because of the high level of visibility, responsibility, and
potential for security risk associated with those positions in the
Department.

       30   Competitive service positions, defined in 5 U.S.C. § 2102, are subject to the
civil service laws passed by Congress to ensure that applicants and employees receive
fair and equal treatment in the hiring process. According to OPM, most federal civilian
positions are part of the competitive civil service, which requires that all applicants
compete with each other in open competition. A basic principle of federal employment
and the competitive service is that all candidates must meet the qualification
requirements before they are hired. Competitive service jobs must be posted on
usajobs.gov (OPM’s federal jobs website) whenever agencies are looking for applicants
from the general public or outside their own agency.

        Excepted service positions, defined in 5 U.S.C. § 2103, are civil service positions
that are not in the competitive service or the Senior Executive Service and are not
required to be publicly advertised on usajobs.gov. According to OPM, some agencies –
known as excepted service agencies – have their own hiring system and qualification
requirements for filling internal vacancies because they are not subject to the same
laws. Some federal agencies, such as the FBI and the Central Intelligence Agency,
comprise only excepted service positions. Other agencies may have both types of
positions.


U.S. Department of Justice                                                              10
Office of the Inspector General
Evaluation and Inspections Division
       We did not include in our review: (1) employees hired into the
Senior Executive Service; (2) political appointees; (3) temporary, part-time
employees; (4) internal hires within the same division of a component; or
(5) Federal Bureau of Prisons (BOP) correctional officers.31 We also did
not review component determinations of an employee’s basic
qualifications.

        We conducted our fieldwork from February through September
2011.

Methodology

Document Review

       We acquired publicly available guidance on reference checking
from two federal sources outside the Department: OPM and MSPB. We
also interviewed staff from both agencies associated with the published
guidance. Non-binding recommendations and advisory reports from both
agencies helped establish the benchmarks, models, and best practices
cited in this report.

      Except for OARM’s guidance concerning new career attorney
applicants, there are no Department regulations addressing reference
checking. To identify reference check practices across the Department
and instances in which the practices either conform to or differ from
benchmarks and models suggested by OPM and MSPB, we reviewed and
analyzed 39 components’ reference checking policies, documents, and
the practices they described to us.32 These documents included tip


        31 In this report, the term “internal hires” includes employees from within the
same division of the same component who are hired into lateral positions (at the same
grade level) and promotions (at a higher grade level). Because hiring officials typically
know those applicants already, there may be less value to conducting some reference
checks. We did, however, include employees hired into lateral positions (lateral
transfers) and promotions (merit promotions) in other divisions of the same component,
the Department, and outside the Department. In addition, to avoid the appearance of a
conflict, we excluded the OIG’s reference check procedures from this review.

        Another OIG report addressed hiring and screening of correctional officers found
that references are not checked for correctional officers. See U.S. Department of Justice
Office of the Inspector General, Enhanced Screening of BOP Correctional Officer
Candidates Could Reduce Likelihood of Misconduct, Evaluation and Inspections Report I­
2011-002 (September 2011).

         Because not all of the 39 components have a clearly designated liaison office
        32

from which we could obtain the policies, documents, and described practices in our
                                                                               (Cont’d.)
U.S. Department of Justice                                                            11
Office of the Inspector General
Evaluation and Inspections Division
sheets, question lists, and standard operating procedures. We obtained
this information through components’ responses to a Department-wide
OIG data request. We asked components to provide copies of reference
checking policies, guidance, questionnaires, and forms, and to answer
written questions about their practices. Appendix III describes the data
request and the responding components.

Interviews and Telephone Survey

      We first interviewed component hiring officials, human resource
managers, and security and suitability staff to understand reference
check practices and guidance. We also considered areas of concern
related to reference checking that those personnel identified.

       We then administered a telephone survey of selected component
hiring officials from the 17 largest components. The purpose of the
survey was to determine what processes components use to check
references and what they find useful in the process. After selecting a
random sample of FY 2010 hiring actions processed by those 17
components, we requested contact information for the associated hiring
officials from the components’ human resource offices. We asked hiring
officials two initial screening questions – whether they participated in the
hiring or selection of the new employee in the hiring action we had
selected and whether they personally conducted reference checks for that
employee. If they responded that they did not personally conduct the
reference check, but another hiring official in the component did, then
we contacted the other hiring official. Hiring officials from all 17
components told us that their components conducted reference checks,
whether it was the individual we first contacted or the person to whom
they referred us.

      In total, we surveyed 88 hiring officials from the 17 components
with the highest numbers of occupied positions during FY 2010.33
According to National Finance Center data provided by JMD, these

data request, we obtained these from components’ headquarters and human resource
offices in most instances.

       33  The 17 components, in descending order by total number of occupied
positions during FY 2010, were the: (1) BOP non-correctional officer personnel; (2) FBI;
(3) United States Attorneys’ Offices; (4) Drug Enforcement Administration (DEA);
(5) U.S. Marshals Service (USMS); (6) ATF; (7) Executive Office for Immigration Review
(EOIR); (8) Civil Division; (9) U.S. Trustee Program; (10) JMD; (11) Criminal Division;
(12) Antitrust Division; (13) Civil Rights Division; (14) Office of Justice Programs;
(15) Environment and Natural Resources Division; (16) Tax Division; and (17) National
Security Division.


U.S. Department of Justice                                                           12
Office of the Inspector General
Evaluation and Inspections Division
17 components represented 83 percent of the Department’s occupied
positions during FY 2010.34 The 88 hiring officials we interviewed had
participated in the hiring of at least one new employee in FY 2010 and
reported having firsthand experience checking references. We caution
that these 88 hiring officials are not representative of the entire
Department and do not constitute a statistically significant sample. We
describe our sampling methodology further in Appendix IV. Appendix V
includes a copy of the telephone survey instrument we used, and
Appendix VI presents selected survey results beyond those we discuss in
this report.

       To determine the number of hiring actions in FY 2010, we analyzed
National Finance Center data for employees listed as occupying a
position in FY 2010. Each personnel action for Department employees is
assigned a “nature of action” code, defined by OPM as “the specific
personnel action used to create or change a civilian personnel record.”35

       Because the nature of action codes include a wide range of
personnel actions other than hiring a new employee (for example, step
increases in pay), we eliminated those codes that did not correspond to
hiring actions. We also eliminated the codes that corresponded to types
of hiring actions that were not within our scope: (1) employees hired into
the Senior Executive Service; (2) political appointees; (3) temporary, part-
time employees; (4) internal hires within the same division of a
component; (5) BOP correctional officers; and (6) OIG employees.

Data Analysis

      We identified the components that provided written reference
check policies, guidance, or questions, or described practices indicating
that they generally check references. We analyzed components’ reference
check policies, standard operating procedures, and descriptions of their
reference check practices, and created a database of this information.
We created a separate database of hiring officials’ responses to the
questions in our telephone survey.

       We analyzed components’ responses to our data request and hiring
officials’ responses to ascertain: (1) the extent to which components have

       34 This percentage is based on the FY 2010 occupied positions after we
excluded: (1) employees hired into the Senior Executive Service; (2) political appointees;
(3) temporary, part-time employees; (4) internal hires within the same division of a
component; (5) BOP correctional officers; and (6) OIG employees.

       35   OPM, The Guide to Personnel Data Standards (Update 58, August 10, 2007),
246.


U.S. Department of Justice                                                             13
Office of the Inspector General
Evaluation and Inspections Division
written guidance on reference checking, (2) the content and scope of the
guidance, (3) the frequency of reference checking, (4) the types of
references contacted, (5) who makes the reference calls, (6) methods for
contacting references, (7) at what point in the hiring process reference
checks are conducted, and (8) the types of information sought during a
reference check. We examined reference check practices and questions
that hiring officials identified as useful. We also describe where
components’ policies or practices differ for applicants by job series (such
as attorneys and criminal investigators).

Data and Methodology Limitations

      Because there is no Department requirement that hiring officials
conduct, document, or retain records of reference checks other than
OARM’s guidance concerning new career attorney applicants, we did not
attempt to identify the number of individuals in the Department that
were and were not reference checked in FY 2010 or other years. Nor
could we identify all individuals who were not hired as a specific result of
reference checking. Consequently, we do not comment on the actual
prevalence of reference checking across the Department in this report.

       We emphasize that our methodology was not designed to provide a
statistically significant conclusion. We based our analysis of
components’ responses to our inquiries primarily on the information
each component self-reported to the OIG. In some cases, we omitted
from our analysis components that submitted incomplete information or
whose responses were unclear. In addition, variations in reference check
practices within components made it difficult to measure the extent to
which policies are followed in practice.

      Rather than commenting on the prevalence of reference checking,
in Part I of the report, we identify the components that provided written
reference check policies, guidance, questions, or described reference
check practices. We also describe where these components’ policies or
practices differed for applicants by job series (such as attorneys and
criminal investigators). However, these general descriptions do not
account for variations in reference check practices within components,
nor do they definitively indicate that references are or are not
consistently checked.

      In Part II we present information about reference check practices
from our telephone survey of 88 component hiring officials from the
17 largest components to determine what processes components use to
check references when they do so and what they find useful in the
process.

U.S. Department of Justice                                               14
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW 



PART I: DEPARTMENT REFERENCE CHECK POLICIES
AND GUIDANCE

       In the absence of Department-level reference check
       policies, guidance varied among components. For non-
       law enforcement positions, reference check policies for
       new hires were inconsistent across the Department. Our
       review of components’ policies for non-law enforcement
       hires found only 3 of the 39 components in our review
       scope provided their hiring officials with clear written
       reference checking guidance that included position-
       specific questions and addressed documentation of
       reference checks. For law enforcement positions, there
       were no policies requiring reference checks for new law
       enforcement applicants, and hiring managers told us
       that they did not conduct reference checks when hiring
       these new staff.     Instead, components used other
       methods to assess the skills and aptitudes of new
       applicants for law enforcement positions. In addition,
       the two largest components, which made 63 percent of
       the hiring actions within our scope, did not conduct
       reference checks for most of their new employees.


No Department policies addressed reference checking for all new
hires.

      Although extensive information about the Department’s hiring
process is posted on the Department’s intranet (DOJNet), as of July
2012, no policies specifically addressed reference checking for all new
hires across the Department.36 The JMD Director of Human Resources
attributed the lack of Department reference checking guidance for
general schedule employees, in part, to the fact that applicant selection
and other human resource activities are not currently centralized
functions in the Department, but rather have been delegated to the

       36  The only exception was OARM’s April 13, 2010, memorandum requiring
reference checking and vouchering for new career attorney applicants. That
memorandum has been available on DOJNet since April 2010, according to OARM. As
of July 2012, we found that this memorandum was still available on DOJNet. In
addition, DOJNet’s new Diversity section contained links to some reference checking
guidance and sample questionnaires.


U.S. Department of Justice                                                       15
Office of the Inspector General
Evaluation and Inspections Division
components. The Director also attributed the lack of Department-wide
reference check guidance to a need for questions that are validated by
research psychologists at OPM or elsewhere.37 The Director stated that
some components had worked with OPM to develop their own validated
questions. However, there was no list of approved or suggested
questions to use during employment reference checks across the
Department during the period of the OIG’s review.

Reference check policies for assessing the job skills of potential new
hires in non-law enforcement positions were inconsistent across the
Department.

      Components’ reference check policies for new applicants were
inconsistent across the Department. In response to our Department-
wide data request (described in Appendix III), 39 components provided a
variety of written materials and descriptions of their reference check
practices. Their submissions ranged from clear and comprehensive
written policies to e-mail descriptions of reference check practices
without accompanying written policies or other material.

       Of the 39 components, only 25 (64 percent) provided some form of
written material – policies, guidance, tip or fact sheets, or
questionnaires – that prescribed or suggested reference check practices,
or provided specific reference check questions. Of these, only three
provided clear, written reference check guidance that included both
position-specific reference check questions for officials to ask references
and addressed documentation requirements for reference checks. Nine
components had general written policies or related guidance (such as tip
sheets) with specific reference check questions for conducting reference
checks on new employees, but this guidance was not always position-
specific and did not always address documentation requirements.
Thirteen components provided a reference check questionnaire or form,
but did not provide any additional written policy or guidance about when
to use the guidance or form. These 13 components also described their
informal protocols for checking references. The remaining 14
components had no written policies, guidance, or forms, but verbally


         37 The term “validity” in this context means that the responses to questions

about past performance are effective predictors of future behavior. According to OPM
officials we interviewed, validation is part of an agency’s overall hiring process. OPM
psychologists might analyze an agency’s reference check questions to determine how
well they predict an applicant’s job performance (predictive validation) or what
competencies are critical to a job and to what extent applicant selection assessments
measure those competencies (content validation). OPM performs this function on a fee-
for-service basis.


U.S. Department of Justice                                                          16
Office of the Inspector General
Evaluation and Inspections Division
described informal protocols for checking references. Figure 1 shows the
types of reference check materials the 39 components provided.

         Figure 1: Types of Written Reference Check Materials 

                     Provided by 39 Components 



                                 3
                                                     Clear, written guidance
                                                     and question list (3)
               14                           9        Written policy or guidance
                                                     and question list (9)

                                                     Question list only (13)


                                                     No written materials (14)
                               13


       Note: We counted each component’s response once for this analysis even
       though some components specified that their reference check materials did
       not pertain to all position types.
       Source: Component responses to the OIG’s Department-wide data request.

Our review of component policies found only three components provided
their hiring officials with clear written reference check guidance.

       Of the 25 components that submitted copies of their written
guidance to us, we found that only 3 provided hiring officials with clear,
written guidance that: (1) included position-specific reference check
questions that corresponded to the position’s required competencies, and
(2) explained how to document reference checks and results. Including
this information is consistent with OPM’s and MSPB’s recommendations
for effective reference check practices.

       The remaining components’ submissions met just one of the two
criteria above:

       1. Nine components had general written policies or related
          guidance for conducting reference checks on at least some new
          employees, including attorneys, and listed specific reference
          check questions. Seven of the nine components specified that
          the policy or guidance they provided applied to one or more
          position types.
U.S. Department of Justice                                                         17
Office of the Inspector General
Evaluation and Inspections Division
       2. Thirteen components had only a reference check questionnaire
          or form and did not provide any additional written policy or
          guidance about when to use it. These 13 components also
          described their informal protocols for checking references.
          Eleven of them responded to the specific questions in our data
          request with information indicating that they checked
          references. The other two components (the BOP and the Office
          of Legal Counsel) provided a reference check questionnaire and
          described their reference check practices, but we do not
          consider them to be among those components that regularly
          check references.38

       Of the 14 components that submitted no written guidance, 11
explicitly stated they provided no written guidance to hiring officials.
Three others did not state that, but provided no policies, guidance, or
forms in response to our request. However, all 14 components described
their informal protocols for checking references. Ten components
indicated that they checked references, while the other four – the Federal
Bureau of Investigation (FBI), U.S. National Central Bureau of Interpol
(Interpol), JMD, and Office of Information Policy – described informal
protocols for checking references, but we do not consider them to be
among those components that regularly check references.39

Managers in law enforcement components consistently told us that
they did not conduct reference checks when hiring new staff in law
enforcement positions.

      Most of the Department’s new hires into law enforcement and
correctional officer positions were not reference checked during the
hiring process. With some exceptions described elsewhere in this report,
the Department’s four primary law enforcement components – the

       38  The BOP reported that it does not regularly check references for most
positions (we discuss the exceptions in Part II), and the Office of Legal Counsel
indicated it conducts reference checks but submitted only a voucher form, which we do
not consider to be a reference check document.

       39  The FBI reported that it does not regularly check references for most
positions (we discuss the exceptions in Part II). Information submitted by Interpol and
JMD was not sufficiently clear to make a determination that they regularly conduct
reference checks. The Office of Information Policy indicated that it conducts reference
checks, but it submitted only a voucher form, which we do not consider to be a
reference check document. Additionally, although the Consolidated Executive Office – a
JMD component – provides human resource and other support services to certain
Department offices, including the Office of Information Policy, it does not conduct
reference checks for any Department offices.


U.S. Department of Justice                                                          18
Office of the Inspector General
Evaluation and Inspections Division
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the Drug
Enforcement Administration (DEA), the FBI, and the United States
Marshals Service (USMS) – and the BOP did not check references of
applicants to law enforcement and correctional officer positions.40
Collectively, the hiring of applicants into the criminal investigator, deputy
U.S. marshal, and correctional officer job series in these five components
accounted for 38 percent of the Department’s total FY 2010 hiring
actions within our scope (Table 1).41

       Table 1: FY 2010 Hiring Actions of Criminal Investigators, 

            Correctional Officers, and Deputy U.S. Marshals 

                              Hiring Actions in Each Job Series
                        Criminal          Correctional       Deputy U.S.
                      Investigators         Officers          Marshals
Component               GS-1811             GS-007            GS-0082           Total
ATF                                96                    0                 0         96
DEA                                225                   0                 0         225
FBI                                717                   0                 0         717
USMS                               207                   0              522          729
BOP                                   0            2,090                   0       2,090
Total                           1,245              2,090               522         3,857
Percentage of
Department
Hiring Actions
(N=10,182)                         12%              21%                 5%          38%
Notes: We determined there were 10,182 hiring actions based on National Finance
Center data for employees listed as occupying a position in FY 2010. We further
describe our method of determining hiring actions in the Methodology section of this
report and in Appendix IV.

Source: National Finance Center.

       40  In this report, we define law enforcement positions as those in the 1811
Criminal Investigation Occupational Series, which includes special agents (criminal
investigators) and deputy U.S. marshals. Deputy U.S. marshals hired under the 0082
Deputy U.S. Marshal Occupational Series are also included in our definition. We do not
include correctional officers in the 007 job series in the definition of law enforcement.

       41  During our fieldwork, the USMS’s Office of Security Policy had drafted a
policy directive addressing reference checks for non-deputy U.S. marshal applicants.
Although USMS security staff encouraged hiring officials to conduct reference checks
for those applicants, under the new policy reference checks would only be required for
applicants when a waiver of the pre-employment background investigation is requested.
As of July 2012, the USMS reported that the policy was under review by its Office of
General Counsel. The FBI’s Human Resources Division had drafted a similar policy for
its non-law enforcement applicants that was under review in July 2012 (discussed
below).


U.S. Department of Justice                                                             19
Office of the Inspector General
Evaluation and Inspections Division
Law enforcement components did not check references of new applicants
for special agent and deputy U.S. marshal positions for several reasons.

       To determine why references of new law enforcement applicants
were not being checked, we spoke with human resource and security
officials at the FBI and the USMS. The primary reason cited by FBI
officials for not conducting reference checks in the past for new special
agent applicants was the FBI requirement that all applicants receive a
fully adjudicated background investigation, which includes FBI contact
with applicants’ references, prior to beginning work. Other reasons cited
by FBI officials were: (1) concern over contacting applicants’ current
supervisors early in the application process; (2) the large number of
applicants and their references that would need to be checked; and
(3) the additional required assessments unique to special agent
applicants, such as cognitive ability and situational judgment tests.

      Additionally, FBI officials told us that it may be impractical for
supervisors of new law enforcement applicants to check references
because these applicants are not hired by the immediate office at which
they will work. These applicants sign mobility agreements in which they
consent to be relocated to a geographical location suited to the needs of
the component when they are hired.

       Human resource officials we interviewed from the USMS described
some of the same reasons for not checking law enforcement applicant
references as did FBI officials. In addition to their reliance on
background investigations, USMS officials told us that the large number
of new law enforcement applicants could make reference checking
infeasible. USMS officials described large pools of deputy U.S. marshal
applicants, noting that the relatively small number of human resource
staff responsible for processing them could not check applicants’
references without creating delays in the hiring and appointment
process.

In FY 2011, ATF began reference checking new special agents and non-
law enforcement industry operations investigators on a limited basis.

       ATF reported that in FY 2011, it began checking references for its
entry-level special agent and non-law enforcement industry operations
investigator applicants on a limited basis. ATF began with a small group
of entry-level agents and planned to begin reference checking industry
operations investigator applicants during the next vacancy
announcement, but ATF officials stated that the process slowed due to a
hiring freeze. As of July 2012, ATF had not formalized the process into a
written policy but had resumed checking references for entry-level

U.S. Department of Justice                                             20
Office of the Inspector General
Evaluation and Inspections Division
special agents and industry operations investigators. ATF planned to
begin crafting a policy after collecting information from the first 24 new
hires. ATF was using a standard set of reference check questions for
both special agents and industry operations investigators.

       According to ATF officials, the reference checks were an attempt to
improve the hiring process and “weed out” problems with an applicant
before initiating a background investigation. ATF officials told us the
change would allow them to potentially save money on background
investigations by identifying detrimental issues earlier in the hiring
process. These officials also intended the reference checks to reduce
employee turnover and improve hiring officials’ hiring choices. ATF
officials also believed it would be beneficial to conduct reference checks
on applicants who already possessed a valid security clearance and who
would not ultimately receive a background investigation due to
reciprocity agreements with other agencies.

ATF, the DEA, and the USMS reported they checked references for merit
promotion and internal law enforcement applicants, but the FBI did not.

       Although ATF, the DEA, and the USMS did not generally check
references for new law enforcement applicants not currently employed by
the government, they reported that they did check references for merit
promotion and internal applicants for law enforcement positions. ATF
officials stated that ATF also checked references of merit promotion
applicants transferring from another agency, such as from the DEA or
the FBI. In addition, as of April 2011, ATF’s Merit Promotion Board was
discussing requiring reference checks for agents transferring within ATF,
although ATF reported in July 2012 that due to the hiring freeze, no new
agents outside ATF have been hired. According to human resource
officials and managers from ATF, the DEA, and the USMS, these
reference checks were conducted informally, were done by telephone, and
did not generally require the use of standard forms or include required
questions.

       FBI officials told us that Human Resources Division officials
routinely call all GS-14 and GS-15 special agent applicants’ past
supervisors to briefly verify the achievements listed on their
applications. The applicants’ achievements are recited verbatim and
responses are limited to “yes,” “no,” or “don’t know.”42 We note that this
is the last step in a lengthy application/verification process the FBI has


       42FBI, Special Agent Mid-Level Management System (SAMMS) Policy
Implementation Guide (2011), 66.


U.S. Department of Justice                                               21
Office of the Inspector General
Evaluation and Inspections Division
established to ensure the applicant’s competency submissions are
accurate, and that this process meets several strategies MSPB has
suggested for reference checking (see Appendix II). However, MSPB also
notes that reference checking should be “more than a formality” and
emphasizes reference checking requires “[s]killful probing and comparing
of information” to ensure that reference checking “produces more than a
superficial evaluation” of the applicant.43 Similarly, OPM emphasizes the
importance of “prob[ing] for more detailed information when clarification
is needed” during a reference check.44 Based on these guidelines, we
conclude that the FBI’s verifications, while valuable, do not meet the
definition or full purpose of a reference check.

      Table 2 provides an overview of reference checking procedures
employed by all four law enforcement components for both new and
merit promotion applicants to law enforcement positions.




       43   MSPB, Reference Checking in Federal Hiring: Making the Call (2005), i, iv.

       44   OPM, Assessment Decision Guide (undated), 33.


U.S. Department of Justice                                                               22
Office of the Inspector General
Evaluation and Inspections Division
    Table 2: Reference Checking for Law Enforcement Applicants
                     ATF               DEA                 FBI                USMS
New hires     YES – In FY        NO – Had no        NO – Had no         NO – Had no
              2011 ATF           reference check    reference check     reference check
              implemented        requirement for    requirement for     requirement for
              new procedures     new special        new special         new deputy U.S.
              to reference       agents.            agents.             marshals.
              check entry-
              level special
              agents.
Merit         YES – Although     YES – Although     NO – For            YES – Although
promotions    not required       not required       promotions into     not required
              and no             and no             GS-14 and 15        and no
              standardized       standardized       positions, staff    standardized
              form was used,     form was used,     verified special    form was used,
              ATF managers       DEA managers       agent               the USMS
              called each        called each        applicants’         reported the
              other informally   other informally   achievements        U.S. Marshal in
              to discuss         to discuss         by contacting       the hiring
              special agent      special agent      their               district can
              applicants. This   applicants.        supervisors and     informally
              also occurred                         reading             contact a
              for applicants                        verbatim what       deputy U.S.
              transferring to                       the special         marshal
              ATF from                              agents stated on    applicant’s
              another agency,                       their               supervisor or
              such as from                          applications for    someone else in
              the DEA or the                        verification.       the applicant’s
              FBI.                                  However, FBI        workplace to
                                                    officials told us   discuss the
                                                    this was not        applicant.
                                                    considered a
                                                    reference check.

Source: Human resource officials from ATF, the DEA, the FBI, and the USMS.

Law enforcement components used methods other than reference
checking to assess the skills and aptitudes of new law enforcement
applicants.

      Although they did not always conduct reference checks, ATF, the
DEA, the FBI, and the USMS used other methods that helped them
evaluate the skills and aptitudes of new law enforcement applicants.45
For example, the FBI special agent screening process entails two distinct
phases of specialized testing consisting of logic, cognitive, and behavior

       45  While a separate evaluation of the special agent hiring process at each
Department law enforcement component was not within the scope of this review, we
describe the general process that the FBI uses. ATF, the DEA, and the USMS use
variations of this process.


U.S. Department of Justice                                                           23
Office of the Inspector General
Evaluation and Inspections Division
tests (Phase I); and a panel interview and written tests to measure
competencies (Phase II).46 The panel interviewers do not receive the
applicants’ résumés or applications, nor do they contact any outside
references. Applicants who pass through those phases receive a
conditional job offer and complete an SF-86, Questionnaire for National
Security Positions. Final screening elements entail a background
investigation, a polygraph, a medical and drug test, and a physical
fitness test. Applicants who pass all of these elements are sent to the
FBI Academy for 16 weeks of training.

       The FBI conducts a full field investigation at the Top Secret level
on all applicants, including special agents. Background investigations
include interviews of associates, references, and past and current
employers and neighbors. Interviewers are required to collect
information on a variety of topics, including character, reputation,
loyalty, ability, and suitability. Interviewees are asked if they recommend
the applicant for employment. However, although background
investigations cover some of the performance-related subjects typically
discussed during a reference check, FBI security officials acknowledged
that the purpose of the background investigation is to determine
applicants’ suitability for FBI employment and eligibility for access to
national security information, not solely to evaluate past job
performance. Background investigations also commence after the FBI
has extended a conditional job offer and thus could not be used to guide
a hiring decision as a reference check is intended to do.

       While background investigations and the other screening methods
described above may demonstrate the applicant’s abilities and suitability
for national security access, they do not replace a reference check.
Reference checks provide valuable performance information directly from
prior employers and others who have worked with the applicant.




       46  FBI officials also told us about two additional elements – a “meet and greet”
with the local field office and a Headquarters Review Board, where the FBI selects the
best applicants based on its current needs.

       DEA officials described additional checks for new special agent applicants,
including employment verification supervisory interviews, conducted prior to a
conditional job offer with applicants’ last or current supervisor, to determine their
current employment standing. For new special agent applicants already in law
enforcement positions, the DEA reported conducting additional checks through existing
databases such as the National Crime Information Center.


U.S. Department of Justice                                                             24
Office of the Inspector General
Evaluation and Inspections Division
The 2 largest components, which accounted for 63 percent of the
Department’s 10,182 FY 2010 hiring actions within our scope, did
not conduct reference checks for most new applicants.

       The Department’s two largest components – the BOP and the FBI –
reported that they did not regularly check references for most new
applicants, whether to law enforcement or non-law enforcement
positions. Combined, the BOP and FBI accounted for 63 percent of the
Department’s total hiring actions, in all job series, during FY 2010.47
Both the BOP and FBI reported that they conducted reference checks of
applicants already working within the component (the BOP) or applying
for merit promotion (the FBI), with certain exceptions.48

       As discussed further below, the BOP has not required reference
checks for new applicants, including correctional officers, since 2006.
However, component officials reported conducting the checks for new
chaplain applicants and for applicants already employed by the BOP.
The FBI has never required reference checks for new applicants,
including special agents, although FBI managers who hire new attorney
applicants reported that they conducted the checks, and FBI policy does
require reference checking for merit promotion applicants for positions
other than attorneys and agents (described below). As of January 2012,
the FBI reported that it had drafted a reference checking policy for non-
law enforcement applicants. In September 2012, the FBI reported that
its External Recruitment and Hiring Policy Implementation Guide will
require reference checks for all external non-law enforcement selections
and its Human Resources Division had drafted a reference check guide.




       47 To determine the 10,182 hiring actions, we eliminated from the National
Finance Center database the types of hiring actions that were not within our scope:
(1) employees hired into the Senior Executive Service; (2) political appointees;
(3) temporary, part-time employees; (4) internal hires within the same division of a
component; (5) BOP correctional officers; and (6) OIG employees. We explain our
methodology further in Appendix IV.

       48 Under 5 C.F.R. part 335, federal agencies may promote certain types of
employees provided they have developed a program designed to ensure a systematic
selection method for promotion according to merit. Agency merit promotion programs
must adhere to five requirements set forth in 5 C.F.R. § 335.103, including that each
agency must establish merit promotion procedures that are available in writing to
candidates.


U.S. Department of Justice                                                             25
Office of the Inspector General
Evaluation and Inspections Division
The BOP discontinued its reference checking policy for all new applicants
in 2006, but still checked references of some internal applicants.

       Although the BOP reported that it checked references for new
chaplain applicants, security and human resource officials said that the
BOP discontinued its general reference checking policy for new
applicants in 2006. According to BOP officials, before 2006, reference
checks had been conducted by a contractor. Over time, human resource
officials noticed the checks did not produce enough useful information,
due in large part to employers refusing to provide requested information
beyond confirming applicants’ employment dates. Consequently, the
BOP concluded that the checks were not worth the time and effort spent
to conduct them and withdrew the requirement. BOP officials stated,
however, that discontinuation of the policy did not prohibit the practice
of checking references of new applicants and suggested these checks
may still occur. However, they were unsure as to the extent of the
practice across the BOP.

      BOP human resource officials told us that reference checking did
occur for applicants already employed by the BOP. Although they were
unable to quantify the extent to which this internal reference checking
was practiced throughout the BOP, the officials said it was common and
that many reference check forms were submitted to their office. In our
telephone survey, wardens in each of the 10 institutions we contacted
indicated that references were checked at least “sometimes” for internal
applicants.

The FBI has never had a reference checking policy for new applicants,
although it requires reference checking for certain merit promotion
applicants.

       FBI security and human resource officials we interviewed told us
that the FBI had never required reference checks in the past for new
applicants and that reference checking was infrequently conducted. FBI
field office managers said that reference checks were sometimes
performed, and the two FBI hiring officials we contacted for the telephone
survey reported checking references of new applicants. As described
below, the FBI has drafted a new reference check policy for non-law
enforcement applicants, but that policy was not yet final.

      FBI Merit Promotion Applicants. The FBI’s written guidance on
applicants for merit promotions directs hiring officials to conduct
reference checks with applicants’ knowledge and approval. According to
the guidance, “selecting officials should contact current or former
supervisors to obtain important information on the candidate’s job

U.S. Department of Justice                                              26
Office of the Inspector General
Evaluation and Inspections Division
performance, functional knowledge and abilities, technical skills and
potential for increased responsibility.”49 According to the FBI, it also
ensures that its onboard non-law enforcement applicants applying to
FBI’s merit promotion vacancy announcements possess a “Successful”
performance rating. The guidance applies to all FBI employees except
special agents, attorneys, and those in the Senior Executive Service.50

      New FBI Attorney Applicants. Managers within the FBI’s Offices of
General Counsel and Professional Responsibility reported conducting
reference checks for new attorney applicants in accordance with OARM
requirements. Those officials told us that although there were no
regulations or guidelines addressing reference checks, the deputies or
unit chiefs in the division with the vacancy checked an applicant’s
references by telephone. We found that questions on reference checking
forms used by the Office of General Counsel inquired about applicants’
character, work performance, ability to handle stress, and career goals.
The reference check practices for new FBI attorney applicants appeared
to mirror OPM’s and MSPB’s recommendations.

       New FBI Policy Requiring Reference Checks. FBI human resource
managers told us that because of the FBI’s participation in the SAVE
Council initiative, the FBI was considering requiring new applicant
reference checks for non-law enforcement applicants prior to making a
conditional job offer. The impetus for the change, according to FBI
officials, was to ensure that applicants are screened for technical
competency prior to expending funds on background investigations. FBI
officials we interviewed supported the change, citing a need for hiring
officials to conduct reference checks to make more informed hiring
decisions. For example, an FBI security manager described several
instances of hiring officials asking the security office if they could rescind
a conditional job offer because they had changed their minds about
hiring an applicant after discovering during the background investigation
process that the applicant was not suitable for the job.


       49  FBI, Merit Promotion and Placement Plan (October 22, 2008), 9. In September
2012, the FBI reported that this document was being revised to include a provision for
mandatory reference checks for all internal non-law enforcement selections. The FBI
also reported that: (1) its External Recruitment and Hiring Policy Implementation
Guide will require hiring managers to conduct reference checks for all external non-law
enforcement selections and (2) its Human Resources Division drafted an Applicant
Technical Reference Check Guide that will supplement both documents during the
selection phase.

       50 The FBI’s Merit Promotion and Placement Plan also excludes employees in the
Executive Level or Senior Level.


U.S. Department of Justice                                                          27
Office of the Inspector General
Evaluation and Inspections Division
      Later in our fieldwork, the FBI began drafting a reference check
policy that it planned to implement in 2012.51 As of July 2012, an FBI
human resource manager told us that the reference check policy had
been drafted, stakeholder feedback had been received, and the policy was
undergoing an executive review. The FBI planned to complete the
reference check policy by the end of 2012, pending review by its
Corporate Policy Office.

Conclusion

       Although the majority of components submitted materials or
described practices indicating that they conducted reference checks,
reference checking was inconsistent among the components, and very
few components required the practice in written policy. We believe
inconsistency in component policies and practices increases the risk that
components are not uniformly and thoroughly screening applicants. It
also increases the risk that hiring officials may not collect all information
from references that may be useful in a hiring decision, that information
from references of similarly qualified applicants applying for the same
position may not be collected consistently, and that hiring officials may
not bother to check references. Consequently, components may
unknowingly hire individuals who cannot perform the job well or whose
talents and interests do not support the component’s mission and
culture.

       The primary law enforcement components of the Department –
ATF, the DEA, the FBI, and the USMS – employed a wide range of
assessment and verification methods, rather than reference checking, to
evaluate the skills and aptitudes of new applicants to law enforcement
positions. These methods included a background investigation and up to
16 weeks of training at a federal law enforcement training center.
However, background investigations meant to determine applicants’
suitability for employment and eligibility to hold a security clearance do
not provide information about applicants’ work skills and aptitudes in
time to inform a hiring decision. Three of the four law enforcement
components had made or planned changes to their reference checking
processes by the end of our review period: ATF began reference checking
new entry-level special agents in FY 2011, and its Merit Promotion Board
was discussing requiring reference checks for agents transferring within
ATF. The FBI and the USMS had each drafted policies addressing
reference checks for non-law enforcement applicants; the FBI’s policy


       51We did not review the FBI’s draft reference checking policy because it was not
completed during our fieldwork.


U.S. Department of Justice                                                          28
Office of the Inspector General
Evaluation and Inspections Division
would require the checks prior to commencing a background
investigation, whereas the USMS’s policy would only require the checks
when a waiver of the required pre-employment background investigation
is requested.

      Finally, the BOP’s and the FBI’s lack of policies requiring reference
checks for most new hiring actions allowed managers to make hiring
decisions without a complete picture of an applicant’s qualifications,
including the applicant’s performance history and organizational fit.
Specifically, hiring managers who did not check references lacked the
benefit of pre-selection input from references who knew the applicant.
That input includes situational examples of an applicant’s performance
and behavior described by former managers, and verification of the job-
related claims an applicant made on a résumé or in an interview. We
believe that decisions to hire new employees would benefit from
incorporating reference checking into the hiring process, as OPM and
MSPB recommend.




U.S. Department of Justice                                               29
Office of the Inspector General
Evaluation and Inspections Division
PART II: REFERENCE CHECK PRACTICES AND RELATED FEDERAL
GOVERNMENT RECOMMENDATIONS

       Reference check practices varied considerably within
       components. Hiring officials we interviewed who told us
       they generally conducted reference checks for new
       applicants into non-law enforcement positions described
       the benefits they believed conducting the checks
       provided. As is recommended by OPM and MSPB, most
       hiring officials who conducted reference checks were
       managers who contacted professional references,
       contacted references in addition to those provided by
       the applicant, and contacted references by telephone.
       However, we found that these hiring officials generally
       did not conduct reference checks at the most useful
       point in the hiring process, did not ask position-specific
       questions, and did not obtain applicants’ permission
       before contacting additional references. Further, some
       components erroneously conducted vouchering in lieu of
       a reference check. Finally, although hiring officials we
       interviewed reported that they usually conducted
       reference checks, they were often uncertain of their
       component’s reference checking expectations and
       allowable practices.


       In total, 33 of the 39 components we reviewed (85 percent)
indicated that they generally check references. Of the remaining six
components, two (the BOP and the FBI) responded that they did not
regularly check references for most new applicants, with the exceptions
we discussed above. Two other components (the Office of Legal Counsel
and the Office of Information Policy) reported that they conducted
reference checks but submitted only a voucher form to us, which is not a
reference check. Information provided by the two remaining components
(JMD and Interpol) was insufficiently clear for us to determine whether
they regularly conducted reference checks. Of the 33 components that
indicated that they generally check references, just 7 (21 percent)
specifically required that reference checks be conducted for at least some
position types.52

       52 The seven components that required reference checks were the Civil Rights

Division, EOIR, National Security Division, OARM, Office of Public Affairs, Tax Division,
and the U.S. Trustee Program. OARM differed from the other components in that its
requirement for attorney reference checking was Department-wide. Of the seven
components, five specified the checks were required for attorneys. Others specified
                                                                                 (Cont’d.)
U.S. Department of Justice                                                            30
Office of the Inspector General
Evaluation and Inspections Division
Hiring officials who reference checked new non-law enforcement
applicants told us they believed their components benefited from
the practice.

       To determine Department hiring officials’ reference checking
practices and perceptions, we surveyed 88 hiring officials who conducted
reference checks for applicants to non-law enforcement positions. These
officials said they viewed the practice as an important, useful part of
their hiring process. This was so regardless of whether their own
component had an explicit requirement that they conduct reference
checks, which only seven components did.

Hiring officials reported conducting reference checks regularly.

      Eighty hiring officials (91 percent) responded that their office
checked references “always” or “most of the time” when making a hiring
decision. All but one of the hiring officials told us their office at least
“sometimes” checked references. Figure 2 shows a distribution of the
regularity with which hiring officials reported their office checked
references.

                   Figure 2: Reference Checking Among 

                       Hiring Officials We Surveyed 


                                1% (1)                      Always
                       8% (7)

                                                            Most of the
            18% (16)                                        time

                                                            Sometimes


                                                            Don't know


                                               73% (64)




         Source: Telephone survey.




non-attorney staff; temporary, term, career-conditional, and student appointments;
staff, interns, and volunteers; and one component did not specify a position type.


U.S. Department of Justice                                                           31
Office of the Inspector General
Evaluation and Inspections Division
Hiring officials viewed reference checking as an important part of the
hiring process and described the benefits they believed the checks
provided.

       Component hiring officials told us they believed that reference
checking was a critical part of the hiring process because it provided a
more complete picture of an applicant’s ability to perform the job and
likely fit within the organization. Officials related instances in which
information collected through reference checks had helped them make
more informed hiring decisions. Overall, hiring officials found reference
checking to be neither more nor less effective than other performance
assessment tools such as interviews, work evaluations, or writing
samples.

       Hiring officials said reference checks have helped them make more
discerning hiring decisions because they provided information beyond
what the applicants themselves submitted or represented. For example,
reference checks have revealed where applicants appeared to have
exaggerated their accomplishments or qualifications. Hiring officials
cited instances of receiving information from a reference that
contradicted what the applicant provided. Some also identified cases
where the applicant lacked the needed job qualifications or where the
reference described poor performance. Hiring officials cited all of these
as reasons for re-considering or not selecting the applicant. Another
hiring official spoke of using reference checks as a means of moving an
applicant to (or from) the top of a list of best qualified applicants.

       Some hiring officials we interviewed also stressed the importance of
“organizational fit” – the alignment of the applicant’s interests, character,
work performance, and career goals with the office where the applicant
will work – and explained how they used reference checking to ascertain
this. For example, one hiring official said, “You wouldn’t hire an
applicant who enjoys litigation and working in court when the position
they are being considered for simply requires writing.” In another case
illustrating the importance of an applicant’s character aligning with office
needs, a hiring official noted the importance of attorney applicants being
highly regarded by judges before whom they appeared – information the
hiring official could only determine from speaking with those references.

      The majority – 89 percent – of hiring officials we interviewed found
reference checking “very effective” or “somewhat effective” in making an
informed hiring decision. Three percent of the hiring officials said
reference checking was “not very effective.” The remaining 8 percent fell
into an “other” category whose responses varied from “critical” to
“marginally effective.”

U.S. Department of Justice                                                32
Office of the Inspector General
Evaluation and Inspections Division
      Additionally, when asked about the effectiveness of reference
checking compared with other assessment tools in the hiring process,
39 percent of the 88 hiring officials found reference checking to be “about
the same” as other assessment tools used to select the best applicant.
About the same percentage of hiring officials found reference checking
“more or somewhat more effective” than other assessment tools
(27 percent) as those who found it “less effective” (23 percent). Figure 3
shows how hiring officials ranked reference checking compared to other
hiring assessment tools such as interviews, performance evaluations, or
writing samples.

    Figure 3: Hiring Officials’ Perceptions of Reference Checking 

    Effectiveness Compared with Other Hiring Assessment Tools 



                                              More effective                            15
          Effectiveness Comparison




                                     Somewhat more effective              9


                                             About the same                                                       34


                                                Less effective                                    20


                                                       Other                  10

                                                                 0   5   10        15        20        25   30   35    40
                                                                         Number of Hiring Officials


        Note: Responses in the “other” category were those that did not answer
        the question. For example, hiring officials said reference checking was
        an important part of the process but did not rank it compared to other
        tools or responded that it depended on the reference and the
        information provided.
        Source: Telephone survey.

      Although component hiring officials told us that they checked
applicants’ references regularly and that they viewed reference checking
as an important part of the hiring process, some of the reference check
practices they described following were inconsistent with OPM’s and
MSPB’s recommended practices. Below, we first describe the
consistencies, then the inconsistencies.




U.S. Department of Justice                                                                                                  33
Office of the Inspector General
Evaluation and Inspections Division
As recommended by OPM and MSPB, most hiring officials who
conducted reference checks were managers who contacted
professional references, contacted references in addition to those
provided by the applicant, and contacted references by telephone.

      Our survey of 88 hiring officials from the 17 largest components
found that components’ practices for reference checking were consistent
with many practices recommended by OPM and MSPB.53 Specifically, we
found consistency with regard to who should conduct reference checks;
the type and number of references that should be contacted; how
references should be contacted; and how much time hiring officials
should spend checking references. We describe below how components
and hiring officials employed reference check practices recommended by
OPM and MSPB.54 We also describe additional reference check practices
that the hiring officials cited as useful.

Components and hiring officials indicated that individuals who most
often conducted reference checks were also involved in the hiring
process.

      Components and hiring officials both indicated that supervisors,
managers, and hiring officials – not human resource personnel –
generally conducted reference checks, as OPM and MSPB recommend.
MSPB’s guidance states that reference checking should not be delegated
to administrative assistants, less experienced employees, or human
resource personnel, unless they are familiar with the job and work
environment. Several components’ policies explicitly delegated
responsibility for conducting reference checks to hiring officials and
other employees involved in the hiring process.55

      The majority of component officials responding to our data request
on behalf of their components told us that hiring officials or others
involved in applicant selection were the individuals who conducted

       53 We based our analysis on the reference checking practices described in
component policies, components’ responses to questions in our data request, and in
telephone interviews with hiring managers.

        The Background section of this report describes each practice recommended
       54

by OPM and MSPB more fully.

       55  MSPB’s guidance stresses that those making hiring decisions should conduct
the reference check. While OPM’s guidance overall favors the individual making the
hiring decision be the reference checker (also referred to as the selecting official or
hiring manager), it also allows for a human resource specialist to carry out this
responsibility if the specialist is trained to do so.


U.S. Department of Justice                                                           34
Office of the Inspector General
Evaluation and Inspections Division
reference checks. Specifically, 20 components (51 percent) identified the
hiring manager or selecting official as the person conducting reference
checks, and 14 components (36 percent) identified supervisors or
managers as doing so.56 Only seven components (18 percent) identified
administrative or human resource staff as conducting reference checks,
though it was unclear whether the administrative staff referred to were
checking references of other administrative employee applicants or were
doing so for applicants to unrelated job series. Figure 4 shows the
position types of employees that components identified as their reference
checkers.

                                   Figure 4: Employees Conducting 

                                  Reference Checks by Position Type 



                           Person who interviewed candidate            3

                       Members of hiring committee or panel                4

                       Administrative or human resource staff                  7
       Position Type




                               General supervisor or manager                            14

                          Hiring manager, selecting official, or
                                                                                                  20
                               other lead in hiring process

                                                                   0   5           10   15   20        25
                                                                               Components


       Note: The number of components in the chart exceeds 39 because some
       components mentioned more than one position type in their responses.
       Source: Component responses to the OIG’s Department-wide data request.

       Five components explicitly addressed the delegation of reference
checking responsibilities in their policies and responses. We believe that
having such procedures in place can help components better conduct
reference checks by widening the pool of known reference checkers; by
making the reference checking process more efficient, particularly when
the hiring official is unavailable or busy with other priorities; and by
identifying who to train and make familiar with reference checking
guidelines.


       56Some components mentioned more than one type of individual who
conducted reference checks.


U.S. Department of Justice                                                                                  35
Office of the Inspector General
Evaluation and Inspections Division
Components and hiring officials contacted professional references.

      Component and hiring official practices generally mirrored OPM
and MSPB recommendations that hiring officials contact professional
references, particularly recent supervisors, which are the MSPB-
described “gold standard” of references. Several components also
provided guidance to hiring officials on what to do when a supervisor
reference cannot be contacted.

       A clear majority of components relied on supervisor reference
checks. Nearly three-quarters of components (29 of 39) reported
contacting applicants’ supervisors as references. Of those 29
components, 15 (52 percent) reported that they also contacted other
types of references, such as colleagues or personal references.57 The
remaining components cited personal references such as friends and
associates or did not specify a reference type. Figure 5 shows the types
of references that components reported they contacted.

         Figure 5: Types of References Checked by Components
                    35
                              29
                    30
                    25
                    20
       Components




                    15                           10
                    10                                               8                7
                     5
                     0
                         Professional ‐        Personal ‐      Professional ‐   Did not specify
                          supervisors     friends/associates      peers,
                                                                colleagues,
                                                                coworkers,
                                                               subordinates

                                            Reference Types

       Note: The number of components in the chart exceeds 39 because some
       components listed more than one type of reference.
       Source: Component responses to the OIG’s Department-wide data request.




       57  Three components employing attorneys also listed “clients” (the Executive
Office for United States Attorneys (EOUSA) and the Environment and Natural Resources
Division) and “judges and opposing counsel” (the Criminal Division) as potential
references.


U.S. Department of Justice                                                                        36
Office of the Inspector General
Evaluation and Inspections Division
      MSPB suggests seeking a mix of immediate and second-level
supervisors, peers, former coworkers, and subordinates (if applicable) as
supplements or, if necessary, substitutes for the supervisory perspective.
According to MSPB, contacting references who define a wide range of
professional relationships with the applicant can help hiring officials
better understand the applicant’s overall performance and behavior on
the job from the perspective of, for example, the applicant’s subordinates
and supervisors. One MSPB researcher we interviewed likened this
approach to “360-degree assessments,” which he said some reference
checking has begun to resemble.58 According to the MSPB researcher,
awareness of the availability and utility of contacting different types of
professional references, and when to do so, can enhance the value of
reference checks.

      When applicants request that their current supervisors not be
contacted, OPM recommends seeking other references and asking again
once a tentative offer has been extended. Similarly, MSPB encourages
hiring officials not to settle for information from fewer references and not
to be deterred from completing reference checks by unreachable
references or time constraints. In their reference check guidance, two
components included direction for hiring officials to take when an
applicant’s supervisor cannot be contacted or is unwilling to provide
information, an applicant refuses to provide a supervisor’s name, or the
supervisor is unavailable. We believe this guidance could prove
beneficial to other components as well.

       Hiring officials reported checking a variety of different references –
including supervisors, colleagues, academic contacts, and personal
character references. Almost half (45 percent) of the hiring officials we
interviewed reported that their office had asked applicants to provide
professional references that included supervisors and colleagues.
Another 19 percent of hiring officials stated that their offices had asked
applicants to provide a combination of personal, professional, and
academic references. The remaining 36 percent did not know or did not
specify the types of references their offices had asked references to
provide.59 When we asked hiring officials which types of references they

       58  Typically associated with performance appraisals, 360-degree assessments go
beyond input from supervisors to include input from peers, customers, subordinates,
and others. OPM, Performance Management Practitioner Series, 360-Degree
Assessment: An Overview, Performance Management and Incentive Awards Division
(1997), 1.

       59  The information we requested from components and hiring officials about the
types of references contacted differed. Whereas we asked components to describe only
                                                                               (Cont’d.)
U.S. Department of Justice                                                          37
Office of the Inspector General
Evaluation and Inspections Division
considered to be most useful, they named supervisors, professional
references, recent references, and individuals who receive work products
from the applicant.

Hiring officials requested and contacted references in addition to those
provided by the applicant.

       In addition to contacting the references that applicants provided,
component hiring officials frequently asked references for the names of
additional references and then contacted those individuals for
information on the applicant, a practice encouraged by MSPB. MSPB
recommends that hiring officials ask references at the end of the
reference check discussion for more contacts, when the questions are
fresh in their mind and they can best determine who else could answer
them well. Further, about two-thirds of the hiring officials we
interviewed contacted individuals they personally knew at the applicant’s
organization to inquire about applicants.

      Fifty-six of the hiring officials we interviewed (64 percent) told us
that they requested names of additional references at least “sometimes.”
All but 3 of the 56 said they then contacted those references at least
“sometimes,” although few obtained the applicant’s prior permission, as
discussed in the next section.60 Hiring officials from at least three
components regularly requested references in addition to those provided
by applicants or had guidance encouraging reference checkers to do so.
This practice increases the possibility of discovering useful information
from references because information is collected from the individuals
who can best evaluate applicants’ workplace performance and behavior.

      The reasons hiring officials cited for requesting additional
references included:

      the applicant’s supervisor is not familiar with the applicant’s daily
       work,
      the applicant’s supervisor or listed reference is unreachable,
      the reference cannot verify information that the applicant provided,
      the reference the applicant provided is not a supervisor,

which references were typically contacted, we asked hiring officials what types and how
many references their offices asked applicants to provide, whether their offices typically
contacted all references an applicant provided, and if not, which reference types they
considered to be most valid.

       60 Of the remaining three hiring officials, one told us that he did not contact
these additional references, and two did not answer the question.


U.S. Department of Justice                                                               38
Office of the Inspector General
Evaluation and Inspections Division
      a reference volunteers an additional name,
      to obtain additional information, and
      to reconcile contradictory information.

       Another common reference checking practice among component
hiring officials was contacting individuals they personally knew at the
applicants’ current or former workplace to seek a reference. Fifty-nine of
the hiring officials we interviewed (67 percent) told us they were “very
likely” or “somewhat likely” to contact someone they personally knew for
a reference on the applicant. Some hiring officials told us that their
supervisors encouraged them to do this, particularly in small career
fields or jurisdictions where applicants and contacts are likely to know
each other. However, as discussed in the next section, few of those
hiring officials followed MSPB’s and OPM’s recommendation to seek
applicants’ permission before making these contacts.

      Half (59 percent) said calling someone they personally knew at an
applicant’s current or former workplace was reliable or effective in
obtaining information about the applicant’s performance. Some
commented that information given by people they personally knew was
often more reliable than that from individuals the applicant had
furnished as references because the officials knew and trusted the
contact’s judgment. Others added that the reliability and effectiveness of
the reference depends on how well the reference knew the person and
how closely that person worked with the applicant. Some specifically
told us that contacting someone they knew for a reference was a positive
experience that yielded useful information.

       Due to the frequency of this practice among component hiring
officials, we asked these officials whether they considered the information
they receive from their personal contacts to be off the record. Two-thirds
of the 59 officials who said they were likely to contact individuals they
personally knew for a reference (39, or 66 percent) responded that they
would not consider their reference check conversation with a personal
contact about an applicant to be off the record, whereas 20 of the 59
(34 percent) said they would.

      Despite the frequency of hiring officials using personal contacts as
references and the benefits perceived by those who do so, we did not find
any written component reference checking guidance that addressed this
issue. Although MSPB encourages hiring officials to contact multiple
references – including those not provided by the applicant – neither
MSPB nor OPM discusses using hiring officials’ personal contacts as
references.


U.S. Department of Justice                                              39
Office of the Inspector General
Evaluation and Inspections Division
The number of references hiring officials contacted for each applicant
varied.

      Hiring officials told us that the number of references they
contacted depended on factors such as the number of references
provided by the applicant and what the references first contacted by the
hiring official said about the applicant. Generally, practices described to
us by hiring officials were consistent with OPM and MSPB
recommendations to contact at least three references, and more if
responses are inconsistent or references cannot be reached.

       Of the 88 hiring officials we surveyed, 35 (40 percent) told us that
they contacted all references provided by an applicant, whereas 22
(25 percent) said they did not contact all references. Of the 22 officials
who stated they did not contact all the references provided by an
applicant, most (18 officials, or 82 percent) told us they considered
current and former supervisors to be the most useful. Five other hiring
officials cited references who received work products from the applicant
and recent references as being the most useful.61

       Of the remaining 31 hiring officials we surveyed, 29 told us that
the number of references contacted depended on specific circumstances,
and the other 2 hiring officials did not know whether all references were
contacted. Ten officials said they based the number of references they
contacted on the nature of information provided by the references. If a
hiring official received positive information about the applicant in the
first two reference calls, the official might choose not to call any others.
In contrast, if a hiring official received negative or conflicting information,
the official might want to contact other references to verify or dispute the
information.

Components and hiring officials believed the telephone was the most
reliable method to contact references.

      Most components – 31 of 39 (79 percent) – reported the telephone
as the “most reliable method” for reference checking, as OPM and MSPB
recommend. Three components (8 percent) identified use of both the
telephone and e-mail as most reliable. The remaining five components
did not specify. Hiring officials’ responses were similar to components’ in
that most – 55 of 88 (63 percent) – identified the telephone as their
primary means of contacting references. Using the telephone to contact


       61 The number of reasons given exceeds the number of hiring officials who did
not contact all references because one hiring official commented on two topics.


U.S. Department of Justice                                                         40
Office of the Inspector General
Evaluation and Inspections Division
references allowed hiring officials to establish a rapport with the
reference provider and engage in a conversation so that they could
question and probe when more information or clarification was needed.

       About one-third of the hiring officials we interviewed (31 officials,
or 35 percent) told us they at least “sometimes” used methods other than
the telephone to contact references. They told us they used e-mail to
make initial contact with a reference and set up a telephone
conversation, to contact a reference if they have not been reachable by
telephone, and to ask follow-up questions.62 Face-to-face meetings were
used if the reference was in close proximity, such as in the same
building. Three hiring officials we interviewed said that they preferred to
conduct reference check conversations in face-to-face meetings.63

Hiring officials typically spent about 20 minutes on a reference call and a
few hours in total conducting reference checks.

      Component hiring officials’ practices were generally consistent with
OPM and MSPB recommendations to spend about 20 minutes on a
reference check or a few hours for all reference checks. Hiring officials
we interviewed told us that conducting individual reference checks took
from 5 to 45 minutes and that the total time for contacting all references
for an applicant did not exceed 4 workdays. Some hiring officials
commented that the most time-consuming part of reference checking was
actually making contact with a reference.

       However, some hiring officials told us they spent only 5 minutes on
each reference check, which may not be sufficient time for the officials to
probe for detailed information and examples about an applicant’s
performance or abilities. Hallmarks of a thorough reference check
include asking probing, open-ended questions and requesting
clarification and follow-up where needed, according to OPM and MSPB.




       62 In its 2005 report, MSPB acknowledged the increased role of e-mail in
reference checking but cautioned that relying on e-mail alone reduces the value of
reference checking because it prevents a truly interactive conversation.

       63 Although MSPB does not discuss face-to-face reference check conversations,
it mentions videoconferencing as potentially holding promise for useful reference
checking since hiring officials can observe non-verbal cues.


U.S. Department of Justice                                                           41
Office of the Inspector General
Evaluation and Inspections Division
Hiring officials generally did not follow OPM and MSPB guidance on
when to conduct reference checks in the hiring process, on
obtaining applicants’ permission before contacting additional
references, and on documenting reference checks.

      While the practices described previously were consistent with OPM
and MSPB recommendations, the practices described below were
inconsistent with practices recommended by OPM and MSPB. We found
inconsistencies regarding when in the hiring process references are
checked, whether applicants’ permission is obtained before contacting
references not provided by the applicant, and whether reference checks
are documented using a standard form.

Reference checks were generally not conducted at the recommended
point in the hiring process.

        Reference checks of applicants were not generally being done
during the “opportune” time recommended by OPM and MSPB, which is
near the end of the hiring process when a few top applicants remain in
the pool but before a conditional job offer has been made. MSPB notes,
“If reference checking is done too early, it may seem more fair to
applicants, but can become prohibitive in terms of resources. If it is
done too late, the results may not actually inform a hiring decision.”64
MSPB specifically cautions against checking references for only the final
applicant because the goal of reference checking is to verify information
provided by the applicant, collect additional information from references,
and use that information in the hiring decision.

     Less than one-third of the component responses indicated they
checked references within the time frame recommended by OPM and
MSPB. Of the 33 components that regularly conducted reference checks
and described when they conducted the checks, 25 checked references
between the conclusion of applicant interviews and selecting a final,
successful applicant for at least one position type.65 Of these 25

       64   MSPB, Reference Checking in Federal Hiring: Making the Call (2005), 27.
       65   For this analysis, we excluded 6 of the 39 components in our review scope
based on their responses. Three components responded that they did not generally
check new applicants’ references (the BOP, FBI, and Office of Legal Counsel, which
submitted only a vouchering form). Information provided by three other components
was not sufficiently clear to make a determination that reference checking was
definitively conducted (JMD, the U.S. National Central Bureau of Interpol, and Office of
Information and Privacy).
       We included four components on the timeline in Figure 6 twice based on their
responses. Three components – the Civil Rights Division, the Office of Justice
                                                                               (Cont’d.)
U.S. Department of Justice                                                            42
Office of the Inspector General
Evaluation and Inspections Division
components, only 11 stated they conducted the checks in the narrower
time frame recommended by OPM and MSPB. Figure 6 below shows the
approximate distribution of components that checked references both
within and outside the opportune time.




Programs, and the Office of Public Affairs – provided different responses for different
position types. A fourth component – EOUSA – noted two different points in the hiring
process where reference checking was performed. Where components provided the
same answers for multiple position types (such as attorneys and support staff), we
included them on the timeline once.


U.S. Department of Justice                                                           43
Office of the Inspector General
Evaluation and Inspections Division
             Figure 6: Approximate Reference Check Timing




Notes: We determined reference check timing based on components’ responses to our
data request question, “Briefly describe your agency’s process for checking applicant
references, to include: At what point during the hiring process are references
contacted?” We placed the components on a general hiring timeline in relation to the
point in the hiring process that MSPB and OPM encourage reference checking.
These results are based only on components’ self-reporting and variation likely occurs
within each component. We placed into the “opportune time” category only those
components that explicitly indicated references are checked not only after interviews
but after narrowing applicants down to the few top or prior to making a selection.
Source: 33 component responses to the OIG’s Department-wide data request.

       Like the components, less than one-third of the 88 hiring officials
(26, or 30 percent) we surveyed indicated they checked references within
the time frame recommended by OPM and MSPB. Twenty-one other
hiring officials (24 percent) told us they checked references between

U.S. Department of Justice                                                           44
Office of the Inspector General
Evaluation and Inspections Division
completing applicants’ interviews and selecting a final, successful
applicant (no position types were specified). The 41 remaining hiring
officials stated they conducted reference checks earlier or later in the
hiring process. Among the 41 officials, 16 checked references only for
the final applicant, and 21 said that they checked references only for
internal applicants, that they checked references before the hiring
official’s supervisor approved the applicant, or that the stage in which
they checked references varied.

Few hiring officials obtained applicants’ permission to contact additional
references.

       Both OPM and MSPB recommend that hiring officials ask
applicants for permission before contacting any reference, including
references not provided by the applicant (additional references). MSPB
specifically recommends obtaining permission from applicants before
contacting additional references whose names were furnished by the
original references. It further recommends that hiring officials inform
references that the applicant has granted permission. Although most
hiring officials said they obtained applicants’ permission before
contacting applicant-supplied references, few officials obtained
applicants’ permission before contacting additional references. Hiring
officials said they obtained permission to contact the applicant-supplied
references either by asking the applicant during the hiring process or
through posting notice of this practice in the position vacancy
announcement; both methods are consistent with the recommended
practices. OPM recommends obtaining an applicant’s prior permission
through the job application itself, orally during the interview, or through
use of the OF-306 (Declaration of Federal Employment). MSPB states
that applicants grant “implied permission” to check references when they
apply for a job and that the signed OF-306 strengthens the legal status
of their permission, if signed early enough in the selection process.

       Most hiring officials reported obtaining applicants’ permission to
contact the references they provided using one of two methods. Fifty
hiring officials (57 percent) told us that they notified applicants during or
after the interview that their references would be contacted. Twelve other
officials (14 percent) told us that applicants were notified in the vacancy
announcement that their references would be checked.66 One official
told us he notified the applicant once a conditional job offer was made,


       66Some officials explained that they were not always responsible for posting the
vacancy announcement and therefore were uncertain whether or when applicants
completed the OF-306.


U.S. Department of Justice                                                          45
Office of the Inspector General
Evaluation and Inspections Division
and the remaining officials said they orally notified the applicant at other
points during the hiring process.

       Although 56 (64 percent) of the component hiring officials told us
they requested names of additional references “at least sometimes,” only
15 (27 percent) also followed OPM’s and MSPB’s guidance to obtain the
applicant’s prior permission. Most hiring officials (34, or 61 percent)
explicitly said they did not obtain prior permission.67

      While we did not specifically ask components to report whether
they requested permission from applicants prior to reference checking or
informed references that permission had been granted by applicants,
seven of the components’ written reference check policies or forms
included such guidance. Of the seven components, four required that
applicant permission be obtained before contacting applicant-supplied
references. Reference check materials submitted by two of those
components also required obtaining applicant permission before
contacting additional references. The remaining three components’
materials generally encouraged (but did not require) hiring officials to
obtain applicants’ prior permission.68 None of the seven components’
materials mentioned informing references that applicants had given
permission for references to be contacted, as MSPB suggests they do.

Hiring officials did not consistently document reference checks by using
a standard form, but did so in other ways.

      To increase standardization and effective reference check practice,
MSPB recommends that each reference check be documented using a
form with questions and spaces for answers. MSPB recommends the
form include the time and date of each discussion, who conducted it, and
other information relevant to the hiring process. However, this practice
was not occurring consistently among the components.69 Further, OPM
recommends that reference check records be “stored and retained
according to agency policy” although neither OPM nor MSPB provide

       67 Of the remaining seven hiring officials, four said they would “sometimes”
obtain the applicant’s prior permission, and three did not answer the question.

       68   One component recommended obtaining written consent from applicants
before contacting their references to relieve the current or former employer of any
liability in providing information during a reference check.

       69 We previously reported that 36 percent of the components (14 of 39
components) did not submit any written reference check guidance, forms, or
questionnaires, and 64 percent of hiring officials reported not having a written set of
reference check questions on a form.


U.S. Department of Justice                                                                46
Office of the Inspector General
Evaluation and Inspections Division
advice on where or for how long reference checking information should
be retained because the decision is agency-specific. Few components
provided written guidance on documenting reference checks or retaining
reference check records, and most hiring officials we interviewed reported
that they documented reference check information in various ways and
retained the information for varying periods of time.

      Although hiring officials generally stated they were documenting
reference checks, they also stated that they were uncertain of component
expectations and had very little written guidance to follow. Of the 88
hiring officials we interviewed, 77 (88 percent) reported they documented
reference checks. Of the remaining 11 officials, 5 stated that they did
not document checks, and 6 stated that they only sometimes
documented information obtained during a reference check.
Circumstances in which the six hiring officials sometimes did not
document reference checks included when the information provided was
anecdotal, communication with the reference was very brief, the
information was consistently positive, or documentation was not
required.

       Seventy-three hiring officials (82 percent) stated that they retained
the information they gathered during a reference check in some manner
and for varying periods of time. The records were stored either in hiring
officials’ own files, their office’s personnel files, or were sent to the
human resource office for storage. Many (44 percent or 39 officials) did
not know how long reference checking records should be kept. The
period of retention varied among hiring officials who reported
maintaining reference check records; a period of 1 to 3 years was most
commonly cited.70

       Regarding requirements for documenting and retaining reference
check records, seven components’ written guidance (18 percent)
addressed the documentation of reference checks. Another 27
components (69 percent) described reference check documentation in
their responses to our data request, but documentation of checks was
not addressed in the policies they provided. Seven components made no
mention of documenting reference checks in either their policies or in
their responses.71 Regarding the retention of reference check records,

       70 Some hiring officials told us that they sent the notes, completed forms, or
summaries from reference checks they conducted to a headquarters or human resource
location.

       71In our data request we asked components, “Are questionnaires, forms, or
worksheets used by your agency retained? If so, by whom and for how long?”
                                                                            (Cont’d.)
U.S. Department of Justice                                                        47
Office of the Inspector General
Evaluation and Inspections Division
only 1 component explicitly addressed procedures for retaining reference
check information, while 22 (56 percent) provided descriptions of
document retention procedures. Sixteen components did not address the
retention of reference check documents in their responses. Among
components that did address retaining reference check records, the
retention period ranged from less than 1 year to the time of the
employee’s departure.72

Conclusion

      We surveyed component hiring officials who checked applicants’
references and found they conducted the checks even though not
required to do so because they perceived reference checking to be
important in determining whether an individual was a strong applicant
and a good fit for the organization. They also stated that uncovering
derogatory or contradicting information as part of a reference check
could prevent the hiring of an applicant who cannot perform the job and
who will place a burden on office resources.

      Reference check practices varied considerably, mirroring the
practices recommended by OPM and MSPB in some areas, but not in
other areas. Practices were generally consistent with recommendations
by OPM and MSPB that reference checks be conducted by officials
making the hiring decisions, that hiring officials contact at least three
professional references, that hiring officials use the telephone to check
references, and that they spend about 20 minutes on each reference
check. However, reference checks were often not conducted at the most
useful point in the hiring process, applicants’ permission was not always
obtained prior to contacting references not provided by the applicant,
and results of reference checks were not documented using a standard
form, all of which OPM and MSPB recommend be done.73




Components responded to the question by describing whether they documented
reference checks. We assessed how components addressed documentation and
retention (whether in a written policy, a description, or not addressed) and what
retention time, if any, components listed.

       72   Two components kept the information less than 1 year, and another two kept
it at least 1 year. Four components kept the information for 2 to 3 years. Two
components kept reference check information for more than 3 years. Four components
retained reference check information until the employee left the agency.

       73 OPM does not specify how reference checks are to be documented (such as
using a standard form); it defers to agency human resource offices.


U.S. Department of Justice                                                          48
Office of the Inspector General
Evaluation and Inspections Division
Some components conducted vouchering in lieu of a reference
check.

       We found that some components’ practices substituted vouchering
in place of a reference check for both attorney and non-attorney
applicants.74 Further, few hiring officials we interviewed could
differentiate between vouchering and reference checking. OARM policy
requires that both vouchering and reference checking be conducted for
new career attorney applicants, but few components indicated that they
did so.

Some components and hiring officials did not distinguish between
vouchering and reference checking, which have different purposes.

      In response to our request for components to provide the form they
use for reference checking, two components indicated that they
conducted reference checks but submitted only Form OBD-236 (voucher
form), indicating that at least those two components believed that the
voucher form served the purpose of a reference check.75 Some
components used the terms “vouchering” and “reference checking”
synonymously in their responses, while other components submitted the
voucher form in conjunction with reference checking materials,
suggesting they recognized some distinction between the two checks.

       Similarly, when we asked hiring officials to differentiate between
vouchering and reference checking, few correctly identified the difference
and some referred to Form OBD-236 when asked what form they used
for reference checking. Only 15 of the 88 hiring officials we surveyed
(17 percent) correctly identified vouchering as a process to evaluate the
suitability of an applicant for federal employment, while reference
checking is a process that verifies duties in past positions and collects
information on an applicant’s past performance. Four hiring officials told
us that reference checking and vouchering were one and the same, and
five told us they used the same form for both. Two hiring officials told us



       74 Vouchering is a type of suitability determination that seeks to verify an
applicant’s basic residence, education, employment, and criminal history in an effort to
determine an applicant’s overall suitability for federal service. Unlike reference
checking, vouchering is typically conducted after selecting an applicant and making a
conditional job offer.

       75  The two components (the Offices of Legal Counsel and Information Policy)
were among the six that we excluded from our analysis of components that reported
regularly conducting reference checks.


U.S. Department of Justice                                                            49
Office of the Inspector General
Evaluation and Inspections Division
that they used a question on the voucher form, “Is there anything else
you would like to add?” as a reference check question.

Few components indicated that they followed OARM’s requirement to
conduct both vouchering and reference checks for attorney applicants.

       Few components indicated that they were aware of and followed
OARM’s requirement to conduct both vouchering and reference checking
on new career attorney applicants. We asked that components
responding to our data request “include any information related to your
agency’s [component] assessment of applicant suitability that either
complements or is done in lieu of reference checking (e.g., suitability or
security questionnaires for applicants’ references).” We also requested
that components submit any reference check materials that differ by
position or category of position (such as attorneys or investigators).

        Only 10 of the 39 components (26 percent) indicated in their
responses to our data request that they followed OARM’s requirement for
attorney hires. Of the 10, only 4 cited or provided OARM’s April 13,
2010, memorandum establishing the requirement, including OARM
itself. The remaining 29 components (74 percent) did not indicate
whether they followed OARM’s requirement.76

       While most components did not specifically mention OARM’s
requirement, those with large numbers of attorneys described reference
check practices for attorney positions. Fifteen components (38 percent)
indicated in their responses that their reference checking procedures for
attorney applicants differed from procedures for applicants in other job
series. In addition, while most components (24 components, or
62 percent) indicated that they conducted reference checks before a
conditional job offer was extended, as OARM Memorandum 2010-3
requires, the remaining components did not specify when they checked
references.

      Only five components (13 percent) either clearly distinguished
between their use of Form OBD-236 for vouchering and reference
checking, or described attorney reference checks in enough detail to
make it apparent that their reference checking and vouchering were
distinct processes. The remaining 34 components did not clearly
delineate between reference checks and vouchering and did not
distinguish the two in their submissions to the OIG.


       76 All 39 components have attorney positions, and 27 of the 39 components
(69 percent) hired attorneys in FY 2010, according to National Finance Center data.


U.S. Department of Justice                                                            50
Office of the Inspector General
Evaluation and Inspections Division
      We concluded that vouchering was occurring in place of, not in
conjunction with, reference checking at some components for both
attorney and non-attorney applicants. We believe that the factors
contributing to this occurrence were the general absence of clear, written
reference check guidance available to component hiring officials;
confusion over the purpose of vouchering and reference checking; and
uncertainty about reference check expectations overall, as discussed in
the next section.

The SAVE Council questionnaire proposes combining both performance
and suitability questions in a single form.

       The SAVE Council’s draft Employment Reference Questionnaire
combines suitability and performance questions in an attempt to improve
the overall efficiency of the hiring process and save the Department time
and money. SAVE Council working group members told us the
questionnaire would aid in disclosing an applicant’s performance
problems that would not otherwise be uncovered due to agencies’
reciprocity agreements.77 They explained that uncovering questionable
behavior or performance information could help prevent components
from spending money to begin, and possibly complete, a background
investigation on an applicant they ultimately would not want to have
hired. Members also told us that the questionnaire would hold hiring
officials accountable for hiring quality applicants and make the hiring
process more efficient. As of July 2012, the questionnaire had been
published for comment in the Federal Register.

Conclusion and Recommendations

       Some components erroneously used vouchering, a suitability
determination, in place of reference checking, and few hiring officials we
interviewed could explain the difference between determinations of
applicants’ suitability, and reference checking. Although we did not find
inadequate reference check practices that directly led to poor hiring
decisions, we believe the misconception that vouchering is a substitute
for reference checking increases the risk that components will make a
poor hiring decision. A cursory check of an applicant’s suitability for

       77  Pursuant to § 3001(d) of the Intelligence Reform and Terrorism Prevention Act
of 2004, Pub. L. No. 108-458 (2004), background investigations and determinations
completed by an authorized investigative agency or authorized adjudicative agency
must be accepted by all agencies and be transferable to any other authorized
investigative agency. Section 3001(d)(4) of the Act prohibits authorized agencies from
conducting an investigation if a current investigation or clearance of equal level already
exists or has been granted by another authorized adjudicative agency.


U.S. Department of Justice                                                             51
Office of the Inspector General
Evaluation and Inspections Division
federal service cannot serve as a substitute for a reference check to verify
the applicant’s duties in past positions and evaluate an applicant’s past
performance. Understanding the differences between the purposes of
vouchering and reference checking is critical to ensuring an applicant is
thoroughly screened for both suitability and capability.

      We believe components could conduct better reference checks and
make more informed hiring decisions if the Department clarified that
reference checking differs from vouchering and other suitability
determinations by: (1) overall purpose, (2) the topics covered, (3) timing
in the hiring process, (4) who conducts the checks, and (5) the sources
contacted. Reaffirming use of Form OBD-236 as a voucher form for the
Department’s screening of applicants’ suitability and establishing
reference checks as a distinct practice would help clarify the differences,
even if the two are conducted during the same reference contacts.

      Some components are also unaware of OARM’s requirement that
both reference checks and vouchering be conducted for all new career
attorney applicants. Reiterating components’ obligation to follow OARM
Memorandum 2010-3, which establishes this requirement, would ensure
that components are aware of their obligation to conduct reference
checks and vouchering during the attorney hiring process.

      To improve the Department’s ability to select the most qualified job
applicants we recommend that JMD:

       1. Issue guidance to Department component heads, Executive
          Officers, and Human Resources Officers clarifying the purposes
          of, and distinctions between, suitability determinations (such as
          vouchering) and reference checking, including differences in
          topics covered, who conducts the checks, the sources
          contacted, and when in the hiring process each occurs.

       2. Reiterate components’ obligation to follow OARM Memorandum
          2010-3, which requires both reference checking and vouchering
          using Form OBD-236 for attorney applicants.


Hiring officials reported they were often uncertain of their
component’s reference checking expectations and allowable
practices.

      Hiring officials we surveyed were uncertain of their agencies’
expectations for reference checking, including whether checking
references was required. The hiring officials commonly expressed

U.S. Department of Justice                                               52
Office of the Inspector General
Evaluation and Inspections Division
uncertainty about what questions they could ask a reference. More than
half of the hiring officials we interviewed were not aware of or did not
have guidelines addressing what could and could not be asked during a
reference check. Hiring officials also expressed strong interest in
receiving reference checking guidance and described elements of
information they would find useful in that guidance.

Hiring officials were unsure whether their component required reference
checking.

        Of the 88 hiring officials we surveyed, 36 (41 percent) did not know
whether their component formally required reference checking by a
policy or procedure. Twenty-three hiring officials (26 percent) told us
they believed reference checking was not required at all. Among the
remaining 29 hiring officials, 15 (17 percent) believed their component
required reference checking. Fourteen (16 percent) gave responses that
fell into other categories, including that reference checking was not
required but was nonetheless an accepted practice, that it was required
only for certain positions, and that it was required in their office but not
component-wide.

Over half of the hiring officials we interviewed reported lacking clear
guidance in the form of reference check questions.

       The majority of hiring officials we surveyed – 64 percent (56
officials) – told us their office did not have a set of written reference check
questions. Further, when we asked the 32 hiring officials whose offices
did have written questions whether the questions were tailored to a
specific position, 72 percent (23 officials) said they were standard and
only 25 percent (8 officials) described them as position-specific (4 of the 8
also had standard questions).78

       Although 64 percent of the components provided some form of
written reference check materials, 53 percent (47 officials) of the hiring
officials we interviewed stated they had not been provided or were not
aware of any component guidance regarding what questions they could
or could not ask of references. While the 88 hiring officials who
participated in our survey were not representative of the entire
Department, these findings demonstrate that at least some hiring
officials were unaware of existing guidance from their agencies. For
example, two hiring officials from the same component each told us in
separate interviews that it would be useful to have reference check

       78   One hiring official did not know what type of questions his agency used.


U.S. Department of Justice                                                             53
Office of the Inspector General
Evaluation and Inspections Division
guidance from their component addressing what questions could and
could not be asked. They were unaware that their component had
already developed this guidance – which included sample reference check
questions – and had posted it on the component’s intranet. Some hiring
officials commented that they used their own set of questions and were
unaware of what questions others in their component used. These
examples suggest a need for components with published reference check
questions to re-circulate them to their hiring officials regularly.

        Hiring officials reported being unclear about whether they could
ask references questions on many topics due to legal or privacy concerns
and consequently avoided the topics, including specific questions that
OPM and MSPB recommend
that hiring officials ask.79 For             Unclear Reference Check Topics
example, more than half of the        Hiring officials reported being unclear if they
hiring officials we interviewed       could ask applicants’ references about topics
                                      such as: (1) leave usage, (2) military service,
(55 or 63 percent) said they did
                                      (3) specific behavior problems, (4) whether
not ask references direct             the applicant received poor evaluations,
questions about whether an            (5) whether there were problems that would
applicant had performed or            affect the applicant’s ability to perform the
behaved poorly on the job.            job, (6) whether there had been specific
                                      problems between the applicant and his or
Instead, two-thirds of the hiring
                                      her co-workers, and (7) whether the
officials said they attempted to      applicant had ever been fired. Additional
elicit answers about poor             topics are listed in Appendix VI.
performance or behavior
through indirect, open-ended questions. Yet, MSPB encourages agencies
to ask directly about poor behavior and to probe for specific examples of
performance. MSPB discusses a common misconception – that
discussing performance or job-related behavior of an employee is not
legal. MSPB advises reference checkers that this misconception is false
because reference checkers have a general “qualified immunity” from
invasion of privacy charges provided they ask job-related questions.

      Hiring officials also expressed strong interest in receiving reference
check guidance, including 23 hiring officials (26 percent) who specifically
stated that they would like to see a list of questions that could and could
not be asked during a reference check. Hiring officials expressed this
interest despite 99 percent of them stating that they were “somewhat” or

       79  None of the topics about which hiring officials said they were unclear due to
legal or privacy concerns were on MSPB’s inappropriate or forbidden topic list (that is,
gender (including pregnancy), race, color, religion, national origin, age, and sexual
orientation). However, hiring officials cited questions about an applicant’s marital
status, children, and disability – topics that appear on some components’ lists of
questions to avoid.


U.S. Department of Justice                                                            54
Office of the Inspector General
Evaluation and Inspections Division
“very” comfortable with their knowledge of what questions they could and
could not legally ask during a reference check. However, many hiring
officials – including those who participated in the telephone survey and
those we interviewed separately – told us that a fear of litigation added to
the uncertainty over what can be asked and shared during a reference
check, and often inhibited the amount of information a reference
provided. Concerns over the privacy and confidentiality of information
disclosed during a reference check has also caused confusion among
hiring officials and, as many hiring officials explained, led to references
not being forthcoming in their responses. Appendix VI lists other
problems with the reference check process that hiring officials identified.

Hiring officials identified information they would like to see appear in
reference checking guidance.

      Hiring officials identified specific elements of information they
would like to see appear in reference checking guidance. Some specified
that the guidance should be issued from the Department, while others
preferred that each component issue its own guidance. Hiring officials
we interviewed recommended most often that any reference checking
guidance issued at the Department-level:

           be flexible so components may tailor it to their specific needs,
           include a list of sample reference check questions,
           include a list of questions that may and may not be asked, and
           provide for reference check training.

     Hiring officials also suggested that reference checking guidance,
whether issued by the Department or a component:

           include a list of reference checking best practices,
           advise hiring officials how to respond when they are contacted
            as a reference,
           explain the component’s suitability screening process, including
            when it occurs and what it entails,80
           name the offices or individuals to whom hiring officials should
            report derogatory information provided by a reference, and
           name the offices or individuals to whom hiring officials should
            address questions and seek additional guidance.


       80 Some hiring officials told us managers were not always aware of what
questions were asked during background investigations and vouchering, and might
omit a question or topic during reference checking because they assumed it would be
covered during suitability screening.


U.S. Department of Justice                                                        55
Office of the Inspector General
Evaluation and Inspections Division
       Hiring officials’ responses about how candid they were when asked
questions as a reference illustrate the importance of asking carefully
formulated questions. When we asked hiring officials what level of detail
they provided when answering questions as a reference, most said they
would answer the questions they were asked but would provide details or
specific information only if they were asked directly. The quality of the
applicant’s performance and the reference’s willingness to provide
truthful information about the applicant are also factors affecting how
truthful and forthcoming references are likely to be. When we asked
hiring officials how they would provide references for a poor performer
whom they would like to see leave the office, almost half (47 percent) said
they would either be honest or would answer only the questions they
were asked.

      In Appendix VII we provide a list of reference check questions that
component hiring officials cited as useful, as well as questions suggested
by OPM and MSPB. OPM and MSPB recommend that reference check
questions be tailored for each position-specific vacancy announcement.
OPM officials we interviewed recommended that agencies work with their
supporting Office of General Counsel to ensure the legality of each
question.

Hiring officials were unsure of the protocols for documenting and
retaining reference check records.

      Hiring officials we interviewed were uncertain of their agencies’
expectations for documenting reference check information and retaining
the records. Almost half of the hiring officials we interviewed (42 percent)
were uncertain whether their component had any policy or guidance on
documenting reference checks. Twenty-three percent (20 officials) told
us their office did have policies for the documentation of reference
checks.

       Hiring officials were also uncertain where and for how long
reference check documentation should be stored. There was further
confusion among officials about whether (and where) to retain reference
check documentation on applicants whom they do not select. Almost
half of hiring officials (44 percent) told us that they did not know how
long reference check records should be retained.

Conclusion and Recommendations

      Hiring officials we interviewed were uncertain of their agencies’
reference check expectations and allowable practices, including whether
reference checking is required and for which positions; what questions

U.S. Department of Justice                                               56
Office of the Inspector General
Evaluation and Inspections Division
they could ask during a reference check; and how they should document
and retain reference check information. Further, within components
that did provide reference check guidance, some hiring officials we
interviewed were unaware of the guidance.

       Some hiring officials told us they were reluctant to ask key
questions that would be permitted or that are recommended by OPM or
MSPB (such as asking directly about poor behavior) because they were
unsure whether the questions were appropriate. Although we did not find
inadequate reference check practices that directly led to poor hiring
decisions, clear component-level guidance and improved certainty among
hiring officials about their component’s expectations would be beneficial.
Currently, hiring officials may not be asking questions in a manner that
elicits the most useful or descriptive response, and hiring officials may be
asking irrelevant or inappropriate questions of references. These
conditions diminish the effectiveness of reference checking and can
increase the risk of unknowingly hiring a poor performer or an
unqualified applicant.

      We believe that JMD, as the Department’s proponent for human
resource policy, should create a central location on DOJNet where
reference check guidance for components and hiring managers is posted
and regularly updated. JMD should include reference check guidance
from OPM and MSPB, as well as a list of Department best practices that
includes sample reference check questions. In addition, based on the
comments and suggestions of component hiring officials and the
benchmarks recommended by OPM and MSPB, JMD should assist
components to update or issue their own comprehensive reference check
guidance that addresses the following:

          whether the component requires reference checking;
          how reference checking differs from vouchering and other
           determinations of applicants’ suitability;
          who within the component should conduct reference checks;
          how the checks should be conducted (telephone, e-mail, in
           person);
          when in the hiring process reference checks should occur;
          which type of references should be contacted (those provided by
           applicants, those provided by references, personal contacts);
          whether applicants’ prior permission should be obtained before
           contacting all reference types;
          what form or questionnaire should be used in conducting
           reference checks;
          what questions should be asked for each type of position;
          what questions and topics may and may not generally be asked;
U.S. Department of Justice                                               57
Office of the Inspector General
Evaluation and Inspections Division
           how and where to document the results of reference checks; 

           how long to retain reference check records; 

           what hiring managers should say (and not say) when they are 

            contacted as a reference;
           how hiring officials should handle and report derogatory
            conduct information provided by a reference; and
           to whom hiring officials should address their reference check
            questions and seek additional guidance as needed.

       In addition, to maintain hiring officials’ knowledge of reference
check techniques and to exchange ideas, JMD should provide periodic
training on reference checks, perhaps as part of a broader human
resource effort addressing hiring.81

      To improve the Department’s ability to select the most qualified job
applicants, we recommend that the Justice Management Division:

       3. Justice Management Division Human Resources/
          Administration office (JMD HR) develop and issue Department-
          wide guidance on the use of reference checks.

       4. JMD HR assist components to update or issue comprehensive
          reference check guidance that meets their unique hiring needs.

       5. Create a central location on the Department’s intranet where
          general reference check guidance for components and hiring
          managers is posted and regularly updated, including guidance
          from OPM and MSPB, as well as Department best practices and
          sample reference check questions.

       6. Provide periodic training on reference checks, or include it as a
          part of broader human resource training.




       81Increased training in effective reference checking techniques was one of
MSPB’s recommendations in its 2005 report.


U.S. Department of Justice                                                          58
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS 



       Although OPM and MSPB encourage federal agencies to check
applicant references for every hiring action, reference checking is not
uniformly required by the federal government or by Department
regulation or directive. While the majority of the components we
reviewed submitted materials or described practices indicating that they
conducted reference checks, very few had written policies requiring
reference checking. We found that reference check practices varied
among components, and not all of the practices were consistent with
recommendations from OPM and MSPB. We believe that these
inconsistencies create risk that components are not uniformly and
thoroughly screening applicants, and that some hiring officials are not
collecting information useful in hiring decisions or are simply not
bothering to check references. Consequently, components may
unknowingly hire individuals who cannot perform a job well or whose
talents and interests do not support the component’s mission and
culture.

       We also found that reference checking was more commonly done
for non-law enforcement positions and for internal transfers. Many of
the new employees the Department hired into law enforcement and
correctional officer positions were not reference checked. Notably, ATF,
the DEA, the FBI, the USMS, and the BOP had no policies requiring
reference checks for new criminal investigators, deputy U.S. marshals, or
correctional officers. These components reported that they generally did
not check references for those applicants and relied on other methods to
evaluate skill and aptitude. Collectively, these five components’ hiring
for those job series accounted for 38 percent of the Department’s total
hiring actions within our scope during FY 2010.

       Additionally, some components erroneously used a suitability
determination (vouchering) in place of a reference check, and few hiring
officials we interviewed could explain the difference between
determinations of applicants’ suitability and reference checking. We
believe the misconception that vouchering is a substitute for reference
checking increases the risk that components could make a poor hiring
decision. Further, not all components were aware of, or were following,
OARM’s requirement to conduct both reference checks and vouchering
for attorney hires.

      Finally, hiring officials were generally uncertain of their agencies’
reference checking expectations and allowable practices. Component
hiring officials we interviewed expressed a need for flexible reference

U.S. Department of Justice                                                59
Office of the Inspector General
Evaluation and Inspections Division
check guidance, including recommended questions and best practices.
Yet the Department has no central source for reference check guidance
or training.

      To improve the Department’s ability to select the most qualified job
applicants, we recommend that the Justice Management Division:

       1. Issue guidance to Department component heads, Executive
          Officers, and Human Resources Officers clarifying the purposes
          of and distinctions between suitability determinations
          (vouchering) and reference checking, including differences in
          topics covered, who conducts the checks, the sources
          contacted, and when in the hiring process each occurs.

       2. Reiterate components’ obligation to follow OARM Memorandum
          2010-3, which requires both reference checking and vouchering
          using Form OBD-236 for attorney applicants.

       3. Justice Management Division Human Resources/
          Administration office (JMD HR) develop and issue Department-
          wide guidance on the use of reference checks.

       4. JMD HR assist components to update or issue comprehensive
          reference check guidance that meets their unique hiring needs.

       5. Create a central location on the Department’s intranet where
          general reference check guidance for components and hiring
          managers is posted and regularly updated, including guidance
          from OPM and MSPB, as well as Department best practices and
          sample reference check questions.

       6. Provide periodic training on reference checks, or include it as a
          part of broader human resource training.




U.S. Department of Justice                                               60
Office of the Inspector General
Evaluation and Inspections Division
                        APPENDIX I: FORM OBD-236 



Below are two versions of the Form OBD-236, the Inquiry Regarding
Suitability of Applicant (voucher form).

   	 Version A is the Department’s August 1994 version, which is 

      posted on the Department’s intranet. 


   	 Version B is OARM’s version of the form. OARM reiterated the
      requirement to use this form for attorney applicants in an April 13,
      2010, memorandum from its Director to the heads of all
      Department offices, boards, bureaus, and divisions.




U.S. Department of Justice                                             61
Office of the Inspector General
Evaluation and Inspections Division
Version A



       us. 0.,0" ...., of Jldlltt                                                 ....ry R...rdiq So.lt.blllly.r Appllcu'




       No ... oIlooMoo1d .. , Qo ..
       RototloOl,. AP ....... '
                                      --
                                      'Ioood,


       V.."" _101 .. Apptt ..."                                                                      T.,
       I , T.,..rkll_ ... . tbilpt ................ ,.' .......... ~,_ of      ..... ",.-.
                     '"




       J. _ " ' ..IoIIIII1_lor. ....'.. ,... •• , ...... o/t".




       (fOIl 01 PLOY til. Ott SUPU Vt50M O~ LV)
       '" ~ .PII.... II.tt (.... "'''''1I '~b pooItloo!

       1. .... _         .111l1li. r.......Irt!

                    ,u                      NO IIf-.upIoIo)

       ..
       _ T.)'OO   lion.....' . h.. "'Is ..........r ..... fttool r._ .., jeb for • .,. ... _ .... .... job.ft" boln, OIdlW "'"
             _ ...........




                                                                                                                    -_.   ~.




U.S. Department of Justice                                                                                                       62
Office of the Inspector General
Evaluation and Inspections Division
Version B

          APPLICANT'S NAME,



          PLACE           EMPLOYM~""~'~~~~~~~~~~~~~~
          DATES OF EMPLOYMENT,
                OF [ND [V[DtlA L QUEST IONED,
          NAME OF
          RElATIONSH[P TO APPLICANT:                   r Employu r      Superviw r Co-Woru.

          YEARS 01' RELAT[ON TO APPLICANT:                 Foom: _ _ __            TO' _ _ __

          [. To)lOU" knowIedgo, i. Ihi, pfflOII ..[;.blo, honel~ INSlwoMy ar.d of load cho""ler'?
             ryes r No          ([fno.explaln)


          2. 00)'0\1 have JtIy . . - 10 qutSlion lhi' p<l1OIl" ~I[l)' 10 tho U.S.?
             r   Y.,      r No     ([fyo.... pllin)


          J. 00)'0\1 know of lI\ythifli qoosIioIIobl. in (he applicants bockJrouncl'l
             ryes r No ([fya.uplaill)

          4. Would you recommend Ihu pelson for • JM)$ition of nmiona[ securily in lhe U.S. GoVl?
             rYes r No        (I(no, ""pllin)




          7. Ii thupenonelilible for rehire? r Yes r No ([f"'''ptain)


          I. To your knowled.t. hq lhi, pc-tWI ever bocn nred from ony job for ORY "IIOd, or quilljob
             .ft.,. ...
                    in.nDlif>Odl1lll~l-hel'<OUld ... fiftd?  r yes r No ([fy .... xpllln)




                                                             Inquiry condOC1ed by,
          PRIVACY ACT (The followl"i infonnolion should be pn:>vided to m. permn bei", inlerViewed
          c...,.,."irc lIIi' I(IIOSllonnll ...) UI\def the pro.i,io.. of lhe Pri ..cy Acl of 1974, the Inform.lion
          lhal you prov;de '"" be ..Itaoed 10 the Ipplicllll   ."Iew     you I,ltdfi<llly IndicolllhM you do roo!
          "1lm lhe informllion .. Ioued. P\eQf indic:lle)lOU" pref.rellCt.
          Thll informalion r CAN or r CANNOT be rcIcasoG lo !lle 1pIl1;':1I"II.


          PrInted .... IWId slanature of .... ployee
          oondUClina mis inquiry                           "'"


U.S. Department of Justice                                                                                           63
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX II: OPM- AND MSPB-RECOMMENDED PRACTICES FOR 

    COMPILING AND ASKING REFERENCE CHECK QUESTIONS 



      This appendix summarizes additional OPM and MSPB guidance to
federal managers on how to compile and ask reference check questions.82
Appendix VII includes the specific questions suggested by OPM and
MSPB, and those cited as useful by
                                           Reference Checking Strategy
component hiring officials.
                                            Before developing reference check
1. Ensure each question                     questions, MSPB encourages agencies
   addresses a specific need                to develop a reference checking
   identified in the agency’s               strategy, which may include a subset
   reference checking strategy              of five strategies:
   (MSPB).
                                            1. “Checking the validity of
                                               information obtained from job
   a.	 MSPB advises reference                  applications or interviews to
       checkers to know the reason             determine if the applicant has
       for asking each question and            been dishonest.
       the type of information it           2. Checking whether an applicant
       intends to elicit.                      has fabricated or exaggerated self-
                                               reported information to determine
                                               whether conclusions drawn from
   b. MSPB suggests incorporating              this information are accurate.
      into the questions one or two         3. Clarifying developmental needs of
      examples of both useful                  applicants to determine what post-
      responses that answer the                hire training or development
      question and inadequate                  opportunities to provide.
      responses that would require          4. Discovering inappropriate behavior
                                               patterns of applicants to maintain
      further questioning.
                                               a safe and efficient workplace, and
                                               to protect the employer from
   c.	 Another strategy for creating           charges of negligent hiring.
       targeted questions is to begin       5. Assessing competencies that have
       with the rating schedule or             not been otherwise adequately
       structured interview                    assessed earlier in the hiring
                                               process.”
       questions that will be used in
       the hiring process. Because          – MSPB, Reference Checking in Federal
       those questions are linked to        Hiring: Making the Call (2005), 26.
       job competencies needed for


       82 Summary compiled from the following sources: OPM, Assessment Decision
Guide, “Personnel Assessment and Selection Resource Center,”
http://apps.opm.gov/ADT/content.aspx (accessed September 24, 2012); OPM,
Reference Checking (undated); OPM, End-to-End Hiring Initiative (undated); MSPB,
Reference Checking in Federal Hiring: Making the Call (2005).


U.S. Department of Justice                                                         64
Office of the Inspector General
Evaluation and Inspections Division
       the position, responses can be compared directly with information
       provided by applicants.

2. Begin with basic, verifying questions (such as dates of
   employment or relationship to the applicant) and then move to
   in-depth questions (OPM, MSPB).

       a.	 Sequence: MSPB provides a general sequence for ordering
           questions that follows the pace at which rapport is established
           during reference check discussions. The sequence reflects
           reference checking specialists’ recommendations, survey
           questionnaires, and other types of interviews and matches the
           strategies listed above:
               i.	 Begin with fact-oriented questions that verify résumé
                   material or training and experience claims.
              ii.	 Progress to a more evaluative discussion of the
                   applicant’s past performance and competencies.
             iii.	 Address the applicant’s developmental needs.
             iv.	 Discuss sensitive information such as potentially
                   inappropriate workplace behavior later in the interview.

       b. Verification: 	MSPB recommends devoting “a question or two”
          early in the reference checking interview to assess the reference
          provider’s credibility as a source of job-related information
          about the applicant. Specifically, reference checkers should:
              i.	 Ask for the reference provider’s job title and employer.
             ii.	 Ask the reference provider to describe the applicant’s
                  responsibilities in the former job.
            iii.	 Ensure the nature of the relationship to the applicant is
                  work-related and matches information on the résumé.

       c.	 Discovering inappropriate behavior: MSPB advises reference
           checkers to pursue this strategy “with greater subtlety” but to
           ask directly about problem behaviors. MSPB states that it is
           necessary to listen closely to responses and probe when
           reference providers seem reluctant to talk.

3. Create a standard set of questions tailored to the position or
   vacancy announcement to be filled (MSPB, OPM).

       a.	 OPM directs reference checkers to develop questions relevant
           and specific to the position under consideration. OPM
           recommends adding structure to the reference checking
           process – which it states can greatly enhance its validity and
           usefulness – by basing questions on the required competencies

U.S. Department of Justice                                                65
Office of the Inspector General
Evaluation and Inspections Division
            and tasks for the position and asking applicants the same set of
            questions.

       b. Similarly, MSPB advises against adopting a “rigidly
          standardized” set of questions, instead recommending that
          agencies use a standard set of tailored questions for each
          vacancy announcement. This will produce comparable
          information from each reference and allow hiring officials to
          better compare applicants. MSPB noted that effective reference
          checkers will customize some questions based on the
          applicant’s résumé and create follow-up questions based on the
          specific discussion.

4.	 Ensure most questions are open-ended (MSPB, OPM).

       a.	 Asking open-ended questions will prompt references to be more
           descriptive and provide more than just yes or no responses.

5. Ensure all questions are job-related and common to all applicants
   (MSPB, OPM).

       a.	 Focus the discussion on particular job-related information
           common to all job applicants to ensure fairness and comparison
           between applicants.

       b. Legitimate question topics include performance in past jobs,
          work habits, job-related competencies, and appropriateness of
          past on-the-job behavior. MSPB cautions that it is a prohibited
          personnel practice to discriminate based on the personal
          conduct of an employee or applicant, unless the conduct would
          adversely affect on-the-job performance.83

6. Focus questions on work behavior that the reference is likely to
   have directly observed (MSPB, OPM).

       a.	 MSPB cautions that only the applicant’s professional references
           will be able to provide information on the applicant’s job-related
           performance. Supervisors (past and present) are considered by
           MSPB to be the “gold standard” of reference providers. Personal
           references may be biased by their relationship with the
           applicant and their characterizations may not accurately reflect
           the applicant’s true job performance.

       83   MSPB cites 5 U.S.C. § 2302(b)(10).


U.S. Department of Justice                                                66
Office of the Inspector General
Evaluation and Inspections Division
       b.	 MSPB urges agencies to clearly communicate their expectations
           to applicants about minimum qualifications of acceptable
           references they provide (that references must be able to describe
           the applicant’s job behavior and performance).

7. Ask follow-up, probing questions and request specific examples
   that show how the applicant has demonstrated each relevant skill
   (MSPB).

       a.	 Each evaluative statement that the reference provides should be
           supported by at least one example to prevent misunderstanding
           and to encourage fairness and accuracy. MSPB found that
           often a general probing question such as, “Can you tell me more
           about that?” or “Can you give me an example?” will produce the
           additional information.

       b. When discussing an applicant’s performance appraisal, probe
          for specific examples of the behavior described rather than
          relying on summary evaluations such as “outstanding” or
          “excellent.”84 Probing for the basis of these evaluations is
          necessary, MSPB states, so this behavior can be matched to the
          standards or expectations of a different job.

       c.	 When asking follow-up questions, MSPB cautions against
           leading the reference provider by suggesting a possible answer;
           the reference checker should only guide the discussion.

8. Ensure questions are “legally defensible” and avoid inappropriate
   topics (MSPB).

       a.	 MSPB states that reference checkers can meet high professional
           standards within legal boundaries while requesting and
           obtaining information about job applicants without fear of legal
           consequences.85


       84 MSPB cautioned that performance appraisals’ greatest value in a reference
check is as a memory aid to a former supervisor who is describing an applicant’s
behavior as observed on the job.

       85 MSPB, citing 5 U.S.C. §§1302, 3301, states, “Past and potential employers

have generally been granted a ‘qualified immunity’ to discuss the employment-related
performance and behavior of employees with each other. This immunity means that
employment-related questions about an applicant’s behavior may, as a general rule, be
asked and answered with minimal risk of legal liability so long as an applicant’s rights
are not knowingly violated.” MSPB, Reference Checking in Federal Hiring: Making the
                                                                                 (Cont’d.)
U.S. Department of Justice                                                            67
Office of the Inspector General
Evaluation and Inspections Division
       b. In addition to asking about the applicant’s personal conduct,
          forbidden topics include gender (including pregnancy), race,
          color, religion, national origin, age, and sexual orientation.86

       c.	 Although MSPB encourages open-ended discussions with
           reference providers, it cautions agencies to avoid casual
           conversations, which could easily “stray into questionable
           territory.”

       d. MSPB advises agencies to redirect discussions of inappropriate
          topics with reference providers where necessary. “Tactfully
          discouraging” the topic can be accomplished by simply ignoring
          it or asking a job-related question to redirect the conversation.

9. Clarify any inconsistent or unclear job-related information
   provided by the reference (MSPB, OPM).

       a.	 Asking more specific questions is sometimes necessary, MSPB
           advises. If the information a reference provides is vague (such
           as generalizations), the reference checker should determine
           whether it is supported by “detailed and verifiable evidence.”

       b. When inconsistent information is received from multiple
          reference providers, call one reference provider back to clarify
          the information.

       c.	 When information from a reference differs from what the
           applicant said, OPM advises that it may be beneficial to allow
           the applicant an opportunity to clarify.

   10.	 Consider time constraints and limit the number of questions
        (MSPB, OPM).

       a.	 OPM advises agencies to consider how long it will take the
           references to answer the questions and to keep the list of
           questions to “a manageable number.”

       b. MSPB states that because reference checking is focused, it can
          be conducted quickly and should be “feasible and efficient.”

Call (2005), 16. Components may vet recommended questions through JMD’s (Human
Resources) Labor and Employment Law Group.

       86 MSPB cites the Equal Employment Opportunity Act of 1972 and the Uniform
Guidelines on Employee Selection Procedures of 1978.


U.S. Department of Justice                                                      68
Office of the Inspector General
Evaluation and Inspections Division
        APPENDIX III: OIG DATA REQUEST AND COMPONENTS 

                         IN REVIEW SCOPE 



       Our review included 39 components that we determined had hired
full-time employees nationwide during FY 2010 within the competitive or
excepted services or in any non-executive job series. Below, we describe
our methodology in more detail and list the components we analyzed.87

Initial Data Request

       To identify reference check practices across the Department, we
sent a data request to 45 components, including smaller offices, boards,
and divisions, some of which are identified as Senior Management Offices
(SMO) and Department Leadership Offices.88 We asked components to
provide copies of any (1) hiring policies, standard operating procedures,
or other informal reference checking-related guidance applicable to any
aspect of the hiring process followed during FY 2010 and FY 2011, and
(2) questionnaires, forms, or worksheets used when contacting
applicants’ references. We also asked components to answer the
following written questions:

      Who typically conducts the reference check?
      At what point during the hiring process are references contacted?
      Which references are typically contacted?


       87   Components, offices, boards, and divisions may be counted differently
depending on whether they are organized under (or report to) a larger component. For
example, OARM falls under JMD for administrative and budget support but reports to
the Office of the Deputy Attorney General. We counted components separately where:
(1) the larger component reported that its subordinate offices or those it supports
should have separate reference checking procedures, such as the Consolidated
Executive Office; (2) the components’ intranet, webpage, or organizational chart
described the office as independent; or (3) our designated component liaison list
reflected that the component operates independently.

       88   SMOs include the following headquarters components: the Professional
Responsibility Advisory Office and the Offices of Dispute Resolution, Information Policy,
Intergovernmental and Public Liaison, Legal Policy, Legislative Affairs, the Pardon
Attorney, Privacy and Civil Liberties, Professional Responsibility, and Public Affairs.
Department Leadership Offices include the Offices of the Attorney General, Deputy
Attorney General, and Associate Attorney General. We counted these offices separately
because staff from the Consolidated Executive Office – a JMD component that provides
human resource and other support services for these offices – told us they do not
conduct reference checks for applicants to SMOs and Department Leadership Offices;
hiring officials from those offices would conduct their own reference checks.


U.S. Department of Justice                                                            69
Office of the Inspector General
Evaluation and Inspections Division
      What reference checking method do you find to be most reliable?
       Why?
      Are questionnaires, forms, or worksheets used by your agency
       [component] retained? If so, by whom and for how long?

Components’ Responses

     We conducted our analysis on the responses of 39 of the 45
components that we initially contacted:89

      Access to Justice;
      Antitrust Division;
      Bureau of Alcohol, Tobacco, Firearms and Explosives;
      Civil Division;
      Civil Rights Division;
      Community Relations Service;
      Criminal Division;
      Drug Enforcement Administration;
      Environment and Natural Resources Division;
      Executive Office for Immigration Review;
      Executive Office for United States Attorneys;90
      Federal Bureau of Investigation;
      Federal Bureau of Prisons;91
      Foreign Claims Settlement Commission;

       89   We excluded 6 of the 45 components that we initially contacted from our
analysis of reference checking policies and procedures based on their responses. The
six components either did not provide a response that addressed the information we
requested, reported that they hired only employees who were excluded from our review
scope, or did not have independent hiring authority. The six components and reasons
for exclusion are as follows: (1) the Executive Office for Organized Crime Drug
Enforcement Task Forces did not provide any response; (2) the Office of Community
Oriented Policing Services responded that JMD, which it uses for its human resources
function, would handle its response; (3) UNICOR did not provide a response, but the
BOP indicated that its reference checking procedures also apply to UNICOR; (4) the
Office of the Associate Attorney General responded that it hires only political appointees
and does not have independent hiring authority; (5) the Office of Tribal Justice
responded that it has hired only detailees and receives its human resources services
from EOUSA; and (6) the Office of Privacy and Civil Liberties responded that it has used
only internal hires to staff its office.

       90   EOUSA is the administrative arm of the U.S. Attorneys’ Offices. In order to
efficiently identify and contact hiring officials in the U.S. Attorneys’ Offices, we sent our
data request to EOUSA.

       91 The BOP includes the Federal Prison System, UNICOR/Federal Prison
Industries, and the National Institute of Corrections.


U.S. Department of Justice                                                                70
Office of the Inspector General
Evaluation and Inspections Division
      Justice Management Division; 

      National Drug Intelligence Center; 

      National Security Division; 

      Office of Attorney Recruitment and Management; 

      Office of Dispute Resolution; 

      Office of Information Policy; 

      Office of Intergovernmental and Public Liaison; 

      Office of Justice Programs; 

      Office of Legal Counsel; 

      Office of Legal Policy; 

      Office of Legislative Affairs; 

      Office of Professional Responsibility; 

      Office of Public Affairs; 

      Office of the Attorney General; 

      Office of the Deputy Attorney General; 

      Office of the Federal Detention Trustee; 

      Office of the Pardon Attorney; 

      Office of the Solicitor General; 

      Office on Violence Against Women; 

      Professional Responsibility Advisory Office; 

      Tax Division; 

      U.S. Marshals Service; 

      U.S. National Central Bureau of Interpol; 

      U.S. Parole Commission; and 

      U.S. Trustee Program.92





       92 The U.S. Trustee Program includes the regional U.S. Trustee Offices and the
Executive Office for U.S. Trustees.


U.S. Department of Justice                                                         71
Office of the Inspector General
Evaluation and Inspections Division
     APPENDIX IV: COMPONENT AND HIRING OFFICIAL SAMPLE 

                   FOR TELEPHONE SURVEY 



      We conducted a telephone survey of 88 hiring officials from the
Department’s 17 largest components regarding their reference checking
processes. We discuss how we obtained our sample of hiring officials in
the sections below.

Positions Occupied in Each Component

      To determine the Department’s largest components, we identified
the total number of positions occupied within each component during
FY 2010. According to National Finance Center data provided by the
Justice Management Division, 41 components accounted for 133,076
occupied positions that year.93 Of the 133,076 occupied positions,
110,415 were within our scope.94

      The largest 17 components accounted for 83 percent of the
Department’s total occupied positions during FY 2010. Table 3 shows
the number and percentage of those positions.




       93 There are 41 components instead of 45 because the National Finance Center
categorizes certain offices under larger components. Whereas we counted Access to
Justice, OARM, Office of Dispute Resolution, and Office of Tribal Justice as separate
components, the National Finance Center categorized them as part of the larger
components under which they fall.

       94  The 133,076 positions represent the total universe of occupied positions in
the Department in FY 2010. However, our review scope did not include: (1) employees
hired into the Senior Executive Service; (2) political appointees; (3) temporary, part-time
employees; (4) internal hires within the same division of a component; (5) OIG
employees; or (6) BOP correctional officers. When we excluded those employees, there
were 110,415 occupied positions in the Department in FY 2010 that were within our
scope.


U.S. Department of Justice                                                              72
Office of the Inspector General
Evaluation and Inspections Division
    Table 3: Occupied “In-Scope” Positions, by Component, FY 2010
                                                             Number of      Percentage of
                                                             Occupied        DOJ’s Total
                                                             Positions         Occupied
                                                            Within the         Positions
         Component                                          OIG’s Scope      (N=133,076)
    1.   Federal Bureau of Investigation                          38,738            29.11%
    2.   Federal Bureau of Prisonsa                               22,284            16.75%
    3.   United States Attorneys’ Officesb                        14,594            10.97%
    4.   Drug Enforcement Administration                          10,824             8.13%
    5.   U.S. Marshals Service                                      6,306            4.74%
                                 Top 5 Component Totals           92,746           69.69%
         Bureau of Alcohol, Tobacco, Firearms and
    6.                                                              5,881            4.42%
         Explosives
    7.   Executive Office for Immigration Review                    1,824            1.37%
    8.   Civil Division                                             1,768            1.33%
    9.   U.S. Trustee Program                                       1,442            1.08%
10.      Justice Management Division                                1,222            0.92%
                                 Top 10 Component Totals         104,883           78.81%
11.      Criminal Division                                            982            0.74%
12.      Antitrust Division                                           955            0.72%
13.      Civil Rights Division                                        915            0.69%
14.      Office of Justice Programs                                   821            0.62%
15.      Environment and Natural Resources Division                   796            0.60%
16.      Tax Division                                                 717            0.54%
17.      National Security Divisionc                                  346            0.26%
                                       17-Component Total        110,415           82.97%
a The BOP includes the Federal Prison System, UNICOR/Federal Prison Industries, and
the National Institute of Corrections.
b The U.S. Attorneys’ Offices category includes U.S. Attorneys’ district offices as well as
the Executive Office for U.S. Attorneys.
c We did not include the OIG in this review. Instead, we selected the next largest
component, the National Security Division.
Source: National Finance Center.

Hiring Actions

      We selected a random sample of 104 hiring actions from the 7,731
hiring actions taken in FY 2010 by the 17 largest components that fell


U.S. Department of Justice                                                              73
Office of the Inspector General
Evaluation and Inspections Division
within our scope.95 We then asked human resource officials from those
17 components to provide names of the hiring officials associated with
the randomly selected hiring actions.96 We determined the number of
hiring officials to interview from each component by the percentage of
occupied positions within our scope in each component during FY 2010.
The number of positions occupied in components we examined
constituted 83 percent of the total positions occupied within the
Department during FY 2010. We interviewed 88 hiring officials
associated with the hiring actions for our telephone survey. Table 4
shows the number of hiring officials we interviewed from each of the 17
components, in descending order.




       95  There were 10,182 hiring actions in FY 2010 across the Department that
were within our scope. Of those, 7,731 occurred within the 17 largest components. To
determine the number of hiring actions in FY 2010, we analyzed National Finance
Center data for employees listed as occupying a position in FY 2010. Each personnel
action for Department employees is assigned a nature of action code, defined by OPM as
“the specific personnel action used to create or change a civilian personnel record.”
OPM, The Guide to Personnel Data Standards (Update 58, August 10, 2007), 246.
Because nature of action codes include a wide range of personnel actions beyond hiring
a new employee (for example, step increases), we eliminated those that were not hiring
actions. We then eliminated the types of hiring actions that were not within our scope:
(1) employees hired into the Senior Executive Service; (2) political appointees;
(3) temporary, part-time employees; (4) internal hires within the same division of a
component; (5) BOP correctional officers; and (6) OIG employees.

       96 We excluded hiring managers for special agents, honors attorneys, and
industry operations investigators employed at ATF from the sample because ATF
reported not conducting reference checks for those job series during FY 2010. Also,
when necessary, we provided to human resource officials a second random sample of
104 hiring actions from which to identify alternate hiring officials.


U.S. Department of Justice                                                            74
Office of the Inspector General
Evaluation and Inspections Division
                  Table 4: Number of Hiring Officials Interviewed
                              for Telephone Survey
                                                                    Number of Hiring
                                                                        Officials
          Component                                                   Interviewed
     1.   Federal Bureau of Prisons                                           10
     2.   Drug Enforcement Administration                                      8
     3.   Executive Office for United States   Attorneysa                      8
     4.   United States Marshals Service                                       8
     5.   Bureau of Alcohol, Tobacco, Firearms and Explosives                  7
     6.   Civil Division                                                       6
     7.   Executive Office of Immigration Review                               5
     8.   Justice Management Division                                          5
     9.   U.S. Trustee   Programb                                              5
    10.   Antitrust Division                                                   4
    11.   Criminal Division                                                    4
    12.   Civil Rights Division                                                4
    13.   Tax Division                                                         4
    14.   Environment and Natural Resources Division                           3
    15.   National Security Division                                           3
    16.   Federal Bureau of Investigationc                                     2
    17.   Office of Justice Programs                                           2
          Total                                                               88
aThe Executive Office for United States Attorneys is the administrative arm of the
USAOs. To efficiently identify and contact hiring officials in the USAOs, we sent our
data request to EOUSA.
b We contacted the U.S. Trustee Program directly to identify hiring officials within the
program, the U.S. Trustee Offices, and the Executive Office for U.S. Trustees.
cWe interviewed only two FBI hiring officials because the FBI does not require reference
checks for new applicants, as discussed previously in this report.
Source: National Finance Center and OIG.




U.S. Department of Justice                                                              75
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX V: OIG TELEPHONE SURVEY INSTRUMENT 





                     OIG Review 01 Referen .. CII«klnf; (A-10ll.(l()l):    "'t_ wtth      If ...... Man......




    0I11III.. Sq!pt
     You flow bHn rr>ndomI}I Hltcttd to ptHt/dpdlt In Ih, OliG'J mIfw oJ t/lf lIrtptHt,...." '"SUJ""'J
    ~~. rOIl wer. rotIdomIy H/tcftd 10 lit Inltr'IinmJ ~UH )'OU ~te ithnl/fltd In hovIt>g
                                                                                                                """It"
    IIftn IN ItItItoJ or J~tln9 o/!IdoI lor ul !roJI_lUrlng       oct"'"
                                                                   In 1M ~""nr iii FV .2010. Our rft'!ew Is
    foa,Jld OIl rel'nrQ ~ ptOCIkn lor ree' M", lUred P'""o_t CO!Hf, _SES ' III,O/oyftJ II(IfIonw/df.

    TIlt 1MPOH IJ{ f/I/J hllfM..., IJ 10 gorllff """"",,/kin ~I)'OUt" ImmtdJore c{fIu'J fWko/ ""'-t ~
    ptPd~J ar>d la fIIJ/n)'OUr condld PfflP'CfiwI '" a    I>IrIng o{fIc/QJ obaoll'" re/~ cMding pr<X'n
    RqtrtItCf cMclhI{IlJ 11(11 a rtqIJlmi prot;lkf, liI<rJ we "'" II(I1.Hk!ng /0 ,...,mlnt OO"'{}I/(""., bulla itkntl,.,
    liN Jrand/mJ ptPdk'J 0{ lNpm""nl ~IS. rOIl wUI ""flit liltnll/kd PfflDIIGIty in IhI fIPQff. hIJ/tOd,
    Ihf lIt{ormat/orl)'OU provide will be combi"f<1 with rh<>r oJ IIfh ... hlrin~ o/JifiQIs for rtpQrIlng purpous.

    Our finoI {JtOdIIc1 wUllM a pub/idy ....mo/W GIG rtpQrf 0IIt11f1ittg I><Jf firodltHJ, and any TI"COmmtlldatlot\f 10
    /mpI"ow 1M Tt/ttenu cMd<1n9 pracnJ. ~ InlttVkw should rake k .. rllon 60 mI""ftJ 10 campklt.




    GIG"; Fin In _         .mp/O'/H ""m. _     p<nlll<>n from .omple j>rlM 10 <011.




        J.   If I'O~ did tIOt ~"",",aIy condoo tho flf.......:. chocb. do \'0\' know wIIo did? [N."", Ind ph_
             n...,..blr)


       -+    "ItO   /CI OWJlkHo   J, end in/MIKOl M,.,.
       -+ II Y"" contln", 10 Bo<kfl£Ound.
    lIIetmund
    Somf 01 l1li qllf'JIOInJ "" IhlJ IWWY Miff multlpl. d.oltf rt'pon ... which I will rtOd 010"". Quntlorl,
    wlthou! m"/tIp" ehok. "JponJtS Ort o.kl~ )'OU 10 prtW/d. d..rnplilre rosp<III .... opinion. or uomp"'.



                                                          ,...10115




U.S. Department of Justice                                                                                                 76
Office of the Inspector General
Evaluation and Inspections Division
        .. IIow lone haw you beln • hlrtnl or ~Iedlnl oll\eitlln Ih. ftd.,1l ~ve'nmenll (lM,d P$I.rlln~)
        /IIEAD IIESI'ONSESj:
        D Less ttI, n Lvelf
        D 1 to SyellS
        D Lo"... iNn S yellS 1              'fUrl]

        s. Aboul how many emp~es loul h.ayt you hired, 0, IIsISI'" In hi...., .... ~ you h_              bHn .,.t!LiJ.


            "'"
         .. In IdditiDn to 1111 specific I\IrlnlKOOn ~ Hot dlKUlltd, whit othfl \ypt of poIitioru IIave you hlrtd
            for in your lmm.cIIltt office (e.I., tdmlnilt'lIiYt, analyst I'WlillpIU. atlornty)1



         1. Oots yo ... off.:e's practice for cond\lctlngrlftflll<' c:hec:U YM'/ all"lClIfI andldllts for dilffftnt job
            serltsl (t.l-, 18111 wrsus.ttornlVl YmUS tompt!~ivl service posl1lonl)1
        /READ RESPONSES):
        D Vii, till practice I'Jllts by Job ",its
        D No, ttl, prKtIce doelllOl "ary
        D SOmttlmts m. prlCtkt valits
        O~   ..
     }IJ~J. ~,rnpond to thII Jo/lowilllJ qII"tions Jot 0/1!WfJ qflpb Hriafor whl,h )'Our oUke hirtl lind,
     to 1M tKUnI yo. Ort gown of it nou wIltn rht pnxw Wlrl" btlWft~ job Hr;f..

     R.!trenct Cbtd!Irw Proem
     for thllltxt HI Q/ qw'llionJ, ~ (l,.lnqW/IIg ~t your Immi!dlalt off,"'1 9t!!WL/!!!!!dlw fpc
     ""'toctiflg "mdidatn' ",,"n'" /or I~ purpose 0/ se/ming tnt bt.t <~ndldlrrc. lIejrrMulllldudl
     IUPCrYisotJ (past ond present), pttfl, <olluinJ, ~IUICIQUJ, ""d friends.

     WI ore!W Hrqw'r/nf abowt )'0lIl" agr/KY's Human IIrSO<H"m or PflrJonn,l Sf<wrlly stalfl mrcitGnlJms for
                        Jot ~f(I/ selYlct, /(I(/udilllJ wItolJlllly dtt.""inot/au that art HpartJ1. {rom
     JClWrII/Ig "",.IMkrUI
     rtftrtMl dink>.




U.S. Department of Justice                                                                                                77
Office of the Inspector General
Evaluation and Inspections Division
                    0IG"1 f"lff'~tiINo""'" _ . . , . . "/frtfrCf fIIf<~"""'"   JfK!1m ~ 10 CAI~

     SOPo<.-o-: IJI' ..            ~



     OilIer-.. by)Db _ : DY..                  ~
     _cond"""tllltrICI_
     WNdo,,,_.,.
     -~~-:                     <OI'IIICttel,
     ""'.... teI ..........,
     f<Ir" OJ.. ,~


     _011 h"" DYe<
     l1rM """"',
     QlhoI lmo"...,,,,,,,
                               ""


       C_
        I. lIow often dOfl your office conduct ... ftf'"~ chtcb?
       {READ REsPONSES1'

       C MOlt of the time
       C SomttlmH
       Co...,
       C"'.  •• (tf _r Dr rtlrel'l, why~1 (~Ip to Q\>tltlon 40!


        t. Wl:tm INrine thl hlrlll,l proeeu does YOUI oflkt belln (ontletln, references?
       (RfAO RESPONSESI'
       C 8tfore .... rrowInc thilist to top "ndld.tes
       C After nlrrowtnl tilt list to top undld.tel
       C Afttf icltI1tifvq on. lOp undid",
       C After tile tiIldldiitt's iIlttfYltw(s)
        o Afte< HOnd~io ....1job offtf Is mille
       C Upon wmplttion of' bKk&found/st(wity dllr__
        C~tr'   _________________________________________________________

         It!. In Iddillon to or In coo!ufKIion with rtflrlnCt chidln" dollS your offic.1oI1C contilC! pill tmploym
              to otrif'/ Ipplicants' stCUrltv IIId sul\flliity-reliltfdinlormitlon, wnttimH reftrTf<l to JI
              "lI(IlIChtrln&l"''1



     '0.. ~_ !NIIO... DOJ "",~)o<,•• ts ... ~ IOrolol to. """... Io'~~""" 10Id $UIIlto~'""1t6
     IoIO<MI\kIn IIuI ""' .......... ltyjob ~~




U.S. Department of Justice                                                                                           78
Office of the Inspector General
Evaluation and Inspections Division
       II/EAD I/ESI'ONSlS/:
       C Ya, In IddIt\o<Ilo  ,.r.'InC<l dItdin,
       a   Ya, In ~nJull<;\ion with refff'roc. chKkln&
       a
       O~,·
           No, <10 not f)tfforrn vouchl,lnlllj"", skip to q<mt/orI Jl}
                 ________________________________________

       I. {If J"H, hlllddlfIM lo}: When durinllh. hln", process do you COI'Iduct l'Oucherio&1
       I/lEAO /lESPONSES}:
       o 8efof.... rrowI .... lh. lisl 10 lOP Cll'dldll~
       o Aftff ... rrowlntl Ihi lisl 10 109 " rldldlm
       DAft ... hlel"lllfyln, on, top Cilndldlte
       a  Aft ... th. Cilndklitl'llnttNlewjS)
       DAft". COI'Id~IOIlII Job offlr II _de
       o Upon CQm~ttIOll
       O~hlr
                         of I bildJro\Ind!*"rity dlNrlnct
              _________________________________________


        II How do III. ref.renee eked: Ql'fgionl differ from lhosl u k" dun", wuchtfln&l



    The ~ qutStiolll Uf" 1M I.,m ~rtf.ttnu dledt/IIi· 10                  ,.fer
                                                                        10 lilt P'OCffl r"", ouurs 1lfJRa" ",rlng
    d«ilion /s trI(Idr. Plea" rfspond fO Ilrc foIIowirog ",tlIIIIM HIed "" )'OU' eqJQltflCt willi fhIf pot! of the
    ItIrI~ prrxtll.


         u. Do you \1st mflns other tIl.n IhltelfPllont to conduct refer",,, dllCks?
    {/lEAD /lESPONSES}:
    0'_
    0",
    oSOmetmes
           t.   {t! 1f' or sollNtlmfl1: Whilt method do you typkIlIy use, and why?

    {/lEAD IlEJPON$£S + CIwdr 01/ rhol oppI~/:
     a Ematl
     a Milled lettfr
     a WI~len form roo- ref,rlllCI 10 complett
    e0 .tetter of fetommend,tJoo
          .0 ____      _____________________________________

    w~,    _______________________________________
         11 About how lon, dOfi ~ uke for you IndMclu~y to conduct .11 relt ... nett checks for each Cilndidltt,
            Indudl.. thoe IIIDI yoIIlptnd doc\llllIlflOOI thl cOllvetWlionll




                                                           ' ... . oIiS




U.S. Department of Justice                                                                                           79
Office of the Inspector General
Evaluation and Inspections Division
    {I/IAD   ~fjPOH5ES]:
         0,.
         0",
         C Don'I know
         C Otlltr (sptdfyl

          is.   HIYe 1'Oy. III hlr\rIJ offldll, IWr dtitptld lilt rtlpon$lbil~y 10 COOOu<l   ,tI",rQ dI.as 10
             !(lIl1ton' else?
    {I/EAD I/lSPONSfS]:
         0,_
         0",

    I . If 10, 10 whom do \'00 or hl"'I'OP ~Iq~ed thl! 10 lod w~y;
         {READ RESPONSES]
         C   Anott..,
                   hI~o, oflkl.11n voY' otrke
         o Admin stlfl mtmbtr In yow offa
         o HR fiiPrtStn1-'1YI
         o Secu~ty ' tjlrllllllltM
         0"'_
          16. ,1,1 willi point du,ln, Ihe hlf1nl P'OCHI I rlIjljIlicIonU mid, twirl tIofl tIl.i, rlflrlrlCH mlY "
                dlKkl d?
    {READ REsPONSES]
       C Idon'l know
       D Duflncidveftisement of the >'Ieancy (SIlled 10 !hi "Icaney I""O\I",lmtoll
       D Durln,tM: IntHVlfw
       D ,t,ftef me IntrNlewlsl
       D Whllli o;QOd~1oo11 job offer I! mlde
         D Du~o, the blciofrouod In"fStlJ,llloo p,ocess
         D Upon completion of I blCkJtoll'Hl lnllflllplioo
         Drnh·'-----,-cocccccc--,-____-,~_,cc-------------------
         o Applianl! lfii 001 notified Ihll1ht'" reftrtoet$ mly be dltcked.




                b.   {I/ ....I flllSlWrH o~]   11 your office n01ll1tllpplk,ot, lilil IMi. reltrlllWI mly be (hed;ed, trl!
                    IlltrllO'( om., methods II UII!IIO do sol
                {I/IAD RESPONSES]
                D Silted in the "Killey an _oee_
                D Th'ough thl uH of the For .. OF·306 wllver'

    J   ""'''''mOf.JOf'''o...... -oI.o<Io,.'C... _         .. _ . " ..... _ro. .......... ..r..... - . .. "',...
     M/mt'U ~ OJ f _HItIt\t; -....Il10 0rI"11tm~ Po 11 "",11111111_·"       comrn<I" ,..oct~1 10· .ppllttnn 10 r«tM I";,
     _of1.1hI~_hH_ .


                                                             ,...10/11




U.S. Department of Justice                                                                                                   80
Office of the Inspector General
Evaluation and Inspections Division
           C AnotI!er explicit (Wlilttn f stltement _ _ _ __ _ _ _ _ _ _ _ _ _ _ _ __ _
           C
           0 Verbf,tly no~fIe!s tlMidlte
             00.' ________________________ ______________

          C.   Whll do you do nln ilpplk.lnt hi • .tllid on their opp\k:ltion thlt they do 1\01 ....... t tktlr .:wrent
               supeMsQ< tontKtedl


    Dpo 0!(/ NslmllCr:! of Befcttncts comqct(d

        II. Whilt WI! of rc/erence$ doH your office 15k applkonts to prP'Mel
       (READ IIEsPON$lS - klW 011 rhol opply/:
       C P.olesslonll-+ SupeMsen (plSl or preHlllf
       C ProItsslonll -+ Peer:!. tolleagu.s, subordbmH. Ot otMr co-wo.vrs (PHI Or IInHnlf
       C Ptr5ONll« mlrlCle< "'Ir.,,'os-+ f~,r;;h, "lodiitH
       0""'<.:0::::0.::,.,,
       C Typl of   r.~rt<Q
                  not $Il-IClfled.
                                   ------------------------------------­
       C Oon't know
       11. How mlny of IIch of thaw ,eference typeS dOli 'r'OII1 offlc •• 11< Ipplkilnll to pr<Mdl1
       C P.oI"""'II-+ SupeNisOtl (pIS! Or prHffllf ]11\$111']
       C Pro/WionlH P.lrs, collnCUH, subordinlt.1, 01 othtr co-wolters Ipast « pltHnt]l"'HII -]
       o PellONlOt chlrlCler r.~rtnces-+ Fnencl$, Issoclitellim-ert ']
       0"""
       C Numbt<" of rtlereru not spedfitd
       C Oon't kroow

         It. Hgw far btcI! dMs your offlc, require IpjllitlnlJ 10 pr<Md. rmlt""l forI
    [READ IlESPONSESJ:
     C Most recent pos~ion 0011'
     C lilt two position!
     C list thlee positionS
     C fOt positions held op to Xnlombe< of teal"! blck _ _ ___
     C A II .... (betwltn _ Ind _ I'"rs)
    o Not lpecifitd
    0C .. 00=:-------
       Oon't know    ------------------------------------------
         lO. DoK yoUI' office IvPk.l1Iy contlCt .l!I."f...encK provided by the Cilndldilttl
        (//£AD RESPONSES/'
        0'_
        0",
        C ~pe~I~CCCC         ~"''_=~~~:7=O~~:==c=c~:O:O=:O=:::::_-
          I. [1/ noJ Which typl' of rtferlllW tIo you conWier to bl mosl ~llIdllp.oIKl\onll/wperYllOly,
                plrsonll)




U.S. Department of Justice                                                                                                81
Office of the Inspector General
Evaluation and Inspections Division
         b, Wh.., IPtJIcinc 10 1 clndldatt'llmrellCt, do \W liver ,tqu~t or occtpl Mom~ of .clditlo''111
            rtltrtntaS who know tI1e Qncjldltt?
      (READ RESPONSES/:
      c.-
      0"
      o SOmtllmts' _ _ _ __ _ __ _ __ _ _ _ _ _ _ _ __ __
                I, [I/)W IX' somctlmeJ] 00 you Ihen (01'111(1111011 Iddklonil references?
      {READ RESPONSES/:
      O Ves
      0"
      O Sometlmts'_ _ _ _ _ _ _ _ _ _ _ _ _ __ _ _ _ _ _ __

                    11. lU)W 01 ~I Do you obtain 1M liorIdidalt'1 ~rm~lIlon before oontJelin, tht
                 iddltlon.1 rtf"tnO;tS?
      [READ RfSPONStS/:
      c.-
      0"
      OSOmtlimlS _ _ _ _ _ __ _ __ _ _ __ __ _ _ _ _ _ _ __ _ __


       l~ Wh.., oondutlinS reference chKkl, If VOl! "Mo'h ~Otw to!D!Of!' illh' candidate'l w.""t 0111$1
          plKt of tmpioymtlll, how .11y would you be 10 (DOII(I thll pinon for Ioformal~ on tM
          CIIldidiltll
       (READ RESPONSES/:
      o Vrrylike!y
      o SomewIIIot likely
      o0 .Not. ."'ely
                  _ __ _ __ _ _ _ _ _ __ _ _ _ _ _ _ ____

           I. Comparm 10 reftftncn pfO'lldtd by tilt Qndidlle, 11010 eff«tlllt do you btIl.... oonlKllnl these
              other referencelilin PfO'MIn. mort r~e lnfolfOlllion ilIoIII I clndidiltt'l performlllCt?



           b. In this ICtnlrio, woold you oonlldfl you. t;OlMIf1.iIlioo to be "off lhe rtCOrd"?
              /READ RESJION5ES/:
               c.-
               0"
       II. Dots your office clled publidy .VlIiloOll meill medii Illfl (',e., f Ktboolc) M part of!h' r~
           chKlI"I or hlrlnf: proc:llSl
      [READ RESPONSES!,
       o VII
       0"
       o Sometimes
       C   DQo't   ko<ow


                                                       ' ... 7011\




U.S. Department of Justice                                                                                       82
Office of the Inspector General
Evaluation and Inspections Division
           I. (If)'ft
              (I/!'ft Of JOIIIlrim" I HOW inform
                      or somef/meJ        Inform 11M! do
                                                      60)'0\1            In/oml~lon wh
                                                              findd Ihls Informtlion
                                                         YOU fln                       ... mil~ln,
                                                                                     wh.., mil~lns rour
                                                                                                   \'Our I*tnl
                                                                                                         hlftlll
              d~sion1
              dtdslon1




        ll  Do you dOCllmeollhe
        II. 1)0                   'HuIIJ
                    dOCJjmeol lhe 'H ""I 01Cil
                                           tIOfldklllt  ...1
                                               nodidltt ", t.mlCe
                                                            erenet COftliittl?
                                                                   conliletJ1
               /lESPONSl$I':
       {MAD IIESPONSl$I
       m_
       DYe.
       0."
       0 .,
       OSom.tlm a
       O Sometlma
           I.
           I.       MJ Wny not
                {If IKII   not?1


           b. (II _IimfJI Under whilt drcumstlrv;" would you Il21 dowmenl \lit ftlults?


                (1/ yelJ
           e. (If   yesl ~ do you documtrlllhe
                                     dOCJjmtnlthe .elflfflte
                                                        rele<fflte dlf(k  IHUI1I1
                                                                   died IHlJIII?
       (/lEAD /lE5PONS   £$ + ~Md
               /lES/'ONSfS    ~I«, ..,,/I ,1>11, "pplyl
                                       /I ,,,,,, apply):'
       o   Keep
           hep h",dwrmen
                 h",dwritten lIOI
                              /IOIes!Tom     you. convtrllliom
                                  H hom )'0\1'     con.eUiltioftS with ""'
                                                                        .tf<t.'''IICIS.
                                                                                tllU1.
       o
       o
       0.  Keep  I compllttd
                   compl. ted rele<,ra
                              1'1..-,,,,"
           ...,. __________________        chid<
                                           dllde
                  ______________________________   form.
                                                   form.           ____________________ __________

           d. :tdIm
              Wbmll      lil: lrlform~
                    II 1dM:            1on stored?
                              Irlformtlion nortd1
        t/lW /lESPONSES]:
        tRW    /lESPONSESI:
       oo PelSOllnti
           tf$Oflnel fitH
                     filH (lHumln  ResourcHI
                            Humin Resou,clSl
       oo Penonnel   fllH (lyou'
           elSOllntl filH        Immldlill officel
                            you. inmtdlltt offlcel
       o  You. own niH
          Vour

       oOO~he<c:,-------------------------------------------------
           ~ h~c:,-------------------------------------
           Don't know
           Dcn'tlnow                                   ------------
           et .. "',
                  -'1"1 thl prOCe6\l'
                            jlface6u.aH 101 for doCIImlfltlnc
                                                OocurTHIntllll the ft$utu
                                                                   <e$ulu of            chides Id
                                                                             refer ..." cl\to;b
                                                                          cileflftnCl             d<e$sed ill
                                                                                                Iddft$sed III ....        I!2!5lI cr
                                                                                                                   offiee Q2!g
                                                                                                              III afflct          or
                 IIn ettler  JPIIlklbl
                      etlle, IPIIlk lblet ,I Ukll0Sl1
                                             uicltrg?
             /lESPONsa],
       {READ RESPONsaj:
       OYel
       OVel
       0",
       0 '"
       oOOcn~know
          Don't know

                           Ionu" thfllKOld!
                  fOI tpw !gnu"
            Ir. For              t hflfoCO.m kep i?
                                             kepi?
       (UAD RESPONSES!,
       (lIfAD    ItESPONSES]:
        o
       o 1 "ft"      or IHI
               yeil' O. IKJ
        o  11a 3 I'""
       011011'"         "
        o
       0 0.    ... 3 yUfI
           o.er1     yeil"
                '0:,------------------------------------------------
              .,0:,------------------------------------------------
        o0o .Doo'ttnow
             Don'lknOW

                                                             ...... 01 11
                                                             ' ... 10111




U.S. Department of Justice                                                                                                             83
Office of the Inspector General
Evaluation and Inspections Division
          " kt rf(:(l(dll'lllln,d for rmrtnc. dI«1u ~or.d..lo;ttd On condldltll who vou do Ilil hire1
       {RIAO /tfSI'ONSlSJ:
       0,"
       0"
       o Don't know

    Bcftr.Dtf Q!esk!rw Oyullool




          I. How doel the type of Inlorm"iooI you .relookl". for UIJ( IITIOIlII t\'Pfl of pOSitionl? (•.•• 18111,
             Ittomeys., parllIPIi. II\IIIysU)7


        n . Ilf lICIt a~ o~J Whit tVPH of gL!C$llom do \'011 I~k to elicit tM Information you art wtkln&1
            [Describe)


        26. Whlct. queltiolll hlYt you found Illcit till most ustfullnformltion from a refllfllr1ct7 (DHcribt[




       0"
       o SOmeti"rltl
       D~Mr'  ________________________________________


        11. Not _ntlnllhe klrm VOl' us.e for IUltlb/l;ty, dOH VOUr offke Ule 1 qutstlonnllu or prOYldt.1tt of
           ~ wrinffl queitlotlilor )'Ou to use when "'Milal", referllllCH1
       lREAD Rl$/'ONWJ
       DYti
       0"
          I. III yell 00 you use ont $Ilndjrdll.d list 01 questions fCH" I" positions, OR 1ft qlll!ltioIls ~to
             the Iypt 01 poJltlon btl". r,lItd?

       o Standardized list 01 quesllonl(Sldp to _Ub).
       o Position-Tililored questions
               1.111 pMlliofl.tollorfd qwltlolU onllStdl:
               IIow do thl po$~ion-tlollored qUlstlon sets differ from nch othllf7




U.S. Department of Justice                                                                                          84
Office of the Inspector General
Evaluation and Inspections Division
               (READ RESPONSES)
               C They ... IPedfic to the job compett"cits/pos~tO" '~ ut,tm"'tI
               [] Othtr


          b. (II)'DII UR Jtllndardlud 01 pMltlOIl-tallllnd qwstlom)
              Do )'011 evtr!llDl!. the referenc:e et.e<t; or Sip INWlool ~ed on your kroMed,e of tile
              ~Idate', qualifk:atlons or past ptrfOm1i111"J (I.", 'Qull ifO:;ltloos" • the conttnt 01 the
              toodldate', resume -such IS lechola! SUb f« In IT posl~on. ' r>t,rlommu' _Infonnltlon from
              otllef plnlH .bout the tolldldlle)
              /OPfH EHMD)


                      I. (If)'ft to tlmrr) Ulldtr willi drWm5tlOCflIlfi Ihls o«ufTfdl
                         {DPEN ENDED}


        2'.1. 00 yo\I 15k your IMIl..W. of Idd11lonll q!ICSIloll! thlt 1ft not p¥t 01 your offb', Iyplul questlonl?
       {READ I!£5I'OHSES}
       0,"
       A"'
       DSOmellrnH
       DOIhtr _______________________________________________


          I. [I/yesl Whll would be In tumple7


        JO. Do you uk I ny dired question! "boIIl whither the ~Indldatl hu pylpqm:dqr bchgycdppwfy on t~
            job'
       [READ ftESPONSESI
       0'"
       flf yes/Whl t qUHIIon(I) do you Ilk?


       0"
       [1/ IIII/Why not?



           ...
       lI. How Ibly Ire you 10 \'011 IS qUHtlonllbool the (Indldlll'l Dt!lOnli affir.atlonlll1d comet off !h•

       {READ RESPONSES}




U.S. Department of Justice                                                                                            85
Office of the Inspector General
Evaluation and Inspections Division
         [] Very IIktiV
        o SomItWlllt III''''
        o No! Ilk.1v
        OOthe' _________________________________________________________

                •• [If UktIyI Wh. 1would bun e~.m~. 01 tNt tvPl of
                     ~        ____________________________________________________
                         . "ion"




    ll. HIYt you rve, en""lInllred any $tf\Oul iQCOOsilt.n9u bttwHn Info<mI\lon pl'O¥lcl.d by. ClncIid.le on
        Ih. mUm! 0, In .n IoI.Mtw, Ind I ,e/ere"", tlln woukllnd y'Qu to lIJ1stloo lilt Inttsritv 01 thl
        CMldlditt1 [READ RESPONSES]
         OYII

         "'"
         o   Don't rlQlI

                I.   lItmI How do thon in«lnsisttndll.fftct your hlrln.~, ~ II . 111



          ll.How comfort.blt ... VOII th.1 y'Qu know whll \'011 "n .nd UMot 'IPIty I$k whtfl ""Mu"l""
             ,e/trlne. d!tds1 {READ RESPONSES!
         OVery comfort.bl,
         o s.omewhil comton.Olt
         o Not VW'/ comfortable
         o Notll.1I comforublt

                •. What quKlIons, If .nv. would you !iY 10" of refer.nces, but Hllrve you ,.nnot uk dill to IIpI
                   «prt'llCV aJnctmb (..... thoM thll Mtm to fall into. ""IV .....!


                b. If \'0\1' IIfIIC'I hlf Isw.d guidtlinel roram'"' ........ \'0\1 WllIlIIlsk wilt" ellln, I r,fertnce. willi
                   Irt the guldtll...,7


         o Don't hll'lluldtllnll
         o Not Mlrt of 1lIIY gu.lin"
          l',    HIS IYtryOl'l,ln your offlo:t who Is relpomlbltlor """dudl", rtf"enc:' mKks received tlllnl",«
                 Inmoction7
         []yll~UriN from~ mL                   _____________________________________________________

         ""
         [] 0011" kIIow




     o/fIcIot ....   q._
     '_jill'. "'"' t.lSP' rqotI./Irfm_ ~ /0 ,_~ , Uot." J/lteo.. prt.oq _ _ or. 'n iii.. _ , II"""
                              Nt III'J¥ _   r, ... IQIHe!,'tII quoll ...... I'• •)
                                                                  '!fluor II




U.S. Department of Justice                                                                                                      86
Office of the Inspector General
Evaluation and Inspections Division
       I.     (If tlt>1 Do va" bell_ It would bot ultlul for yo..- offll:. or lilt IHllIrtmtnt lo off.. I,alnln, on
              leference checkln,?
              0.6
              0,"
              o Den'1 k.now
       ~ Skip 10 qUHllon 35.

       b. (If,.." Old th.llllnllll or Inilluction Incklde clell,uldelinH petlalnln,lo whit mi. lad may ODI be
              Wd.ofleferences?
      0'6
      0 ...
      COon'trd

      e. Dk! tile 1,..,ln, or IMlructlon Mdrtsl how 10 dttermlr.e iQb 'QmRCtW!t! specific 10 lhe ~1I1on
         beln, filled In your offl~1
      o y"
      0",
      o 00n'1 rto:.l
    Pytpog qnd Iknd!rJ dl!rfcrcact qmcoo

        )S.    OYIIrill, bow .ffKltv. do '/011 COIllld" reflrellC. checklnllO b. it IIlldtinlthl t\'PI of Informitlon
               vau ntld to mik, .. Informed h l~nl dedilon?
      (RCAD 1lf5PONSC5}
      o V'ry filtctMI
      o Soml"fl'hlt filKlIvt
      o Not wry tfftctlvt
      oDOIhe'
        NotlffKlive 1\ all
              ________________________________________________________ _


        )6.    Iiow effKlM! do you conlider reference cIIectl!lflto be II oMllnl,,! information IPfC/fIaIy lbollla
               candid.te'$ti!or lob perform!!!,e?
       [RfAD RE5PON5E5}
      OVery effKlM!
      o SoInIwhn effKllw
      o Not wery effKlM!
       o
       oNO! effertIve 1\ ..
        Other _ _ _ __ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __ _ _


        Jl. 0Yer11~ how effectNe do       va"
                                            conlider refelente d\eetlni 10 be, compiCtd 19 other ml\l!llpn 100I!
            Ind N!CUmCDU "led throogboylthe him, proeeu to $e~ the best "ndld,!,? (. -t-, ptrfoomiCIC.
            l"nliuatlonl, wrllln, IImplel, interviews, etc.)
       [READ RESPON5ESI
       o 1.40... ,fflld""



                                                           ' ... 12 01 1S




U.S. Department of Justice                                                                                              87
Office of the Inspector General
Evaluation and Inspections Division
       o SomtwhJl mOtt effective
       [] About lilt 111M
        []~eff.etM
        []~h~      ___________________________________________________


        1I.    c.o you ,,"t.lny Iptd& IlIImplti of where your effl« dk! nel diN (tft"P!' but In .tlr<npKi
               mtsM 1II.e benefitltd from dolnl sol [Pltll' d""",,),


        n. tin you r,l'lI i1ny spedIIc rumples of where your off" d~ldtd Wl!W JIIrtn, som,one I!e~se of
               InfcrlllfllOll ~ul ... d In 01 rtfertno:t dltckl [PIe_ dtWIbr),


    When YaM Art Cqaltclts! "        , Boo""
    TIltse q.,..,!Jons flirt 10 ",",,10M wlle~ 1!21!~" ",Ikd <If a reference jor~n ,"'plol'' '' wIlo tulrtflli)! or
    launM., WOtted for I'CII WI baJ oppUed 10 ~fIO!htr pollrJon,

        ..0. Whit lel'tl of 6.UII do you provide when .Ikld .bout • fOtmtf or tur ... m employte'l perform.nel?



               I, How do you rtlPOlId 10 qUHlions p'".lr\Int to In ,mplcyw. of youn whom YOJ hiM found 10 bt
                  • poor perfor ..... r IIId whom you woukllil;t to _I,,", your offie, ?


         41,   Whlllllecilic qUIstionl an those who ~nt.et you for I rtftrtno:' 1$110 ,licit thl molt alldld
               mpol15tS from you ibout.1ormtr or (\I"",t ,mployu's btlll'llor .1Id ptrfomli~?


               I , 15 Ihtrt lI'IytNnl "seth, nller ~.n do Ot s'1 10 elidttht mOJ! ~ I'H9O<ISI from you .bout •
                   flIrm" or turf"'! ..... plcyet'l bt/lfVlor...,d perform.,,~.1


         42, To .. hll Pt'"t   If'
                                you Inhlbk.d by COl\(linl tktl \'OUr •• Iponlel ... IlOl considered «>nfldentlllind
             m.y bt provl.s.d to the andldlle n
        [~£AD ~ESPONSlSJ
        o V,ry inhibited
        [] Somtwlltt IMllllttd
        [] ltoI ... ry Inllobited
        [] Hot InhibKtd
        []~ .r
                        It . 11
                 ______________________________________________________ ___




U.S. Department of Justice                                                                                            88
Office of the Inspector General
Evaluation and Inspections Division
        U. IWo't you     p«10NI11y eYe' lKeO , Dedct:nt ~lrIol d,lm !~ "eplion thlt In employe, knew or
             .tf$CHIably IIlouIO h.... known till! In tmployH t!ley hired w.. unf~ for t~ Iobf "plnst you?
       0'_
       0",
            I.    (If ~l Whl l ImPIct, If lOY, IiiO tI!t d~ III-.. Oft tht WIY you o;ondll« rel, renct thtclu?


        ... H, .. you tver been prohibited lrom n!lpondln, openly to I ,,-.r'lICt tall you , eceived btclUl1 011
            ciciO rugrdsm"mtnt lnygMe. your ruulN or 10I'0Il' ,malovcer
       m_
       0",
            I . {II rnl WIIat wll thllmpKt, If 'ny, that thll diim I\H Oft the InklUnltiotl you pr1I"otiI6urln,
                ,eference dlKlu ?


    ConclLWOft
    1111 IcIJt/rM qu«tIcw ,-rroIn to YOIII O¥WIII Wtws Oft till ~r"',," ~ Plf/(fSJ, 1M/tIdIrrg..",. arHf
    .... did not eowr 0<"011  ",11/,,,
                                 1"" would Un to _",'further.

        d ~d Oft you, e>:PI~'''" with 'efertnCt ~htckln .. CIO VOl' poiN 10 l oy jlfobltms with the rt~.tIU
          check prOCtllo. ItUI tltl t IHm to "etd dlplnmlflt~CYlllUld,"ct or dinctloo?
       C Vtl(lptdfyf' _ _ _ _ _ _ _ _ _ _ _ _ _ __ _ _ __ _ _ __ _
       CNa                -

        "" HIW you, or ot~" In 'fO'I' office, ultd lOY      ,tf.""",
                                                       clllckil\t..... liIteo' bill pndlcel from anothtf
           orpnlutloo?
                        ___________________________________
                 CVa !~ ly fl




             0",
             C OrIn't krlOW

        U. "IIMlllmt I""" ." no IMpiinmentowide IlIQulremlflU or •• ldlnce 00 rtftfrnc, cheQIn,. How
           Itt.ct;.. W'Ould \'011 noo dtpil<ttnlflt·wIOe ~ui .. mtnll or IUidince on "fff"cI clleckin,?

        {/lEAD M$PONSE5/
        C VtfY tlfl!d.Mo
        C SomIwhat.lftctlvt
        o Not vary .ff«lMl
        C~~r'
                  teIM 1\ ill
        [] Not Iff_______________ _______________________




     • Tho,."" $y>_ 1"rv1~~ _ _ • d ... _ d 101 _ _ , .. antmPlovH' •• _                       ~ ,_

     thot .... - . _"" ... nil ....... f_obIo 10 ,IIttrnPlo¥to ... rttL«"" ",' _ 1 _ _ _ IIIt . . pIoy«.
                                                          , ,,,lIollS




U.S. Department of Justice                                                                                         89
Office of the Inspector General
Evaluation and Inspections Division
        q . if
       O Y~(~~II
                 t, .... anythlnl
                             .~   you would lik, -.Id abo.1 tilt ... nct
                                                 to
                           _____________________________________
                                                                    f....   c~kl
                                                                         ... p_ ?

       D"             -

    ThInk \'011 HI'f mud! foI your lIIM. TIIII wndudes our InleMtw.

    As t f\;ttd r;rier, \'OIIf respollWS ...1I be wmblnoed with InfOl'llllltion from other hlrIn, offI~l$ and
    ..ported only '" 1M agrtptt. If we !\ted 10 come !lICk to you 10 dartfy Of to follow lIP 011I0I'l11.", ...
    mlV COIIlld you ••• In.


    ThInks aplnl




U.S. Department of Justice                                                                                       90
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX VI: SELECTED TELEPHONE SURVEY 

                        RESPONSE RESULTS 



      This appendix describes selected component hiring officials’
responses to the OIG’s telephone survey about reference checking
practices. While we discuss many of the hiring officials’ responses in the
report body, this appendix provides additional responses not covered
elsewhere in the report. We interviewed 88 hiring officials from the
Department’s 17 largest components.97 The purpose of the survey was to
determine the processes components use to check applicants’ references
and what they find useful about reference checking in the hiring process.

Hiring Official Demographics

Years of Experience

       A majority (53 officials) of the hiring officials we interviewed had
more than 5 years of experience as a hiring official; only 1 hiring official
had less than 1 year of hiring experience. The 53 hiring officials with
more than 5 years of experience had an average of 13 years’ experience
in hiring.

Number of Employees Hired by Interviewees

       Hiring officials hired a median of 11 employees in the offices in
which they currently served. Hiring officials hired for a variety of job
series, but some officials only hired for operational or support staff
positions.98

Effectiveness of Reference Checking

      We asked hiring officials about the overall effectiveness of reference
checking and the effect it has had on hiring decisions.




       97 Appendix III lists the components represented in the telephone survey sample
and describes our methodology for drawing the sample.

       98 Operational staff are those employees who perform work directly related to
the mission of the agency. Support staff include administrative officers, human
resource personnel, and other staff who assist with agency operations.


U.S. Department of Justice                                                             91
Office of the Inspector General
Evaluation and Inspections Division
Did Not Check References but Should Have

       We asked hiring officials if they could identify instances where
their office did not check applicants’ references, but in retrospect might
have benefitted from doing so. Table 5 shows hiring officials’ responses.

                 Table 5: Instances Where References Were 

                    Not Checked But Should Have Been 

                                                   Number of
Response                                           Responses         Percentage
Yes                                                        8                9%
No                                                        79               90%
Unsure                                                     1                1%
                                       Total              88              100%
Source: Telephone survey.

       Hiring officials who said they did not check references reported
having negative experiences with the employees they hired. Four of the
eight hiring officials who described instances of hiring an applicant
without checking references said that the person they hired was
eventually fired. One official told us that the individual was reassigned.
Another hiring official said that the individual hired was a “disaster.” In
another case, the individual hired had relatives in the hiring office, which
affected coworkers’ perceptions of him. The remaining official told us
that his office found out “surprises” about the individual hired.

Did Not Hire an Applicant Based on Reference Check Information

      We asked hiring officials for examples of their office deciding
against hiring an applicant because of information uncovered during a
reference check. Table 6 shows hiring officials’ responses.

                Table 6: Instances Where Applicants
       Were Not Hired Because of Reference Check Information
Response                                       Number of Responses   Percentage
Yes                                                          34            39%
No                                                           41            47%
Don’t recall                                                 10            11%
Don’t know                                                    1             1%
Cannot provide                                                1             1%
Miscellaneous                                                 1             1%
                                      Total                  88           100%
Source: Telephone survey.



U.S. Department of Justice                                                        92
Office of the Inspector General
Evaluation and Inspections Division
       The list below describes some examples provided by the 34 hiring
officials who reported encountering information during a reference check
that led to a decision not to hire an applicant:

      Applicant was rated below average on a reference check form;
      Applicant exaggerated accomplishments on a résumé;
      Reference said the applicant does not have the skills to do the job;
      Received conflicting information from the applicant and the
       reference;
      Received “mixed reviews” from supervisors;
      References revealed a credentialing problem;
      Applicant claimed they left the job voluntarily when they did not;
      Reference described issues with applicant taking direction;
      Applicant applied for a position in which he or she has no
       experience;
      Performance appraisal was not satisfactory;
      Behavior of an applicant, such as the applicant would move
       frequently;
      Reference said they would not hire the person back;
      Applicants were applying for a higher grade but reference stated
       the applicant was not up to the performance level;
      Reference said hiring official might want to look at other
       applicants; and
      For internal hires, an investigation determined that the applicant
       was not truthful.

      Hiring officials described many instances in which information
uncovered in a reference check led to a decision not to hire the person.
In the few instances where reference checking was omitted and there
were problems later, the individual hired was fired or reassigned. Several
hiring officials we interviewed acknowledged that removing an individual
from a position in the federal government is time consuming and costly.

Inconsistencies in Information

      We asked hiring officials if they have ever encountered any serious
inconsistencies between information provided by an applicant on a
résumé or in an interview, or a reference that led the hiring official to
question the integrity of the applicant. Table 7 shows hiring officials’
responses.




U.S. Department of Justice                                               93
Office of the Inspector General
Evaluation and Inspections Division
  Table 7: Inconsistencies Encountered During a Reference Check
Response                              Number of Responses     Percentage
Yes                                                   30            34%
No                                                    52            59%
Don’t recall                                           6             7%
                       Total                          88           100%
Source: Telephone survey.

      Many of the 30 hiring officials who reported having encountered
inconsistencies during a reference check told us that uncovering
inconsistent information would lead to a desire to obtain more
information before a hiring decision is made, at the very least, or an
unwillingness to hire the applicant, at most.

Types of Information Sought and Questions Asked During a
Reference Check

      We asked hiring officials about the types of information they seek
during a reference check. Table 8 lists hiring officials’ most common
responses.




U.S. Department of Justice                                               94
Office of the Inspector General
Evaluation and Inspections Division
    Table 8: Most Common Types of Information Sought During a 

                       Reference Check 

                                                                                Number of
Information Type                    Description of Information                  Responses
Skills and abilities   Applicant skills and abilities pertaining to what they        40
                       will need to succeed in the position
Work ethic             Applicant’s work ethic                                        37
Interpersonal skills   Ability to get along with others                              34

Reliability            Whether the applicant is reliable                             19
Performance on the     Applicant success in their current position; degree           18
job                    of supervision needed; performance rating
Writing skills         Writing skills                                                14
Oral                   Ability to effectively communicate orally                     13
communication
skill
Time and               Timeliness                                                    13
attendance
Verification           Verification of past employment and                           13
                       accomplishments
Character              Applicant’s character                                         12
Attitude               Applicant’s attitude - Is the person pleasant to be           11
                       around? Do they approach work with a positive
                       attitude?
Honesty                Whether the applicant is honest                                9
Rehire                 Whether the reference would rehire the person at               9
                       their current position
Organizational fit     Whether the applicant will fit in at the new                   6
                       component
Ability to handle      How an applicant handles stress or works under                 6
stress                 pressure
Experience             What experience the applicant has                              6
Discipline             Have there been any disciplinary incidents or                  6
                       misconduct at past places of employment
Strengths and          Applicant’s strengths and weaknesses                           5
weaknesses
Embarrassing           Anything from the applicant’s past that would be               5
information            embarrassing or harmful to the organization
Initiative             Shows initiative                                               5
                                                                       Total       281

Note: The total number of responses to this question is greater than the total number
of hiring officials interviewed because hiring officials’ responses covered more than one
topic.
Source: Telephone survey.


U.S. Department of Justice                                                             95
Office of the Inspector General
Evaluation and Inspections Division
Variation of Reference Check Questions by Position

        We asked hiring officials if the information they seek during a
reference check varies by the type of position for which the applicant
applied. Table 9 lists hiring officials’ responses.

     Table 9: Variation of Reference Check Questions by Position
                                                                              Number of
Description                                                                   Responses
Reference check questions will vary by position depending on the skill              35
required for the position and performance expectations of the individual.
Does not vary by position.                                                         32

Official only hires for one job series so does not know if the questions             9
vary.
Miscellaneous: Similar questions, it varies, not too much variation, and             6
varies slightly.
Some questions in the reference check are the same and some are                      2
different for different positions

Don’t know                                                                           2

Not applicable                                                                       2

                                                                      Total        88
Source: Telephone survey.

Standardization of Reference Check Questions

      We asked hiring officials if they asked their own set of reference
check questions in addition to those that their office uses. Table 10 lists
hiring officials’ responses.




U.S. Department of Justice                                                           96
Office of the Inspector General
Evaluation and Inspections Division
    Table 10: Hiring Officials Who Ask an Additional Set of Questions
                        Number of
Response                Responses           Percentage (N=32)       Percentage (N=88)
Yes                           6                     19%                      7%
No                             21                   66%                      24%
Other                            5                  16%                       6%
             Total             32                 100%                       36%

Notes: Only hiring officials who responded that their office had a standard or position-
tailored set of reference checking questions were asked this question.
Percentages do not sum because of rounding.
a“Other” responses included hiring officials who said they ask follow-up questions
depending on a reference’s response and they try to keep the questions consistent for
each reference.
b Additional response categories, “sometimes,” “don’t know,” and “blank” had zero
responses.
Source: Telephone survey.

Questions about Poor Performance or Behavior

Direct Questions

      We asked hiring officials if they asked references direct questions
about whether an applicant has performed or behaved poorly on the job
(we asked about both topics in the same question). Table 11 and the
narrative below show hiring officials’ responses to that question.

           Table 11: Hiring Officials Who Ask Direct Questions
                   about Poor Performance or Behavior
Response                             Number of Responses           Percentage (N=88)
Yes                                                  33                    38%
No                                                    55                     63%
                     Total                            88                   100%

Note: Percentages do not add to 100 because of rounding.
Source: Telephone survey.

Indirect Questions

      Two-thirds of the hiring officials we interviewed told us that they
did not ask direct questions about poor performance or behavior, but
rather elicited answers through indirect questions. Some of the topics
hiring officials said they used to determine the answers were:


U.S. Department of Justice                                                            97
Office of the Inspector General
Evaluation and Inspections Division
              ability to handle stress;
              timely arrival to work each day and handling multiple
               assignments;
              questionable events in their background;
              ethical behavior;
              team work;
              responsibility;
              dependability;
              whether the reference has any reservations about the
               applicant;
              what the reference would change about an applicant;
              how the reference would rate the applicant;
              whether the reference would hire the person again;
              strengths and weaknesses; and
              “What do you think about this person?”

Hiring Officials’ Comfort Level with Legal Limitations on Reference
Check Questions

      We asked hiring officials whether they were comfortable in their
knowledge of what can and cannot be legally asked when conducting
reference checks. Table 12 shows hiring officials’ responses.

       Table 12: Comfort Level Asking Reference Check Questions
Comfort Level                         Number of Responses        Percentage
Very comfortable                                            55        63%
Somewhat comfortable                                        32         36%
Not very comfortable                                         1         1%
Not at all comfortable                                       0         0%
                         Total                              88      100%
Source: Telephone survey.

Unclear Topics

       We asked hiring officials to provide examples of questions they
would like to ask during a reference check, but believe that they cannot
ask due to legal or privacy concerns. The list below shows hiring
officials’ responses:

       Applicant’s reliability in coming to work;
       How the applicant spends his or her time at work;



U.S. Department of Justice                                                   98
Office of the Inspector General
Evaluation and Inspections Division
   	 Whether the applicant has had any discrimination complaints
      brought against them and whether the applicant can handle
      diversity;
    Whether there have been any problems that would affect the
      applicant’s ability to perform the job;
    Whether there have been any behavior issues (if the applicant has
      behaved poorly); 

    Whether the applicant can work on a Saturday or Sunday; 

    Whether the applicant has had poor evaluations; 

    Applicant’s leave usage, including sick leave, and time and 

      attendance;
    Applicant’s appearance;
    Questions of an employee who is married to an applicant;
    Applicant’s marital status and whether he or she has children;
    Applicant’s military service;
    Whether the applicant has any physical problems that would
      prevent him or her from doing the job;
    Why the applicant is leaving his or her current position, especially
      for a lateral transfer;
    How the applicant interacts with others;
    Whether there have been specific problems between the applicant
      and coworkers; 

    Whether the applicant is taking any medication; 

    Applicant’s personal affiliations; 

    Whether the applicant has ever been fired; and 

    If the applicant has a disability, what type. 


Contact with Current Supervisor

       We asked hiring officials what they do when applicants state on
their applications that they do not want their current supervisors
contacted. Table 13 describes some of the most common hiring official
responses.




U.S. Department of Justice                                               99
Office of the Inspector General
Evaluation and Inspections Division
     Table 13: Most Common Actions if Applicant Does Not Want 

                      References Contacted 

                                                                               Number of
Category Definition                                                            Responses
Will ask if the supervisor can be contacted only if the applicant is in              23
serious consideration for the position
Never encountered the scenario                                                       20

Will not contact the supervisor if the applicant indicates that they do              20
not want the supervisor contacted
Hiring official would ask why an applicant indicated that they did not               15
want their supervisor contacted
If the applicant does not want the supervisor contacted, the hiring                    9
official will ask for other references
Hiring official will contact the applicant’s supervisor even if the                    6
applicant noted that they did not want the supervisor contacted
                                                                      Total          93
Note: The number of responses is greater than the number of hiring officials
interviewed because hiring officials’ responses covered more than one topic.
Source: Telephone survey.

Training

       We asked hiring officials if all the employees in their organization
who are responsible for conducting reference checks have received
training or instruction on how to carry out the task. Training ranged
from informal training by the head of the hiring official’s section
providing verbal guidance to formal training from human resource staff.
Table 14 describes hiring officials’ responses.

  Table 14: Whether Office Received Reference Checking Training
                                                     Number of
Response                                             Responses            Percentage (N=88)
Yes                                                         47                     53%
No                                                          23                     26%
Don’t know                                                  18                     20%
                                         Total              88                    100%
Note: Percentages do not add to 100 because of rounding.
Source: Telephone survey.

      We asked the 41 hiring officials who did not receive reference
check training or did not know whether they received the training
whether such training would be useful. Table 15 shows hiring officials’
responses.
U.S. Department of Justice                                                             100
Office of the Inspector General
Evaluation and Inspections Division
    Table 15: Whether Reference Check Training Would be Useful
                                              Number of
Response                                      Responses   Percentage (N=41)
Yes                                                  32             78%
No                                                    3               7%
Don’t know                                            2               5%
Blank                                                 4             10%
                                      Total          41            100%
Source: Telephone survey.

       We asked the 47 hiring officials who received reference check
training if the training included material on what can and cannot be
asked during a reference check. Table 16 shows hiring officials’
responses.

    Table 16: Whether Training Included Guidance on Permissible
                             Questions
                                              Number of
Response                                      Responses   Percentage (N=47)
Yes                                                  33             70%
No                                                    5             11%
Don’t recall                                          7             15%
Not sure                                              1               2%
Blank                                                 1               2%
                                      Total          47            100%
Source: Telephone survey.

       We also asked the 47 hiring officials who received reference check
training if the training included guidance on how to identify job
competencies. Table 17 shows hiring officials’ responses.

      Table 17: Whether Training Addressed How to Identify Job
                           Competencies
                                              Number of
Response                                      Responses   Percentage (N=47)
Yes                                                 13             28%
No                                                  26             55%
Don’t recall                                         7             15%
Not sure                                             1              2%
                                      Total         47            100%
Source: Telephone survey.




U.S. Department of Justice                                             101
Office of the Inspector General
Evaluation and Inspections Division
Other Issues in Reference Checking

Social Media Usage in Reference Checking

      We asked hiring officials if they check publicly available social
media sites, such as Facebook, as part of the reference checking process.
Table 18 shows hiring officials’ responses.

            Table 18: Social Media Usage in Reference Checking
                                                  Number of
Response                                          Responses       Percentage (N=88)
Yes                                                       8                 9%
No                                                       69                78%
Sometimes                                                 5                 6%
Don’t know                                                6                 7%
                                          Total          88               100%
Source: Telephone survey.

       Of the 13 officials who reported they checked social media sites at
least sometimes, 7 hiring officials told us that the practice was not very
informative or helpful. Only three hiring officials told us that checking
social media sites was effective or informative. The remaining three
respondents who checked social media sites did not comment on the
effectiveness of the practice.

Negligent Hiring Claims

      We asked hiring officials if they had ever had a negligent hiring
claim against them and, if so, whether the claim affected the way they
conduct reference checks.99 Table 19 shows the responses.

               Table 19: Involvement in a Negligent Hiring Claim
                                                  Number of
Response                                          Responses            Percentage
Involvement in a negligent hiring claim                    2                  2%
No involvement in a negligent hiring claim                 86                98%
                                          Total            88              100%
Source: Telephone survey.




       99 MSPB defines a negligent hiring claim as an allegation that an employer knew
or reasonably should have known that an employee it hired was unfit for the job.


U.S. Department of Justice                                                         102
Office of the Inspector General
Evaluation and Inspections Division
      The two hiring officials who reported having a claim brought
against them said the claim had no impact on the way they conduct
reference checks.

When Hiring Officials Are Contacted as References

      Because Department hiring officials are themselves likely to be
contacted for a reference, we asked them to describe how they respond to
questions from other reference checkers. We collected this information
in part based on the common misconception, noted by MSPB, among
reference providers that discussing performance or job-related behavior
of an employee is not legal.

Level of Detail Provided by Hiring Officials

      We asked what level of detail hiring officials would provide if they
were called for a reference in general. Table 20 shows the responses.

          Table 20: Level of Detail Provided by Hiring Officials 

                 When Called as a Reference (in General) 

Response                                                      Number of Responses
Would only answer the questions they are asked                                24
Would be honest about an applicant’s performance                               15
Has not been asked for a reference or does not recall the                      12
level of detail provided
Depends on the type of performer the applicant was (if                         11
outstanding, would provide more detail)
Only gives facts about the applicant (dates of employment,                     10
job duties) and does not volunteer information
Provides a great amount of detail                                               8
Provides a fair amount of detail                                                6
Only responds to questions on a standard form                                   4
Provides answers to questions based on the applicant’s                          2
performance rating
Depends on the questions asked                                                  2
Depends on the applicant’s experience                                           1
                                                     Total                     96
Note: The number of responses is greater than the number of hiring officials
interviewed because hiring officials’ responses covered more than one topic.
Source: Telephone survey.

      We also asked what level of detail hiring officials would provide if
they were called for a reference on a poor performer whom they would

U.S. Department of Justice                                                      103
Office of the Inspector General
Evaluation and Inspections Division
like to see leave their office. Unlike the responses given in the previous
question regarding references in general, hiring officials responded most
frequently that they would be honest about a poor performer. Table 21
shows the responses.

         Table 21: Level of Detail Provided by Hiring Officials 

         When Contacted as a Reference (for a Poor Performer) 

Response                                                       Number of Responses
Would be honest about a poor performer                                         38
Has not encountered this scenario                                              23
Would only answer the questions they are asked                                  7
Would be fair in answering the question and would give                          6
positives and negatives
Would answer the questions carefully                                            5
Will not provide negative information or will focus on                          5
positives
Would defer answering the question or ask not to comment                        2
Depends - if it comes from a federal agency, might answer                       1
the question but if it comes from a non-federal agency,
might not.
Would be neutral or dishonest in answering the question                         1
Would respond that they would not rehire the applicant.                         1
Would rate the applicant in terms of where they fall                            1
compared to other employees
Would be very specific                                                          1
Would keep responses brief                                                      1
                                                       Total                   92
Note: The number of responses is greater than the number of hiring officials
interviewed because hiring officials’ responses covered more than one topic.
Source: Telephone survey.

Inhibited by Privacy or Confidentiality Concerns

      We asked hiring officials if they felt inhibited by concerns that their
responses would not be considered confidential and might be provided to
the applicant. Table 22 shows hiring officials’ responses.




U.S. Department of Justice                                                      104
Office of the Inspector General
Evaluation and Inspections Division
              Table 22: Inhibited by Lack of Confidentiality
                                                    Number of
Response                                            Responses            Percentage
Very inhibited                                              2                  2%
Somewhat inhibited                                         20                 23%
Not very inhibited                                         14                 16%
Not inhibited at all                                       46                 52%
Other                                                       6                  7%
                                        Total              88               100%
Source: Telephone survey.

      Of the hiring officials who responded with “other,” two stated they
had never encountered the situation; one noted that he would be more
reluctant if he were receiving a call from the private sector; one told us
that he would feel more comfortable if the person calling was someone he
knew; one official told us that he would contact his office’s human
resource department if he had a question about responding; and one
hiring official was unsure.

Problems with the Reference Checking Process

       We asked hiring officials to identify problems with the reference
checking process. More than half of the hiring officials (56 percent)
identified problems. Table 23 describes the problems most commonly
identified.

              Table 23: Most Commonly Identified Problems
                    with the Reference Check Process
                                                                              Number of
Description of Problem                                                        Responses
Inadequate guidance – A lack of clear guidance on the reference check             20
process.
List of reference check questions that can and cannot be asked is not             16
available – No list of questions that can and cannot be asked during a
reference check. Many of these officials specified a need for a brief, one-
page set of questions.
Honesty – Whether references were being honest in the information they            10
gave about applicants. Hiring officials were particularly concerned about
current supervisors, whose incentive to help a poor performer find other
employment might discourage an honest assessment of an applicant’s
skills.
Training – Insufficient training in the reference checking process.               10
Source: Telephone survey.




U.S. Department of Justice                                                         105
Office of the Inspector General
Evaluation and Inspections Division
               APPENDIX VII: REFERENCE CHECK QUESTIONS 



      This appendix provides a consolidated listing of potential reference
check questions suggested by OPM and MSPB for hiring official use, as
well as questions identified as useful by component hiring officials and
managers that we interviewed in the Department.100

       Table 24 lists all of these potential reference check questions, in
logical groupings, along with each question’s respective source. The
specific questions that were recommended by Department hiring officials
throughout the course of this review are source coded “INT” in Table 24.
Primarily, these respond to the set of questions that were part of the
telephone survey and are listed directly below:101

   	 “What types of questions do you ask to elicit the information you
      are seeking?” (telephone survey question 25)

   	 “Which questions have you found elicit the most useful information
      from a reference?” (telephone survey question 26)

   	 “Do you ask your own set of additional questions that are not part
      of your office’s typical questions? If yes, what would be an
      example?” (telephone survey questions 29 and 29a)

   	 “What specific questions can those who contact you for a reference
      ask to elicit the most candid responses from you about a former or
      current employee’s behavior and performance? Is there anything
      else the caller can do or say to elicit the most candid response from
      you about a former or current employee’s behavior and
      performance?” (telephone survey questions 41 and 41a)

      We present the questions in the sequence recommended by MSPB
(described in Appendix II) and organized by category. For brevity and
consistency, we combined similar questions and adopted common
terminology and tense.102 Components should coordinate the reference

       100 OPM and MSPB sources: OPM, Reference Checking (undated), and MSPB,
Reference Checking in Federal Hiring: Making the Call (2005).

       101	   Appendix V contains the telephone survey instrument.

       102  The 88 component hiring officials who participated in our telephone survey
and the officials we interviewed verbally stated the questions, therefore not all questions
reflect exact wording. We also adjusted some of the questions to reflect the open-ended
                                                                                   (Cont’d.)
U.S. Department of Justice                                                             106
Office of the Inspector General
Evaluation and Inspections Division
check questions they select for use by their hiring officials with their
supporting Offices of General Counsel. In addition, in Reference
Checking, OPM reminded hiring officials that while checking references it
is possible that the applicant may view a situation, interaction, or goal
accomplishment differently than a reference and that some discrepancies
may emerge as a result. OPM advised that if hiring officials receive
information from a reference that differs from what the applicant said, it
may be beneficial to allow the applicant an opportunity to clarify.

              Table 24: Selected Reference Check Questions 

                     Recommended by Hiring Officials 

Questions                                                                         Source
1st – Verification Questions
MSPB recommended that a reference check begin with fact-oriented questions to verify
information that the applicant provided on a résumé or during interviews, including
training and experience claims.
What is your name, job title, and employer?                                     MSPB
In what capacity did you work with the applicant (peer, supervisor)?            OPM
How long did you work with the applicant and how long ago?                      MSPB
Did the applicant hold a leadership position?                                   INT
Describe the applicant’s role and the duties performed.                         OPM, INT

Describe the applicant’s proficiency and knowledge in [subject area].           INT
What kind of work-related training, certificates, education, or other           OPM, INT
qualifications does the applicant have? [Compare to résumé.]
Was the applicant recommended for an individual award? Why or why not?          INT
2nd – Performance and Competency Questions
After the fact-oriented, verification questions, MSPB recommended that the reference
check interview progress to a more evaluative discussion of the applicant’s past
performance and competencies.
[Describe job title, vacant position, and responsibilities.] Would you find the  INT
applicant suitable to perform in this position? Why or why not?a
[Describe job title, vacant position, and responsibilities.] Do you think the    INT
applicant would be a good fit for the position/organization?
[Describe job title, vacant position, and responsibilities.] How does the work   INT
the applicant did relate to this work [vacant position]?
Do you think the applicant has [trait needed for position]? Why or why not? INT
How well did the applicant know the work?                                       OPM

How well did the applicant perform the job?                                     OPM



style recommended by MSPB and OPM. Word changes primarily entailed using
“applicant” in lieu of “candidate” for consistency, “this person,” and “his/her.” We list
all questions in past tense.


U.S. Department of Justice                                                             107
Office of the Inspector General
Evaluation and Inspections Division
How well did the applicant manage the workload?                                   OPM

How well did the applicant meet deadlines?                                        INT

How did the applicant react to criticism? Provide an example.                     INT
To what extent was the applicant organized?                                       INT
How much supervision did the applicant require?                                   INT
Describe the applicant’s analytical ability [or other ability needed].            INT
What type of judgment did the applicant show?                                     INT
What motivated the applicant?                                                     INT
Describe the applicant’s skills in the following areas: [position competencies]   INT
(writing, research, advocacy, problem solving, etc.).
How would you rank the applicant’s performance against his or her peers?          INT
How flexible was the applicant?                                                   INT
What kind of product did the applicant produce?                                   INT
[For attorneys] Would you have enough faith in the applicant to represent         INT
you or your spouse in litigation? Why or why not?
[For supervisors] How did the applicant motivate people?                          INT
[For supervisors] How did the applicant interact with subordinates?               INT
[For supervisors] How would you describe the applicant’s leadership style?        INT

[Describe performance evaluation applicant submitted.] How well does the          INT
last performance evaluation capture the applicant’s performance? Provide
an example.b
How would you describe the applicant’s relationships with co-workers,             OPM, INT
subordinates, and supervisors?
How did the applicant engage with senior management?                              INT
How well does the applicant communicate?                                          INT
How well did the applicant fit into the office or organization?                   INT
Can the applicant articulate technical information at the right level (such       INT
as making a complicated topic easy to understand)?
To what extent was the applicant passionate about his or her work?                INT
Describe the applicant’s work ethic.                                              INT
How quickly did the applicant learn?                                              INT
To what extent was the applicant a team player?                                   INT
How would you rate the applicant’s honesty and integrity?                         INT
To what extent did you find the applicant dependable?                             INT
How well did the applicant handle stress? A crisis?                               INT




U.S. Department of Justice                                                              108
Office of the Inspector General
Evaluation and Inspections Division
3rd – Developmental Needs Questions
After a discussion of the applicant’s performance and competencies, MSPB recommended
that the reference check discussion address the applicant’s developmental needs.
What were the applicant’s strengths?                                          OPM
What were the applicant’s weaknesses or areas for improvement?                  OPM, INT
4th – Sensitive Questions
MSPB recommended that a discussion of sensitive information, such as potentially
inappropriate workplace behavior, take place late in the reference check interview.
Why is the applicant leaving the position?                                      INT
Has the applicant’s performance or behavior ever been poor? Please              INT
provide an example.
Do you have any reservations about the applicant? If so, what are they?         INT
Has there been any concern about the integrity of the applicant? If so,         INT
please provide an example.
Has the applicant been at fault in any confrontations that were                 INT
counterproductive to the organization? If so, please provide an example.
5th – Closing Comments and Catch-all Questions
The following questions represent the types of questions found at the end of many
Department reference checking questionnaires.
What is your overall assessment of the applicant?                               INT
[Describe job title, vacant position, and responsibilities.] Would you          OPM, INT
recommend the applicant for this position? Why or why not?
Was the applicant a valued employee?                                            INT
Is the applicant eligible for re-hire in your organization?c                    OPM

Would you re-hire the applicant? Why or why not?                                INT
Is there anything else [job-related] you would like to share about the          INT
applicant?

a OPM cautioned that questions asking references to make a “judgment call” of how well
the applicant will do in the new position are less reliable than questions designed to
verify an applicant’s past work behavior and experiences.

b MSPB cautioned that when asking about performance appraisals, hiring officials
should probe for specific examples of behavior in lieu of relying on summary
evaluations such as “outstanding” or “excellent.” MSPB cited the greatest value of
performance appraisals as being a memory aid to a former supervisor who is describing
an applicant’s behavior as observed on the job.

c Several hiring officials told us this question, which appears on the Form OBD-236, is
confusing to them and to references. A more useful question, according to hiring
officials, is the next one: “Would you re-hire this person? Why or why not?”

Sources: OPM and MSPB resources and responses from component hiring officials we
interviewed (INT).




U.S. Department of Justice                                                            109
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX VIII: JUSTICE MANAGEMENT DIVISION RESPONSE TO 

                       DRAFT REPORT 





                                                                     l   ~   .i>tpartmcnt of J uslitt




               DEC 1 0 1012



           MEMORANDUM FOR JASON HIG LEY
                          ACTING ASSISTANT INSPECTOR GENERAL
                                         FOR EVA LUATION A

                                       \Iari Ban Samang
                                       Ueput} As:Ustar.t Attorn
                                        for Human Resources

                                     .R.cspou..~ to  tho.: Office of the Inspeocror General" s draft report
                                      ""Rt!fert!nC(" Ched:ing in the l">epartment of Jt1Stic~""

           1.3~ Jl5ticC' Maf!a!Clllent Division (JMO) has re"iewcG the Off~ of me Inspe:\(!. Genem:':."
           dsaft ~ titlod "" Rc f~fKT Chcd:.ing in (re i)epartm:nt uf Just il'C""_ JA.'t: take tho! report.uruier
           ah"isement-;.}nd "ill defc:nnit' l:: the bo1.approoch 10:u:kheo:s tbili mue from Il DqwtITICllt .....irl:;:
           ~\-e-_ ~ ~                th.u refoo:-ooccbecks 3.TC 3D essemial.a:nd!iOlilld manag<"meIf! prac~"
           " 'e. identified the f<lUo\!oing comments 00 the report n:commencimion:;;
          RoJocommltftd;adl}l] jl: lsl!:lI~ g.u.id1Da. 10 Dcp:a.rtlDll"nt Compone nt HC':ilcU, uecuth"c
          011inn. and HIl.IlUIIB ResourttS OffiCEn1 t.:brif);nJ:: Ih r purposes of. and distinctWos
          -aetw~ lillibbility dctcrmioat iow; {sucn as ~"oudt(:ring) and nefl' rUioc chs:killg, in~iudin:;
          1tiffrn:uces ill lopil3 cm'cr-ed, .,."ho couducts the clJ~ks, Ihe SOUI"«S~ nhrch'd. and"w).-"'! ~3
          Ihe hirin~ process elleh oeeu~"

          llH) HUIJI3.11 ResolKttS (J~tD UN.) wili iswe guidaooe to <-'orn.ponerll HcaO.s" Ex-xuti\"e
          Offi~'7S. and Hwroan RcsolIDX'S Offica$ regarding ~f~~'t: "becKs. The new guir.lanoc- ui;:
          c:!;nify suilabilit~, detennirunions (sucb.as \"tHIochering) and rd"en.:ooc cm.-cking a nd the- mcst
          appmpria1e lime 10 ~ I:Ix:s.! ~ \\bro mating. him:; docisiOffi" M)-~" guitiMa:
          ~eI~ will he ir.. cQl'lcert wilh the Officl!(lfPer9JWldj.,1 aD!1g.cmr:nt" s ~lisbcd            ~uid·
          Ji:ld ill p..lJtD<'n.iJip wIth the J:\10"!j. ()ff"J(:C Qf Gent-ral {'-<:,Iti:A:;

          ~UllIlU!Bdallnn al: Rritenlc CDmpoot'nut ubtigillirioo to fanow O"~R:M Memon:ndnw..
          .:1.10"3 , ~-:hi£h ,""" u ~ bQtb n!f1lfl"llC'e cbl.'dtiJI.g and l"otlchmng lUio: form OBD-2M-1"vr
           attorney C-i1l\lidaII.'S"




U.S. Department of Justice                                                                                               110
Office of the Inspector General
Evaluation and Inspections Division
           Memorandum for Joson Higley                                                                                2
           .subjett The Office oflheJ nSpedOT Genc:rafs R'!\--K-,IIt" of
                    ''Reference Checking in the Department of Justice·

          J MD -coocurs with this recommcmimon, and ",ill r-eifenne thr Components' obligatioo ttr..«'ondu~1
           ~th refc:rcncc-ehedting.a1Il 'KIuc:bering for attom~' e.andidme:5O; and 'A; il tak~ sC'\'era!;additionai
          :rqttto reinfOlce:this re~uirerncnL first. the omu.: of Aoomey Rocmitmenr.snd \1:magemerr.
           ~ARM) currentlj" provides (and ""-ill CClluill1lc til pIO_   , ·ide) annual wtcn~iew mining fix lIonor:'i
          Program intcrvicu-e:n, whidtinclndesa segment on I"f'fenn:echecking. We also undemand ttr.fl
          .:::!x San~ Cooncil:s prep:mng an Employme.nt Refo!:reooe Qu;::stioun3ire. that wouid CNfIIi:Jine
          eem::nts.ofboth ~ao::l referencechtxkiw;.. Wbe-:l it is approved for Dc:panm::n..-wilie
          ~ by JMD, JMD HR and OARM "",;ill reY~""'l!le Que.."'rionnaire-anci <k-mmineifn :.,.
          ~priate to require that ~ be submitted to QAR.\.{ ....ilh tile. pm-empl()ym:'fll flC-rer'A'OTK.fu r
          1I!to."TIey--I:i1Ddidall'S. And third, if <II completed haC"lground in n:5tigation rcfi"eCis pesform~
          3sueS or concerns at a uruticbtc"s previous employei, OAR.M will foUow up ",-ith tbc-hiring
          Component to d~nnine v.betbe referenoe checks \!-1:fC c.onduCled prior to making a.:xondi-OOnai
          c&... and rmrino the Conl{JOOl!'n: oftfte rcquirem:::lu:hat rh6 bedDoe,

          .M.ccommendat ion #3: lknfop and M ue (hop:U1"mCDH"ide guidaoce uo (De                  U !lC'   of rd"ue:oce
           c hecks.

           See response \0 Recommendation # I.

          AWc.ommelldatioo JJ4.: ~t Com pon ena to upd.llfl': or i~... ue ooOl prffieosive n-[en8('t:;
          dud; ~uitb.o ce:
                         that m eets their lfTlique hiring Ilftd8;.

          J.\fD. as a mallcr ..,( COUJ5e, assists Comp.lnO(llS \\-;m myriad HR lssms and wl,luld pl(nioe:
           ~kal HR 2lI\'iC'c and,.as-n~. dirediUlH.lIlthis topt...-as~:"


          lht;:ommcadation 115: Cra. e a (eDl)"3l loC'.d ioo UII tbe: Lkp.. nllll:-nfs inlnoel Wneft"
          :wert! RJertllr't" dJeock guidaDtt furComponeoB and birin.g mllmllgfl"$ i$ postOO and
          ~1ar:ty ltPciaud, indllliio~ guiduu::r from Ol'.:\1.and :"oiSPB. 311wcll :as ikpartmrTH OHT
          ~.l"IIclices   and !lImple rd('1"eol"e C'h«k questions.

          .'MD do..';$ 00( CQllICur lAiln thisn rommend:ation. Jt..fD.HR will detemrinC" "ilc(n er~
          2~-dopi ng, posting, and updating .grncral me-renee dled: gtid:anre.,:as opposed to official
          Departmental g.uid;1llCe, is apprT.JJ:lliatC'. JMD HR pasts all IlIOcess.uy guidance to eithes- l3e !XH
          Human RJ:so uu..-a; wcbpage- m: OOJ-Nd reguirutr- Tilese wehsites sen~ as a ttlltrai:ized.tocmioo
          malJ HR memoranda and guid.:llX'C" to t:mpio}~and Human ResmU"CC'S OfficiaJs.

          RC«Immend .lltiou #& P[t).....ide periodic tnining'DD r-efe-re-tlct'"di2da, or indudt'-ft .as~ pm
           of broader human resource Iruining.

          :.wn ..wi e:q:alo..-etnc necnsity·and t~-pe of training 00 this issue:. If we derenni:ne SlX'n-naining
          is ~'o ~ ~;II dcknnine the pricri!y, metbodology-and impkmemmiDn of su6__~
          .1:ltter {)f COUNt.. we use ()W: kaming nmnagemclll ~"litcrns to admioilkrtrnining I~
           Department-wide in scope.




U.S. Department of Justice                                                                                          111
Office of the Inspector General
Evaluation and Inspections Division
          M emorandum for Jason Higley
          Subted: The; Offic~ ,,(the- fnSf1OC1Oi Gent:'rah Reviewilf
                 "Referro..-e Cbecl:ing in the f)qwtlnc:nt of JU5lice'

          Thalli; ~"'lU fnl:ibe Oppoffil.Ril~· to pro\~ this response... Sbaukl YilU hau, au)' lj~ pfe'..t:'K'"
          COOClCt   me at !ofari5lrllangdo@usdoj.l'Ov OT.202-)l.4-550I, ofTercoc-e L CoOOit., Dir"«Ior,
          HulIUUl R~ . T~.LCOll4c ":i. 1Lm.gqv or m-5144~!;C,.




U.S. Department of Justice                                                                                        112
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX IX: OIG ANALYSIS OF JUSTICE MANAGEMENT DIVISION 

                        RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the Justice Management Division for its comment. JMD’s response is
included in Appendix VIII to this report. The OIG’s analysis of JMD’s
response and the actions necessary to close the recommendations are
discussed below. Please provide requested information and
documentation by February 1, 2013.

Recommendation 1: Issue guidance to Department component heads,
Executive Officers, and Human Resources Officers clarifying the
purposes of and distinctions between suitability determinations
(vouchering) and reference checking, including differences in topics
covered, who conducts the checks, the sources contacted, and when in
the hiring process each occurs.

       Status: Resolved.

      JMD Response: JMD stated that JMD Human Resources (JMD
HR) will issue guidance to component heads, Executive Officers, and
Human Resources Officers regarding reference checks. The new
guidance will clarify suitability determinations (such as vouchering) and
reference checking and the most appropriate time to use these processes
when making hiring decisions. Any new guidance developed will be in
concert with the Office of Personnel Management’s established guidance
and in partnership with JMD’s Office of General Counsel.

       OIG Analysis: JMD’s response is partially responsive to this
recommendation. JMD HR’s guidance to component heads, Executive
Officers, and Human Resources Officers should include who should
conduct the checks and the sources that should be contacted. Please
provide the OIG with a copy of this guidance when it is issued to the
components.

Recommendation 2: Reiterate components’ obligation to follow OARM
Memorandum 2010-3, which requires both reference checking and
vouchering using Form OBD-236 for attorney applicants.

       Status: Resolved.

      JMD Response: JMD concurred with this recommendation,
stating that it will reiterate the components’ obligation to conduct both
reference checking and vouchering for attorney candidates, and that it

U.S. Department of Justice                                              113
Office of the Inspector General
Evaluation and Inspections Division
will take several additional steps to reinforce this requirement. JMD
stated that OARM provides (and will continue to provide) annual
interview training for Honors Program interviewers that includes a
segment on reference checking. Additionally, the SAVE Council has
developed an Employment Reference Questionnaire combining elements
of reference checking and vouchering. Once the form is approved by
JMD, JMD HR and OARM will review the questionnaire and determine if
it is appropriate to require that it be submitted to OARM with the pre­
employment paperwork for attorney candidates. Lastly, JMD stated that
in the event a completed background investigation reflects performance
issues or concerns at a candidate’s previous employer, OARM will follow
up with the hiring component to determine whether reference checks
were conducted prior to making a conditional offer and will remind the
component of the requirement that reference checks be done.

       OIG Analysis: JMD’s and OARM’s actions are responsive to this
recommendation. Please provide the OIG with the FY 2013 training
dates for Honors Program interviewers and a copy of the training
material that addresses reference checking. Additionally, please provide
the OIG a copy of the approved SAVE Council questionnaire and an
update on whether JMD HR and OARM decide to include the
questionnaire in the required pre-employment paperwork for attorney
positions.

Recommendation 3: Develop and issue Department-wide guidance on
the use of reference checks.

       Status: Resolved.

     JMD Response: JMD referred the OIG to its response to
Recommendation 1.

     OIG Analysis: As with the OIG’s analysis of JMD’s response to
Recommendation 1, please provide the OIG with the specific content of
JMD HR’s reference check guidance.

Recommendation 4: Assist components to update or issue
comprehensive reference check guidance that meets their unique hiring
needs.

       Status: Resolved.

      JMD Response: JMD stated that it routinely assists components
with human resource issues and would provide technical advice on
reference checking as needed.

U.S. Department of Justice                                           114
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis: JMD’s response is partially responsive to this
recommendation. While JMD indicated its willingness to assist
components with their human resource issues, the response did not
specify the affirmative steps that JMD intends to take to assist the
components in identifying the new guidance, or updates to existing
guidance, that each component may need with respect to reference
checking. Please specify the affirmative steps JMD intends to take,
including the dates of any regular or previously scheduled forums that
JMD intends to use to address the subject of needed additional reference
checking guidance with any Department component.

Recommendation 5: Create a central location on the Department’s
intranet where general reference check guidance for components and
hiring managers is posted and regularly updated, including guidance
from OPM and MSPB, as well as Department best practices and sample
reference check questions.

       Status: Unresolved.

       JMD Response: JMD did not concur with this recommendation
and distinguished between “general” reference checking guidance and
“official” Department guidance. JMD stated that while it will post all
official Department guidance, it will determine whether developing,
posting, and updating “general” reference check guidance is appropriate.
JMD further stated that JMD HR posts all necessary guidance to either
the DOJ Human Resources webpage or DOJNet regularly and that these
sites serve as the centralized location for all human resource
memoranda.

       OIG Analysis: JMD’s response is partially responsive to the
recommendation. The OIG agrees with JMD that the DOJ Human
Resources webpage or DOJNet would be appropriate locations for
reference check guidance to be posted. However, JMD should make both
“official” Department guidance and useful reference checking guidance
from other government sources (such as OPM and MSPB) available to
component heads, Executive Officers, and Human Resources Officers,
with each category of guidance clearly identified to avoid confusion.
Please provide the OIG with a copy of the “official” guidance and the
online address where it and links to other useful guidance are posted.

Recommendation 6: Provide periodic training on reference checks, or
include it as a part of broader human resource training.

       Status: Resolved.


U.S. Department of Justice                                           115
Office of the Inspector General
Evaluation and Inspections Division
       JMD Response: JMD stated that it will explore the necessity and
type of training needed on this issue. JMD suggested the learnDOJ
training tool as the mechanism for delivering any future training.

      OIG Analysis: JMD’s response is responsive to this
recommendation. The OIG agrees that learnDOJ would be an
appropriate mechanism for delivering future training on reference
checking. Please provide the OIG with JMD’s reference check training
materials (or the relevant portions of broader human resource training)
and JMD’s intended frequency of such training.




U.S. Department of Justice                                           116
Office of the Inspector General
Evaluation and Inspections Division
